<html>
<title> - FUELING THE HIGH TECH WORKFORCE WITH MATH AND SCIENCE EDUCATION</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                    FUELING THE HIGH TECH WORKFORCE
                    WITH MATH AND SCIENCE EDUCATION

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 23, 2004

                               __________

                           Serial No. 108-38

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science



                                 ______

91-364              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
JOE BARTON, Texas                    NICK LAMPSON, Texas
KEN CALVERT, California              JOHN B. LARSON, Connecticut
NICK SMITH, Michigan                 MARK UDALL, Colorado
ROSCOE G. BARTLETT, Maryland         DAVID WU, Oregon
VERNON J. EHLERS, Michigan           MICHAEL M. HONDA, California
GIL GUTKNECHT, Minnesota             BRAD MILLER, North Carolina
GEORGE R. NETHERCUTT, JR.,           LINCOLN DAVIS, Tennessee
    Washington                       SHEILA JACKSON LEE, Texas
FRANK D. LUCAS, Oklahoma             ZOE LOFGREN, California
JUDY BIGGERT, Illinois               BRAD SHERMAN, California
WAYNE T. GILCHREST, Maryland         BRIAN BAIRD, Washington
W. TODD AKIN, Missouri               DENNIS MOORE, Kansas
TIMOTHY V. JOHNSON, Illinois         ANTHONY D. WEINER, New York
MELISSA A. HART, Pennsylvania        JIM MATHESON, Utah
J. RANDY FORBES, Virginia            DENNIS A. CARDOZA, California
PHIL GINGREY, Georgia                VACANCY
ROB BISHOP, Utah                     VACANCY
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama
TOM FEENEY, Florida
RANDY NEUGEBAUER, Texas


                            C O N T E N T S

                            January 23, 2004

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Phil Gingrey, Member, Committee on 
  Science, U.S. House of Representatives.........................     8
    Written Statement............................................    10

Statement by Representative Lincoln Davis, Member, Committee on 
  Science, U.S. House of Representatives.........................    11

                               Witnesses:

Ms. Rachel Purcell, Valedictorian, Class of 2004, Campbell High 
  School, Smyrna, Georgia
    Oral Statement...............................................    15
    Written Statement............................................    17
    Biography....................................................    18
    Financial Disclosure.........................................    18

Mr. Randy O. McClure, Teacher and Department Chair for Science, 
  Campbell High School, Smyrna, Georgia
    Oral Statement...............................................    18
    Written Statement............................................    21
    Biography....................................................    23
    Financial Disclosure.........................................    24

Mr. J. Martez Hill, Policy Director, Georgia Department of 
  Education
    Oral Statement...............................................    24
    Written Statement............................................    27
    Biography....................................................    28
    Financial Disclosure.........................................    29

Dr. Paul Ohme, Director, Center for Education Integrating 
  Science, Mathematics, and Computing (CEISMC), Georgia Institute 
  of Technology
    Oral Statement...............................................    30
    Written Statement............................................    31
    Biography....................................................    70
    Financial Disclosure.........................................    71

Mr. C. Michael Cassidy, President, Georgia Research Alliance
    Oral Statement...............................................    72
    Written Statement............................................    74
    Biography....................................................    76
    Financial Disclosure.........................................    77

Discussion.......................................................    78

 
    FUELING THE HIGH TECH WORKFORCE WITH MATH AND SCIENCE EDUCATION

                              ----------                              


                        FRIDAY, JANUARY 23, 2004

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 9:20 a.m., in the 
Campbell High School Auditorium, Smyrna, Georgia, Hon. Phil 
Gingrey presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                    Fueling the High Tech Workforce

                    With Math and Science Education

                        friday, january 23, 2004
                          9:00 a.m.-12:00 p.m.
                         campbell high school,
                            smyrna, georgia

1. Purpose

    On Friday, January 23, 2004, the House Science Committee will hold 
a field hearing to examine various strategies underway to improve 
student achievement and teacher performance in math and science 
education. This hearing will also discuss the value of a well-educated 
science and technology workforce to job creation and economic vitality.

2. Witnesses

Ms. Rachel Purcell is a senior at Campbell High School. She is 
valedictorian of her class and she hopes to pursue a career in 
medicine.

Mr. Randy McClure is a teacher and the Department Chair for Science at 
Campbell High School.

Mr. J. Martez Hill is Director of Policy at the Georgia Department of 
Education.

Dr. Paul Ohme (OH-may) is the Director of the Center for Education in 
Science, Mathematics and Computing (CEISMC, pronounced ``seismic'') at 
the Georgia Institute of Technology. Prior to joining CEISMC, Dr. Ohme 
served as the Associate Vice President for Academic Affairs and the 
Head of the Department of Computer Science at Northeast Louisiana 
University. Dr. Ohme also taught mathematics and computer science at 
various colleges and universities, including Clemson, Mississippi, and 
Franklin and Marshall.

Mr. C. Michael Cassidy is the President of the Georgia Research 
Alliance. Before joining the Alliance, Mr. Cassidy managed the Advanced 
Technology Development Center (ATDC) based at the Georgia Institute of 
Technology, one of the Nation's oldest technology incubators. He also 
worked for IBM, where he held various staff and management positions. 
In addition to his work at the Alliance, Mr. Cassidy consults with 
several states on issues of science and technology policy and he 
represents Georgia on the Southern Technology Council and the Southern 
Governors' Association Advisory Committee on Research, Development and 
Technology.

3. Overarching Questions

    The hearing will address the following overarching questions:

        <bullet> How can federal, State, and local entities work 
        together to attract and educate the next generation of 
        scientists and engineering students? What strategies are being 
        employed to increase math and science interest and achievement 
        at the State and local levels?

        <bullet> How important is a well-educated workforce to keeping 
        the Nation at the forefront of research, development and 
        ground-breaking advances in science and technology? What will 
        happen if we cannot adequately develop our domestic talent?

        <bullet> How can successes in these areas translate into 
        economic gains and other opportunities for individuals, 
        businesses, and the Nation as a whole?

4. Brief Overview

        <bullet> The U.S. Department of Labor projects that new jobs 
        requiring science, engineering and technical training will 
        increase four times higher than the average national job growth 
        rate. Clearly, workers increasingly require a solid academic 
        foundation in science and math--as well as technical know-how--
        to succeed in today's high-tech workplace.

        <bullet> This issue of national importance is especially 
        important in Georgia, where the rapidly growing science and 
        technology workforce is now the 11th largest in the Nation. In 
        addition, Georgia is a leading State in emerging fields such as 
        nanotechnology and 9th nationally in the emerging field of 
        biotechnology.

        <bullet> Despite these growing demands, only two out of every 
        100 high school graduates nationally will ever obtain an 
        engineering or technical degree and only nine out of 1,000 
        women and eight out of 1,000 minorities will ever obtain an 
        engineering degree.

        <bullet> Further, most of the graduating class in America's 
        high schools is either not sufficiently prepared or not 
        sufficiently motivated to pursue advanced study in science, 
        math, engineering or technology fields. According to the 
        National Assessment of Educational Progress (NAEP), fewer than 
        one-third of all U.S. students in grades four, eight and twelve 
        performed at or above proficient levels, while a third 
        performed below basic levels.

        <bullet> While there are no quick fixes, we can take steps now 
        to re-examine how teachers teach and students learn math and 
        science. Successfully addressing these challenges will 
        positively impact Georgia's economic growth and, consequently, 
        the economic welfare and scientific discovery of the Nation as 
        a whole.

5. Background

    For decades, the United States has been able to conduct cutting-
edge science because of its ability to both recruit talented American 
students into science and technology fields and import the best and 
brightest from around the world. Our well educated workforce has fueled 
the Nation's engine of economic growth, and it has propelled the U.S. 
to global leadership in science and technology (S&T). Unfortunately, a 
decline in our domestic S&T workforce, new restrictions on foreign-born 
individuals, and an increase in competition for S&T talent may make it 
difficult for the U.S. to maintain its edge into the future.
Student Achievement in Math and Science
    The future of the Nation depends on a strong, competitive workforce 
and a citizenry well equipped to function in an increasingly complex 
and interdependent world. While the most recent results of the National 
Assessment of Educational Progress (NAEP) show that student achievement 
is generally up over the last 30 years, large numbers of U.S. students 
demonstrate a mastery of only rudimentary mathematics. In fact, 31 
percent of 4th graders, 34 percent of 8th graders and 35 percent of 
12th graders scored below ``basic.'' Worse, the achievement gap in NAEP 
math scores between white and black students and between white and 
Hispanic students has remained relatively unchanged since 1990, with 68 
percent of African American 8th graders scoring below basic compared to 
23 percent of white students.
    On international assessments, U.S. performance relative to other 
nations actually declines with increased schooling. According to the 
most recent (1999) Third International Mathematics and Science Study 
(TIMSS), an assessment that evaluates the math and science performance 
of 4th, 8th and 12th grade students from 42 different countries, most 
U.S. children score above average in elementary school, but those in 
12th grade--including our most advanced students--rank among the lowest 
of all participating countries, outperformed by nearly every 
industrialized nation and ahead of only Cyprus and South Africa.
    According to the TIMSS analysis, most U.S. high school students 
take no advanced science, with only 25 percent enrolling in physics and 
50 percent in chemistry. These high school graduates are not prepared 
to study college level science or engineering and, in fact, are 
unlikely ever to do so.
    While U.S. undergraduate and graduate education remains the envy of 
the world, the interest of and the participation by U.S. students in 
science, technology, engineering and math is declining. In fact, of the 
25-30 percent of freshmen who express an interest in science and 
engineering, less than half complete a science or engineering degree in 
five years. As noted by the 1998 Science Committee study, entitled 
Unlocking Our Future, ``There appears to be a serious incongruity 
between the perceived utility of a degree in science and engineering by 
potential students in the U.S. and the present and future need for 
those with training in our society.'' This is especially the case in 
emerging and interdisciplinary areas, such as nanotechnology, 
information assurance, and bioinformatics.
    As the number of U.S. science and engineering students declines, 
our dependence on foreign students grows. According to the National 
Science Foundation's Science and Engineering Indicators (2002), the 
percentage of foreign-born individuals among scientists and engineers 
in the U.S. is growing at all degree levels, in all sectors, and in 
most fields. Especially high percentages are found in engineering (45 
percent), computer sciences (43 percent) and mathematics (30 percent).
    At the same time, other nations are aggressively acting to stem 
their own ``brain drains'' and entice citizens trained in the U.S. to 
return to their native countries, and many are succeeding. The Council 
of Scientific Society Presidents estimates that by 2010, if current 
trends continue, over 90 percent of all physical scientists and 
engineers in the world will be Asians working in Asia. New 
opportunities to do high wage, high value work without immigrating to 
the U.S. may reduce the net ``brain gain'' that has been so critical to 
our historic economic success.

Workforce
    In December 2001, the Bureau of Labor Statistics (BLS) projected 
that the number of professional information technology jobs in the U.S. 
would grow by more than 70 percent between 2000 and 2010. (New 
projections in March 2004 will cover 2002 to 2012 and factor in the 
economic impacts of events and trends subsequent to the previous 
projects, such as the 2001 recession and the terrorist attacks.) With 
unemployment at six percent and a net loss of jobs since 9/11, the case 
for a shortage may be suspect. But, if the economy continues to rally, 
our need for qualified workers will grow.
    Over the next fifteen years, 40 million workers will retire, but 
the growth in the number of workers between the ages of 25 and 54 is 
expected to be flat over that same period. This future shortage will be 
compounded by the fact that worker skills and education are not keeping 
pace with extraordinary technological advances in the workplace. 
According to the BLS, 15 of the 20 fastest growing occupations are 
expected to require substantial math or science preparation.
    To remain competitive, we must do a better job of educating, 
hiring, training, retaining and advancing our workers. Our education 
and training programs must do more to prepare and connect workers to 
today's jobs and help them keep pace with the changing skill demands of 
the 21st century workplace. Also, businesses must look for workers in 
populations they have historically neglected, such as the 70 percent of 
people with disabilities who don't have jobs. Not only will this spur 
economic growth, but it also will provide greater opportunities for 
students to pursue higher education and training or to enter higher-
wage careers.

Federal Math and Science Education Initiatives
            K-12 Programs
    In the mid-1980s, the U.S. Department of Education created math and 
science professional development programs, consortia and 
clearinghouses. Meanwhile the National Science Foundation broadened its 
math and science education focus to include all students--instead of 
just top students--and it made substantial investments in curriculum 
development, pre-service and in-service teacher education and informal 
science education, among others.
    Then, in 2002, President Bush proposed the No Child Left Behind 
initiative to fundamentally reform elementary and secondary education. 
Among other things, this law requires assessments in reading and math 
for all students in grades 3-8 by the 2005-2006 school year and in 
science for students by the 2007-2008 school year. Students would be 
expected to make annual progress toward proficiency in each of these 
subjects. Failure to do so would result in the school's designation as 
``in need of improvement'' and corrective actions, ranging from 
additional funds to school reconstitution. Other provisions call for 
all children to be taught by highly qualified teachers.
    In response to national concerns regarding too many teachers 
teaching out of field, too few students taking advanced course work and 
too few schools offering challenging curricula, No Child Left Behind 
also called for the creation of a new Math and Science Partnership 
Program to unite the activities of higher education, school systems and 
business in support of improved math and science proficiency for K-12 
students and teachers.
    Ultimately, two programs were created. The first established a 
competitive, merit-based grant program at the National Science 
Foundation (NSF), as part of the NSF Authorization Act of 2002 (P.L. 
107-368). This program awards grants to partnerships between 
institutions of higher education and one or more school districts to 
improve math and science education. Funds are used to develop 
innovative reform programs that, if proven successful, would be the key 
to large-scale reform at the State level. The second program was housed 
at the Department of Education and was created by the No Child Left 
Behind Act of 2001 (P.L. 107-110). Although similarly titled, the 
programs were created to be complementary to--not duplicative of--each 
other. Specifically, NSF was to fund innovative programs to develop and 
test new models of education reform, thereby remedying a lack of 
knowledge about math and science research, while the Department of 
Education would broadly implement and disseminate new teaching 
materials, curricula and training programs. The FY 2004 omnibus 
appropriation would provide the Education and the NSF partnership 
programs with $150 million and $140 million respectively.

            Undergraduate Programs
    In addition to creating the Math and Science Partnership Program at 
NSF, the National Science Foundation Authorization Act sought to 
address the decline in the Nation's technical workforce and to improve 
undergraduate math and science education. Among other things, the bill 
established the Tech Talent Act (now known as the Science, Technology 
Engineering and Mathematics Technology Expansion Program, or STEP) to 
increase the number of U.S. students majoring in science, math, 
engineering and technology. Specifically, STEP provides funding and 
rewards to colleges and universities that develop creative and 
effective recruitment and retention strategies that bring more students 
into science, mathematics, and engineering programs. The FY 2004 
appropriation for STEP is expected to be $24.85 million.
    The bill also created the Robert Noyce Scholarship Program, which 
awards grants to colleges and universities to award scholarships to top 
math and science majors or minors in return for a commitment to teach 
at the elementary or secondary school level. The FY 2004 appropriation 
is expected to be $7.95 million.

6. Questions for Witnesses

Mr. Cassidy

        <bullet> How can we attract, educate and retain the critical 
        mass of talent necessary to keep the State of Georgia--and the 
        country as a whole--at the forefront of research, development 
        and ground-breaking advances in science and technology? In 
        addition to providing a technically literate workforce, why is 
        it important to improve public support and understanding of 
        math and science?

        <bullet> How do we avoid a disconnect between the jobs we want 
        to keep in the U.S. and our workforce's ability to perform 
        those jobs? How is the State of Georgia working with K-12 
        schools as well as colleges, universities and training programs 
        to avoid that disconnect?

        <bullet> How can we ensure that we provide sufficient 
        opportunities to allow students and researchers, educators and 
        employees to become and then remain current and competitive in 
        our rapidly evolving world?
Dr. Ohme

        <bullet> What do you feel is the single, most important step 
        that the Federal Government should take to improve K-12 math 
        and science education?

        <bullet> How can we grow, educate, attract and retain the best 
        and brightest scientists and engineering students? Based on the 
        involvement you have had with math and science education 
        programs at the U.S. Department of Education and the National 
        Science Foundation as well as those in the State of Georgia, 
        what are the most important and effective components of these 
        programs?

        <bullet> How can K-12-higher education partnerships reduce the 
        need for remediation, promote interest in math and science 
        education, and reduce the number of dropouts, especially for 
        under-represented populations?
Ms. Purcell

        <bullet> What sparked your interest in math and science? Was 
        it a teacher or a class? Or was it something outside your 
        formal education, like a trip to a science museum, a 
        significant scientific event (a shuttle launch or a discovery), 
        or interactions with a parent or relative?

        <bullet> What made your math and science classes interesting 
        to you? How could we help increase interest in math and science 
        for other students?

        <bullet> In thinking about the many different subjects you 
        could study in college, why did you choose the way you did? 
        Were you aware of the types of jobs that are available to 
        students with a strong math or science background? What would 
        you like to do with your degree after graduation?
Mr. McClure

        <bullet> Based on the involvement you have had with math and 
        science education programs at the U.S. Department of Education 
        and the National Science Foundation as well as those in the 
        State of Georgia, what are the most important and effective 
        components of these programs?

        <bullet> How can we spark a greater student interest in math 
        and science education? What can we do to ensure that student 
        interest in math and science does not wane as they progress 
        through our formal system of education?

        <bullet> What challenges do you face in improving student 
        achievement in math and science education? How can parents, 
        businesses, the community, and the government support you in 
        your efforts to raise student proficiency in math and science?
Mr. Hill

        <bullet> What is the overall state of math and science 
        education in Georgia? Why is it important for all students to 
        achieve proficiency in these subjects, as envisioned in No 
        Child Left Behind?

        <bullet> Based on the involvement you have had with math and 
        science education programs at the U.S. Department of Education 
        and the National Science Foundation as well as those in the 
        State of Georgia, what are the most important and effective 
        components of these programs?

        <bullet> What have you learned about the ability--or the 
        inability--of K-12-higher education partnerships, such as those 
        created by No Child Left Behind, to reduce the need for 
        remediation, to promote interest in math and science education, 
        and to reduce the number of dropouts, especially for under-
        represented populations?
    Mr. Gingrey. Good morning everybody. I would like to call 
the meeting of the House Science Committee, the Full Committee 
meeting to order.
    We will begin the meeting with our presentation of the 
colors.
    [Color guard.]
    [Pledge of Allegiance.]
    Mr. Arnson. Thank you all for coming and joining us this 
morning. At this time, I would like to introduce Representative 
Phil Gingrey.
    Mr. Gingrey. Thank you very much, Principal Arnson.
    [Applause.]
    Mr. Gingrey. It is great to be here today in my District at 
Campbell High School.
    What I would like to do is just describe to you the format 
of what we're doing. I want you to know that we are going to--
this is a formal field hearing of the full Committee on Science 
of the United States Congress and the written statements that 
are presented by our panelists and the questions and answers, 
all of that will be part of the permanent Congressional Record. 
So I want to say to the people that are here this morning, that 
are participating, make sure you put this date. I think today 
is--I should remember and know that today is January the 23rd 
because tomorrow my daughter is getting married and I know that 
is on January the 24th. But you put this date down in your 
Blackberry so you can tell your grandchildren one of these days 
to look it up in the Congressional Record, you were part of a 
Full Committee hearing of the Science Committee. So welcome one 
and all.
    I hope everybody in attendance knows who I am. If you do 
not, I may be in a little bit of trouble come next November the 
2nd. So I am not going to tell you anything about myself. But 
it is certainly a great honor for me to chair this Full 
Committee hearing of the Science Committee with one of my 
freshmen colleagues on the Committee, and that is the Honorable 
Representative Lincoln Davis. He is a Member of Congress from 
the great State of Tennessee, the Volunteer State. He is from a 
county that I did not know whether to pronounce Pall Mall or 
Pell Mell, Tennessee, but he reminded me that it was Pall Mall. 
So I was at least halfway in between and we finally got it 
right.
    Representative Davis, like myself, was elected a year ago 
to the Congress. He is the former mayor of Byrdstown, 
Tennessee. So he, like me, kind of started locally. I think 
most of you know that I was a member of the Marietta City 
School Board. That was my first taste of politics, and I think 
Congressman Davis would agree with me that all politics 
eventually--it starts local and it ends local. I think we are 
very proud of that. He and I--I have to tell you all--you can 
figure it out later exactly what the age is, but we are about 
the same age. He has actually been married a little bit longer 
than I have. He and his wife Linda, I believe, have been 
married 40 years, and she was his high school sweetheart. Now, 
I want to tell you a little bit about Congressman Davis, and I 
do not know what the significance of this is. But his first 
name is Lincoln, her first name is Linda and they have three 
daughters, Lorissa, Lynn and Libby. Now, I think that is called 
a bit of an alliteration. And now with five grandchildren, 
Ashton, Alexia, Andrew, Austin and Adam, I will let Congressman 
Davis explain all of that to us.
    He is a farmer and a builder and developer. He actually--
his farmland was purchased from Alvin York, the great World War 
I hero whose name we all recognize. He has lived in Fentress 
County all of his life and is a hometown boy and a great member 
of the Congress.
    I will tell you another thing about our committee. The 
Science Committee is fairly equally balanced between 
Republicans and Democrats. Of course, when you have the 
majority there is always at least one more Republican than 
Democrat. But it is a very unbiased, bipartisan committee. In 
fact, Congressman Davis' colleague from Tennessee, 
Representative Bart Gordon, has just been named Ranking Member 
of the Committee. So it is with a great deal of pleasure that I 
am here today having this committee hearing with my colleague 
from Tennessee, Representative Lincoln Davis. I will turn it 
over to him in just a minute for his opening remarks.
    First of all, let me say thank you, Principal Arnson, for 
your warm welcome and Major Moyers and the Army Junior ROTC--I 
am very proud of you--for the presentation of our colors, and 
Chad Smith for leading us in the Pledge of Allegiance. I know 
his dad, who is here this morning, and a Council Member from 
the City of Smyrna, is very proud of Chad.
    It is my pleasure to welcome all of you this morning to 
this very important House Science Committee hearing titled 
Fueling the High Tech Workforce with Math and Science 
Education. I know many of the students in attendance are AP 
math and science students, and possibly some International 
Baccalaureate, and we are very proud that you are with us this 
morning.
    I am excited about holding the hearing in Cobb County, and 
again, Principal Arnson, I want to thank Campbell High School 
for so graciously hosting this event. And I want to thank our 
witnesses for being here to testify before the Committee. I 
look forward to hearing your insights and your opinions. Also, 
as I stated, welcome my colleague, Congressman Davis.
    Today, we will examine various strategies underway in 
Georgia and nationally to improve student achievement and 
teacher performance in math and science education, and how a 
well educated science and technology workforce enhances job 
creation and economic vitality.
    The importance of elementary, secondary and post secondary 
math and science education to Georgia and the Nation's high 
tech economy is apparent. Georgia's science and technology 
workforce is ranked 11th in the Nation and it is continuing to 
grow. Its biotechnology workforce is ranked ninth. The United 
States Department of Labor projects that new jobs requiring 
science, engineering and technical training will increase four 
times higher than the average job growth nationally. Clearly, 
workers require a solid academic foundation in science and math 
to succeed in this high tech workplace and to remain 
competitive with students from other nations in our global 
economy. Right now we are not. Studies have shown over the last 
several years that compared to other developed industrial 
nations we are behind. We are particularly behind in math and 
science.
    Only two out of every 100 high school graduates will ever 
obtain an engineering or a technical degree. Let me repeat 
that. Only two out of every 100 high school graduates will ever 
obtain an engineering or technical degree. Consequently, only 
nine out of 1000 women and eight out of 1000 minorities will 
ever obtain an engineering degree. Worse, most of the 
graduating class in America's high schools are either not 
prepared or not sufficiently motivated to pursue advanced study 
in science, math, engineering or technology fields. According 
to the National Assessment of Educational Progress, fewer than 
1/3 of all United States students in grades 4, 8 and 12 
performed at or above proficient levels in math and science, 
while 1/3--fully 1/3 performed below basic levels.
    Tuesday night, in his State of the Union address, President 
Bush stressed the importance of promoting quality math and 
science education when he announced the Jobs for the 21st 
Century plan. Among other initiatives that will help better 
prepare workers for jobs in the new millennium, the plan calls 
for a $120 million increase for a mathematics and science 
partnership program. That program establishes partnerships 
between high schools and post secondary technical, vocational 
colleges and two-year colleges to increase achievement in both 
math and science for all secondary students.
    While there are no quick fixes, we can take steps now to 
re-examine how teachers teach and students learn math and 
science. Failure to address our problems will impact Georgia's 
economic growth and consequently the economic welfare and 
scientific discovery of the Nation as a whole.
    We will hear testimony this morning from witnesses with 
expertise across the broad spectrum of this issue. We'll hear 
from a student who plans to use the knowledge and education 
that she has obtained in math and science and pursue a career 
in medicine; a teacher who has dedicated his life to fueling 
students with a passion for science; an administrator that 
strives to implement the best policies for educating Georgia's 
students; a professor who seeks to meet the future challenges 
by encouraging and inspiring the very best in science, math and 
technology education for all students; and finally, a business 
leader who leverages Georgia's research capabilities into 
economic development results. I thank you and certainly look 
forward to hearing your testimony.
    I would like now to introduce to you Congressman Lincoln 
Davis for his opening remarks. Congressman Davis.
    [Applause.]
    [The prepared statement of Mr. Gingrey follows:]

           Prepared Statement of Representative Phil Gingrey

    Thank you, Principal Arnson, for your warm welcome, and Major 
Moyers, the Junior ROTC, for the presentation of our colors, pledge, 
and National Anthem.
    It is my pleasure to welcome all of you this morning to this very 
important Science Research Subcommittee hearing, ``Fueling the High 
Tech Workforce With Math and Science Education.'' I am excited about 
holding this hearing in Cobb County and want to thank Principal Arnson 
and Campbell High School for hosting this event. I want to thank our 
witnesses for being here to testify before the Committee, I look 
forward to hearing your insights and opinions. Also, I want to welcome 
my colleague, Congressman Lincoln Davis from Tennessee, to the great 
State of Georgia and thank him for attending this hearing.
    Today, we will examine various strategies underway in Georgia and 
nationally to improve student achievement and teacher performance in 
math and science education, and how a well-educated science and 
technology workforce enhances job creation and economic vitality.
    The importance of elementary, secondary, and post-secondary math 
and science education to Georgia and the Nation's high tech economy is 
apparent. Georgia's science and technology workforce is ranked 11th in 
the Nation and continues to grow, it's biotechnology workforce ranked 
9th. The U.S. Department of Labor projects that new jobs requiring 
science, engineering, and technical training will increase four times 
higher than average job growth nationally. Clearly, workers require a 
solid academic foundation in science and math to succeed in this high 
tech workplace and to remain competitive with students from other 
nations in our global economy.
    However, only two out of every one hundred high school graduates 
will ever obtain an engineering or technical degree. Consequently, only 
nine out of a thousand women and eight out of a thousand minorities 
will ever obtain an engineering degree. Worse, most of the graduating 
class in America's high schools are either not prepared or not 
sufficiently motivated to pursue advanced study in science, math, 
engineering, or technology fields. According to the National Assessment 
of Educational Progress, fewer than one-third of all U.S. students in 
grades four, eight, and twelve performed at or above proficient levels 
while a third performed below basic levels.
    While there are no quick fixes, we can take steps now to re-examine 
how teachers teach and students learn math and science. Failure to 
address our problems will impact Georgia's economic growth and, 
consequently, the economic welfare and scientific discovery of the 
Nation as a whole.
    We will hear testimony from witnesses with expertise across the 
broad spectrum of this issue. We'll hear from a student who plans to 
use the knowledge and education that she has obtained in math and 
science and pursue a career in medicine; a teacher who has dedicated 
his life to fueling students with a passion for science; an 
administrator that strives to implement the best policies for educating 
Georgia's students; a professor who seeks to meet the future challenges 
by encouraging and inspiring the best in science, math, and technology 
education for all students; and a business leader who leverages 
Georgia's research capabilities into economic development results. 
Thank you and I look forward to hearing your testimony.
    Mr. Davis.

    Mr. Davis. Congressman Gingrey, it is certainly good to be 
here in Georgia this morning. We drove down yesterday afternoon 
from Pall Mall to Jamestown and then traveled Highway 127 to 
111 which connects the southern part of Tennessee to the 
northern part where I live. It is an Appalachian Highway. I 
live in the part of Tennessee that we call Appalachia, and 
often times instead of accepting the words that they call us, 
being a ridgerunner or a hillbilly or a redneck, we have coined 
a new phrase for those of us who live there called being an 
Appalachian-American.
    [Laughter.]
    Mr. Davis. We have southeasterners and northeasterners and 
midwesterners, so I assume if you live in the mountains of 
Tennessee or Georgia, and it is the Appalachian Mountains, then 
we have a heritage there that we should all be proud of. But 
included in that heritage is a heritage in many cases of a lack 
of a public education or of academic achievement, especially 
through the turn of the last century and through the early part 
of the 20th century. We are seeing changes being made now in 
each state, here in Georgia as well as in Tennessee and many 
southern states, to recognize that a good education brings 
about a good economy. I think because of our public education, 
America today probably has the best economy of any country, in 
my opinion, throughout civilization. Education has made a 
difference in all of us.
    Thanks for having the hearing today, for allowing me to be 
a part, for being here.
    Certainly I have had an opportunity to see two of my 
daughters married off and I have those five grandchildren and I 
am not sure exactly how the names came. Our first daughter, 
Lorissa, came as a store-bought name from a book. The rest of 
them, Mrs. Davis just liked them, so that is why we named them 
the names they have. And our three daughters live, not in the 
same hometown, so I am not sure why they started out with the 
A's.
    How many children do you have?
    Mr. Gingrey. We have--is my mic on? I think we have--I know 
we have----
    [Laughter.]
    Mr. Gingrey. --four children and three grandchildren.
    [Laughter.]
    Mr. Davis. I have you beat in the grandchildren line, as we 
call them back home, those little tricycle motors. We have you 
beat there, but we have three daughters. I commend you tomorrow 
on the wedding that will occur. Is that the last one?
    Mr. Gingrey. That is the last one for awhile, yes.
    [Laughter.]
    Mr. Davis. I guess we can get down to business then. I want 
to thank you for inviting me. Certainly we are here today to 
discuss how to fuel the high tech pipeline, how to improve math 
and science education and how to promote better diversity among 
our math and science students, graduates and post graduates and 
faculty.
    I want to welcome those who are witnesses today, the 
students, the teachers, the policy directors, administrators, 
all interested in the future outlook of math and science 
education.
    We have two major concerns that we will discuss today and 
those who will give the testimony will allude to that. 
Performance of schools in preparing students for careers in 
science and technology being one of those.
    The National Education Association recently released in the 
fall of 2003 expenditures for students in public K through 12 
schools. Georgia ranked 18th, spending over $8000 per student, 
a 5.3 percent increase from 2002. I am from Tennessee. Sadly we 
ranked number 45 at $6048 expenditure per student per year, 
reflecting only a 1.7 percent increase last year. Over 40 
percent of the freshmen at public two-year colleges and 13 
percent of private four-year colleges are enrolled in remedial 
courses. Approximately 35 percent of the companies provide 
remedial math education for their employees. Think about that a 
moment. They are hiring someone that supposedly was trained in 
a certain discipline to work in a company and almost 35 percent 
of those in math have to have remedial courses. This indicates 
that students are not being sufficiently prepared in science 
and math.
    Some serious demographics. This week Dr. Donald Nelson of 
MIT released results from a survey of the top 50 departments in 
each of 14 science and engineering disciplines as ranked by the 
National Science Foundation according to research funds 
expended. This comprehensive analysis of tenured and tenure 
track faculty shows that females and minorities are 
significantly under-represented. There are few tenured and 
tenure track women faculty in these departments and research 
universities even though a growing number of women are 
completing with their Ph.D.s.
    Under-represented minority faculty. Women are almost 
nonexistent in science and engineering departments at research 
universities. In the computer science department surveys, there 
were zero black, Hispanic or Native Americans tenured or tenure 
track women faculty. The percentage of women who earn Bachelor 
degrees in science and engineering continues to increase, but 
they are rapidly finding themselves without female faculty role 
models. There are few female professors in science and 
engineering. The percentage of women among full professors 
range from only 3 to 15 percent.
    I live in an area that is close to Tennessee Tech. The 
Georgia Tech folks probably recognize that school as being one 
of the better technical schools in the southeast. Georgia Tech, 
most here in this area would say, probably ranks number one. 
But certainly Tennessee Tech, we would rank very close to that, 
especially in engineering and in the sciences. We realize in 
our area, as you realize here at Georgia Tech, that without the 
technical training it will be extremely difficult to be 
competitive in what we will be calling a high tech workforce in 
the future.
    A math and science education is important to me. It is 
important to my constituents in Tennessee in the Fourth 
District and it is extremely important to our nation as a whole 
if we are going to continue to remain competitive in the world. 
It has been said that education lies at the heart of this 
Administration's Invest in America's Future. The President is 
committed to education. How well our nation prospers in the 
years ahead will depend in part on how well we develop 
scientific and technical talent in our children.
    For fiscal year 2002 the budget of the National Institutes 
of Health, our nation's primary funding mechanism of academic 
biomedical research, was increased by 14 percent; for fiscal 
year 2004 however, there will be likely only about a three to 
four percent increase, in many cases maybe bringing biomedical 
programs to a screeching halt. The math and physical sciences 
are even in more dire straits. Without financial backing, the 
potential for growth in these areas is limited.
    How can we do more with less money and what is the 
solution? Maybe we will hear that today. I know that much 
effort is underway in Georgia and throughout the Nation to 
improve K through 12 science and math education. I hope today 
the hearings will highlight some of these efforts and will 
suggest ways to learn from and expand the most promising ideals 
and approaches to education reform.
    Again, I congratulate you, Chairman Gingrey, for calling 
this hearing because there are few subjects of greater 
importance and consideration of this subcommittee. We are 
fortunate to have witnesses here today who have a broad range 
of experience and talent. I certainly look forward to your 
testimony and your discussion.
    I want to congratulate this high school--I see you are four 
percent--within the top four percent in the Nation. I represent 
Campbell County, so I feel at home. Livingston, Tennessee is on 
the way to where I catch the plane to Nashville. So I feel like 
I am at home in Livingston, Tennessee or in Campbell County 
when I see these names.
    Thank you.
    Mr. Gingrey. Congressman Davis, thank you very much.
    [Applause.]
    Mr. Gingrey. You know, in my opening remarks I commented 
that we have a very bipartisan committee, and I want to say one 
other thing. Those who might think that Republicans have a 
corner on traditional family values obviously have not met 
Congressman Lincoln Davis from Tennessee, who has been married, 
as I said earlier, to his childhood sweetheart Linda for 40 
years. He's got three children and five grandchildren and I 
think that's a pretty darned good record. So this morning I 
want to give Congressman Davis a little memento from the great 
State of Georgia. This peach, Congressman Davis, I know he 
might prefer a tobacco leaf.
    [Applause.]
    Mr. Davis. I can assure you as a youngster growing up, the 
farm folks would have an old pickup truck or a ton and a half 
truck--that is not a real heavy truck. It is not a tractor and 
trailer. They would come down here and buy peaches and then 
barter them out to the neighbors. The Georgia peach along about 
the first of August--the Alberta I think is what they called 
them--was the best freestone peach you could find in the world. 
So thank you for that.
    Mr. Gingrey. Thank you again, Congressman Davis.
    We will go ahead now--and I want to introduce to you our 
five panelists who will be giving their testimony. Once again, 
I remind all that their written remarks will be part of the 
permanent Congressional Record of this full Science Committee 
hearing.
    First of all, I want to introduce to you Ms. Rachel 
Purcell, who obviously needs no introduction to the Campbell 
Spartans. She is the valedictorian of the senior class and 
hopes to pursue a career in veterinary medicine.
    Next is Mr. Randy McClure. Again, Randy here at Campbell 
needs no introduction. He is a teacher, and actually more than 
just a teacher, the Chair of the Department of Science at 
Campbell High School, which, by the way, has the prestigious 
International Baccalaureate Program, the most rigorous academic 
program in the Nation, if not the world, as it is an 
international program. I think I am correct in saying this: We 
have that program also at Marietta High School as part of that 
system. This is the only venue of maybe 14 high schools in the 
Cobb County system that has the International Baccalaureate 
Program. I know teachers like Mr. McClure are very proud of 
that fact.
    Mr. Martez Hill is the Policy director for the Georgia 
Department of Education, working very, very closely with our 
State School Superintendent Kathy Cox. Prior to coming to the 
Department Mr. Hill worked as an analyst in the Governor's 
Office of Planning and Budget. I guess he decided that that was 
a little rough these last two years and maybe the work with the 
Department of Education could be a little more fulfilling. I 
know it has been a tough time not only in the State of Georgia 
with the budget crunch but everywhere else in the Nation. He 
received his Bachelors degree in political science and his 
masters degree in public policy from prestigious Emory 
University.
    And then Dr. Paul Ohme is the Director for the Center for 
Education in Science, Mathematics and Computing--the acronym is 
CEISMC--at my alma mater, Georgia Institute of Technology. 
Lincoln, I should have brought you a hat. Prior to joining 
CEISMC, Dr. Ohme served as the Associate Vice President for 
Academic Affairs and the head of the Department of Computer 
Science at Northwestern Louisiana University. Dr. Ohme also 
taught mathematics and computer science at various colleges and 
universities, including--and I know Congressman Davis is not 
going to want to hear this--Clemson. Did anybody watch the 
Peach Bowl?
    Mr. Davis. I did not.
    [Laughter.]
    Mr. Gingrey. Congressman Davis said he did not.
    [Laughter.]
    Mr. Gingrey. He wants to know when is it going to be 
played.
    [Laughter.]
    Mr. Gingrey. Clemson, Mississippi, Franklin and Marshall.
    And then finally Mr. Michael Cassidy, the President of the 
Georgia Research Alliance. Before joining the Alliance Mr. 
Cassidy managed the Advanced Technology Development Center, 
ATDC, based at again, Georgia Institute of Technology, one of 
the Nation's oldest technology incubators. He also worked for 
IBM where he held various staff and management positions. In 
addition to his work at the Alliance, Mr. Cassidy consults with 
several states on issues of science and technology policy, and 
he represents Georgia on the Southern Technology Council and 
the Southern Governors' Association Advisory Committee on 
research, development and technology.
    We have a great list of participants on this committee and 
I look forward to their testimony. We will start with Ms. 
Rachel Purcell. Rachel.
    [Applause.]

  STATEMENT OF RACHEL PURCELL, VALEDICTORIAN, CLASS OF 2004, 
             CAMPBELL HIGH SCHOOL, SMYRNA, GEORGIA

    Ms. Purcell. Mr. Chairman and esteemed Members of the 
Committee, I would like to thank you for allowing me to speak 
today. My name is Rachel Purcell and I am a senior in the 
International Baccalaureate Program here at Campbell High 
School. I have attended school in the Cobb County School 
District since kindergarten. The IB program is a magnet school 
and pulls from all of Cobb County, however, I currently reside 
in the Campbell High School District.
    I have always been a curious individual and math and 
science have provided a means with which to satisfy my 
curiosity. The person who sparked my interest in both math and 
science was my fifth grade teacher. That year, I began to look 
forward to the afternoon time that was designated for science. 
In this class, we were expected to create many projects, 
including a wind-powered model car, an invention of our own 
design that we could actually use in our daily lives; and a 
task that I spent the majority of the year dreading, we 
dissected a cow's eye.
    Looking back on these and other various projects which were 
completed at a time when lab write-ups and data charts were not 
necessary, I realize that I truly enjoyed the exposure to 
exploring the world around me. I became more interested in how 
and why things are the way they are because I was given an 
opportunity early in life to do more than read a science 
textbook and actually have some hands on experience being a 
scientist. I believe that this early opportunity to explore, 
without the complications of a larger high school class or the 
grade pressure of GPAs, led me to enjoy science at a younger 
age and that my positive attitude toward it has continued to 
affect my high school endeavors.
    As I entered high school I was already on an advanced math 
track, having taken Algebra 1 and geometry before ninth grade. 
This advancement kept me interested and made it easier for me 
to reach the more advanced levels of math offered in my school 
while still only taking one semester of math a year. In my 
science curriculum, I was given the opportunity to take 
biology, physics and chemistry before I entered my junior year 
as part of my enrollment in the International Baccalaureate 
Program. Having a basic background in these three areas has 
made each successive science class easier and more enjoyable 
because the curriculums inevitably overlapped. These classes 
also gave me enough exposure to all three areas of science to 
allow me to make an educated decision when it was time to 
choose the area I would concentrate on in my junior and senior 
years of the IB program.
    I found all these classes, both math and science, to be 
most enjoyable when I learned something and was then shown 
where the principle or concept affected my everyday life. I 
also found that open-ended labs, a standard part of the IB 
curriculum, in which we design and plan our own experiments, 
teach me more than those which are dictated by a teacher. 
Although they are generally more work for me as a student, I 
find them more enjoyable and satisfying because I feel that I 
have truly accomplished something when I am able to draw 
conclusions from my work.
    In considering my future endeavors and career plans, I am 
not entirely sure what I want to pursue. I am currently 
considering a career in veterinary medicine. My interest in 
this area arises not only from the fact that I have always 
loved animals, but also from the fact that I feel medicine is 
one of the most practical and least abstract applications of my 
scientific knowledge. In the medical field, I will be able to 
use my strong scientific and mathematical background and also 
pursue a career that allows me to interact with and directly 
improve the lives of other people. The immediate and concrete 
applications of medical knowledge make it more attractive, 
applicable and interesting to me. However, even if my career 
plans change as I move through college, having a basis in all 
three major sciences at a high school level and having taken 
advanced levels of both biology and physics will provide a 
solid background for whatever I choose to do.
    In conclusion, I feel that my own interest in math and 
science exists because I was exposed to them in a hands-on way 
as a younger child, and that having a basic exposure to more 
than one type of science has contributed to my success at more 
advanced levels. I believe that interest in the more advanced 
math and science classes offered in high school and college can 
be generated and augmented by exposing younger kids to the more 
enjoyable aspects of both math and science.
    Thank you.
    [Applause.]
    [The prepared statement of Ms. Purcell follows:]

                  Prepared Statement of Rachel Purcell

    Mr. Chairman and esteemed Members of the Committee, I would like to 
thank you for allowing me to speak today. My name is Rachel Purcell and 
I am a senior in the International Baccalaureate Program here at 
Campbell High School. I have attended school in the Cobb County School 
District since kindergarten. The IB program is a magnet school and 
pulls from all of Cobb County, however, I currently reside in the 
Campbell High School district.
    I have always been a curious individual and math and science have 
provided a means with which to satisfy my curiosity. The person who 
sparked my interest in both math and science was my fifth grade 
teacher. That year, I began to look forward to the afternoon time that 
was designated for science. In this class, we were expected to create 
many projects, including a wind powered model car, an invention of our 
own design that we could actually use in our daily lives, and a task 
that I spent the majority of the year dreading: we dissected a cow's 
eye.
    Looking back on these and other various projects, which were 
completed at a time when lab write-ups and data charts were not 
necessary, I realize that I truly enjoyed the exposure to exploring the 
world around me. I became more interested in how and why things are the 
way they are because I was given an opportunity early in life to do 
more than read a science textbook and actually have some hands on 
experience being a ``scientist.'' I believe that this early opportunity 
to explore, without the complications of a larger high school class or 
the grade pressure of GPAs, led me to enjoy science at a younger age 
and that my positive attitude toward it has continued to effect my high 
school endeavors.
    As I entered high school I was already on an advanced math track, 
having taken Algebra I and Geometry before ninth grade. This 
advancement kept me interested and made it easier for me to reach the 
more advanced levels of math offered in my school while still only take 
one semester of math a year. In my science curriculum, I was given the 
opportunity to take biology, physics, and chemistry before I entered my 
junior year as part of my enrollment in the International Baccalaureate 
Program. Having a basic background in these three areas has made each 
successive science class easier and more enjoyable because the 
curriculums inevitably overlapped. These classes also gave me enough 
exposure to all three areas of science to allow me to make an educated 
decision when it was time to choose the area I would concentrate on in 
my junior and senior years of the IB program.
    I found all these classes, both math and science, to be most 
enjoyable when I learned something and was then shown where the 
principle or concept affected my everyday life. I also found that open-
ended labs, a standard part of the IB curriculum, in which we design 
and plan our own experiments, teach me more than those which are 
dictated by a teacher. Although they are generally more work for me as 
a student, I find them more enjoyable and satisfying because I feel 
that I have truly accomplished something when I am able to draw 
conclusions from my work.
    In considering my future endeavors and career plans, I am not 
entirely sure what I want to pursue. I am currently considering a 
career in veterinary medicine. My interest in this area arises not only 
from the fact that I have always loved animals but also from the fact 
that I feel medicine is one of the most practical and least abstract 
applications of my scientific knowledge. In the medical field, I will 
be able to use my strong scientific and mathematical background and 
also pursue a career that allows me to interact with and directly 
improve the lives of other people. The immediate and concrete 
applications of medical knowledge make it more attractive, applicable, 
and interesting to me. However, even if my career plans change as I 
move through college, having a basis in all three major sciences at a 
high school level, and having taken advanced levels of both biology and 
physics will provide a solid background for whatever I choose to do.
    In conclusion, I feel that my own interest in math and science 
exists because I was exposed to them in a hands-on way as a younger 
child, and that having a basic exposure to more than one type of 
science has contributed to my success at more advanced levels. I 
believe that interest in the more advanced math and science classes 
offered in high school and college can be generated and augmented by 
exposing younger kids to the more enjoyable aspects of both math and 
science.

                     Biography for Rachel Purchell

    Rachel Purcell is currently a senior in the International 
Baccalaureate Program at Campbell High School in Smyrna, Georgia. She 
resides in the Campbell High School district and attended King Springs 
Elementary School and Griffin Middle School before moving on to 
Campbell. Rachel is currently ranked to graduate as valedictorian of 
the senior class and is a semi-finalist in the National Merit 
Scholarship.
    Throughout high school Rachel has participated in various 
activities. This year she was co-captain of Campbell's Varsity Slow-
pitch Softball team and is currently co-president of her church's 
eighty-member youth choir. She is an active member of her school's 
drama club and theatre productions. Rachel also enjoys playing the 
piano and has been certified by the state level piano guild.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Gingrey. Thank you, Rachel.
    We will next hear from Mr. Randy McClure.

STATEMENT OF RANDY O. MCCLURE, TEACHER AND DEPARTMENT CHAIR FOR 
         SCIENCE, CAMPBELL HIGH SCHOOL, SMYRNA, GEORGIA

    Mr. McClure. Mr. Chairman, based on my involvement with 
science education over the past 18 years at the State level, I 
believe that we have not quite had the opportunity to really 
follow science projects to their end. In science we develop 
laws and concepts that serve as our guiding tenets based on our 
ability to test things and get data from multiple trials in 
various places under the same conditions. Unfortunately, we do 
not always get the chance to produce data or even accumulate 
enough data to really see what impact our efforts have had.
    I believe I can say with all confidence that no true 
secondary science teacher minds at all being asked to deliver 
the constantly changing information that is being developed in 
the many fields of science. Especially included in that idea is 
the fact that many teachers love the opportunities presented by 
the infusion of new technologies that ought to allow greater 
achievement by eliminating some menial aspects of science 
discovery. For example, it is certainly more beneficial for a 
chemistry student working on determining the pH levels of 
materials, to be able to use probes that can make those 
determinations to two significant digits rather than relying on 
indicator paper to turn pink or blue and then guessing about 
the actual pH level. The students who can use the probes would 
be light years ahead of those still using indicator paper.
    Some of the reasons for stating such marked differences in 
techniques to achieve similar opportunities to collect data are 
as follows: Probe data collection can be pinpointed and graphed 
by that probe. That information can then be transferred into a 
PowerPoint presentation so that students could compare results 
and observe data changes while making incredible analyses of 
their data. Those students with the indicator paper would be 
unable to get to the deeper inquiry into the laboratory 
assignment because of the inflexibility of the materials 
employed.
    Herein lies the great dichotomy of science education and in 
particular how it is affected by technology. Until there are no 
areas where students are still relying on outdated methods in 
science classes across our state and country, the potential for 
some of our brightest and most gifted future scientists, 
engineers and those who would aspire to high-tech careers will 
be at best hindered and in many cases simply stymied because of 
the lack of access to the latest materials.
    Teachers must be able to constantly receive training in 
methods that are cutting edge. The roadblocks to this training 
should be eliminated. It should be easy for certified teachers 
to gain access to top notch universities during summers or 
during the school year to constantly make themselves aware of 
the cutting edge applications of the concepts taught in some 
basic science classes. From the prototype glasses that can 
allow one to translate one language into another by simply 
putting on the glasses to the pill that cannot only alert 
parents of pregnancy, but allow them to know if their offspring 
will be predisposed to over 3000 diseases or disorders, these 
types of discoveries and more must be made available to today's 
science teacher and the technology commensurate with these 
developments in order to make an indelible impact on aspiring 
scientific students.
    We can spark greater interest in science by not allowing 
the materials we use to be outdated by the fast developing 
fields that the students are being introduced to. Again, the 
analogy would serve well if we considered students eager to 
learn about boating who were introduced to boating through 
different vehicles. One group receives an old rowboat, while 
another group receives the latest inboard motorboat with depth 
finders and weather monitors. Both could get to certain 
destinations, but surely those who have the advantages of more 
sophisticated instruments could advance further and quicker to 
the point of interest. Also, since some of the menial 
navigation duties could be eliminated and the mode of operation 
by powering the boat rather than oars, the students with the 
updated boat would be able to make greater observations during 
the course of their trip.
    From the beginning of kindergarten, students come to us 
with inquisitive minds. What we do with them makes all the 
difference in the world. For example, at Russell Elementary 
here in Cobb County, elementary students work all year long 
with computers to meet their annual NASA simulated launch date 
in May. Many hours after school and ongoing assignments are 
completed so students can track the path of their space 
shuttle, choose alternate launch sites if the weather is bad, 
monitor every aspect of the shuttle's security and maintenance 
during the trip and determine where it lands upon its return. 
This happens in the fifth grade and there is a great 
partnership between the community, school, staff and parents. 
But if your child does not attend Russell Elementary or have 
Mr. Chris Laster as their science teacher, he or she may not 
have that wonderfully inspiring experience.
    As students leave elementary schools and go on to middle 
schools and high schools, there should be some comparable 
programs that allow for exciting experiences that will cause 
them to want to be involved in more science. Again, depending 
on where they are and what they are exposed to, this may or may 
not happen.
    Perhaps we should allow our classrooms to become more 
inquiry based and less test oriented so that many of our tried 
and true best practices could take effect and give us an 
opportunity to collect some data to really examine our results. 
No one minds accountability, but perhaps we have moved so much 
to testing that we have left no real time for creating 
atmospheres that will inspire and generate interest in science 
fields.
    The challenges of teaching science are complex. First, due 
to the advances that are vastly changing the field of science 
the curriculum has to be more accountable in that it addresses 
what we want students to know and eliminates trivial pursuits 
posing as standardized tests with little relevance to the 
emerging high-tech world.
    Secondly, students must be given the opportunity to learn 
without the constant impending threat of evaluation that covers 
too much and are not markers of accountability but instead 
simply indicate a lack of continuity between theoretical and 
practical applications of science education. Also, parents must 
be mentioned in the equation for success in creating science 
and high-tech career candidates for our economy. Teachers are 
constantly reminded of all their shortcomings but rarely does 
anyone challenge parents to do their part in helping to make 
sure that their child is successful in the science world.
    As a student at Morehouse College, when I found myself 
stuck with problems in my organic chemistry classes or advanced 
biochemistry classes, I would call home to my great-
grandmother, who raised me, for help, and she was able to give 
me what I needed to complete my task. She only had a seventh 
grade education, yet she saw to it that my three younger 
brothers and I not only attended college but graduated with 
three of the four us being in science and technology related 
fields. Sometimes parents shy away because they may be 
unfamiliar or uncomfortable with technological advances. As a 
teacher and as living proof, I would like for someone to really 
hold parents accountable in a nonvoting type way so that they 
realize the real significance of their presence in their 
child's science education. Even if they have to learn some 
things with their child, it would be important for them to make 
that effort over and over again. Perhaps schools will also have 
to have science classes for parents to make sure that the 
message gets across. Businesses, the community and our 
government could really help in that regard. Also, if those 
three groups would make direct contact with science classrooms 
so that the red tape that sometimes hinders great ideas could 
be eliminated, we could make tremendous strides toward 
progress.
    Finally, in closing, Mr. Chairman, I would respectfully 
request that you remember that every time new marching orders 
are passed down from our leaders, there are some teachers in 
science education who enact those orders, even if they are in 
the second or third years of previous marching orders. Not 
unlike the brave men and women of our country who are sworn to 
protect our flag and our way of life, there are those, I 
believe, who have been called to deliver science instruction to 
the students of our country. They attempt to complete this task 
regardless of all the variables that could affect their ability 
to complete that task. While we would all agree, and most work 
constantly to do just that, we do need those sending down our 
new marching orders to know that we need to have the broad 
support of parents, businesses, the many communities and yes, 
our government if we are to continue to be the world's envy of 
technology and its future development.
    [The prepared statement of Mr. McClure follows:]

                 Prepared Statement of Randy O. McClure

Mr. Chairman,

    Based on my involvement with Science education over the past 18 
years at the State level, I believe we have not quite had the 
opportunity to really follow Science projects to their end. In Science 
we develop laws and concepts that serve as out guiding tenets based on 
our ability to test things and get data from multiple trials in various 
places under the same conditions. Unfortunately, we don't always get 
the chance to produce data or even accumulate enough data to really see 
what impact our efforts have had. I believe I could say with all 
confidence that no true secondary science teacher minds at all being 
asked to deliver the constantly changing information that is being 
developed in the many fields of Science. Especially included in that 
idea is the fact that many teachers love the opportunities presented by 
the infusion of new technologies that ought to allow greater 
achievement by eliminating some menial aspects of Science discovery. 
For example, it is certainly more beneficial for a chemistry student 
working on determining the pH levels of materials, to be able to use 
probes that can make those determinants to two significant digits 
rather than relying on indicator paper to turn pink or blue and then 
guessing about the actual pH level. The students who can use the probes 
would be light years ahead of those still using indicator paper. Some 
of the reasons for stating such marked differences in techniques to 
achieve similar opportunities to collect data are as follows: Probe 
data collection can be pinpointed and graphed by the probe. That 
information can then be transferred into a PowerPoint presentation so 
that students could compare results and observe data changes while 
making incredible analyses of their data. Those students with the 
indicator paper would be unable to get to deeper inquiry into the 
laboratory assignment because of the inflexibility of the materials 
employed.
    Herein lies the great dichotomy of Science education and in 
particular how it is affected by technology. Until there are no areas 
where students are still relying on outdated methods in Science classes 
across our state and country, the potential for some of our brightest 
and most gifted future scientists, engineers, and those who would 
aspire to high-tech careers, will be at best hindered and in many 
cases, simply stymied because of the lack of access to the latest 
materials.
    Teachers must be able to constantly receive training in methods 
that are cutting edge. The roadblocks to this training should be 
eliminated. It should be easy for certified teachers to gain access to 
top-notch universities during summers or during the school; to 
constantly make themselves aware of the cutting edge applications of 
the concepts taught in basic Science classes. From the prototype 
glasses that can allow one to translate one language into another one 
simply by putting on the glasses to the pill that cannot only alert 
parents of pregnancy determination but even allow them to know if their 
offspring would be predisposed to over 3000 diseases or disorders. 
These types of discoveries and more must be made available to today's 
Science teacher and the technology commensurate with these developments 
in order to make an indelible impact on aspiring scientific students.
    We can spark greater interest in Science by not allowing the 
materials we use to be outdated by the fast developing fields that the 
students are being introduced to. Again, the analogy would serve well 
if we considered students, eager to learn about boating, who were 
introduced to boating through different vehicles. One group receives an 
old rowboat, while another group receives the latest inboard motorboat 
with depth finders and weather monitors. Both could get to certain 
destinations, but surely those who have the advantages of the more 
sophisticated instruments could advance further and quicker to the 
point of interest. Also, since some the menial navigation duties could 
be eliminated and the mode of operation power by motor rather than 
oars, the students with the updated boat would be able to make greater 
observations during the course of their trip.
    From the beginning of kindergarten, students come to us with 
inquisitive minds. What we do with them makes all the difference in the 
world. For example, at Russell Elementary School here in Cobb County, 
elementary students work all year long with computers to meet their 
annual NASA simulated launch date in May. Many hours after school and 
ongoing assignments are completed so students can track the path of 
their space shuttle, choose alternate launch sites if the weather is 
bad, monitor every aspect of the shuttle's security and maintenance 
during the trip, and determine where it lands upon its return. This 
happens in the 5th grade and there is a great partnership between the 
community, school staff, and parents. But if your child does not attend 
Russell Elementary or have Mr. Chris Laster as their Science teacher, 
he or she may not have that wonderfully, inspiring experience.
    As students leave elementary schools and go on to middle schools 
and high schools, there should be some comparable programs that allow 
for exciting experiences that will cause them to want to be involved in 
more science. Again, depending on where they are and what they are 
exposed to, this may or may not happen!
    Perhaps we should allow our classrooms to become more inquiry based 
and less test oriented so that many our tried and true best practices 
could take effect and give us an opportunity to collect some data to 
really examine our results. No one minds accountability, but perhaps we 
have moved so much to testing that we have left no real time for 
creating atmospheres that will inspire and generate interest in science 
fields.
    The challenges of teaching science are complex. First, due to the 
advances that are vastly changing the field of science, the curriculum 
has to more accountable in that it addresses what we want students to 
know and eliminates trivial pursuits posing as standardized tests with 
little relevance to the emerging high-tech world! Secondly, students 
must be given the opportunity to learn without the constant impending 
threat of evaluation that covers too much and are not markers of 
accountability but instead simply indicate a lack of continuity between 
theoretical and practical applications of science education. Also, 
parents must the mentioned in the equation for success in creating 
science and high-tech career candidates for our economy. Teachers are 
constantly reminded of all their shortcomings but rarely does anyone 
really challenge parents to do their part to help make sure their child 
is successful in the science world.
    As a student of Morehouse College, when I found myself stuck with 
problems in my Organic Chemistry classes or Advanced Biochemistry 
classes, I would call home to my great-grandmother, who raised me, for 
help, and she was able to give me what I needed to complete my task. 
She only had a 7th grade education, yet she saw to it that my three 
younger brothers and I not only attended college but graduated with 
three of the four being in science and technology related fields. 
Sometimes parents shy away because they may be unfamiliar or 
uncomfortable with technological advances. As a teacher and as living 
proof, I would like for someone to really hold parents accountable in a 
nonvoting type way so they realize the real significance of their 
presence in their child's science education. Even if they have to learn 
some things with their child, it would be important for them to make 
that effort over and over again. Perhaps schools will also have to have 
science classes for parents to make sure the message gets across. 
Businesses, the community, and our government could really help in that 
regard. Also, if those three groups would make direct contact with 
science classrooms so the red tape that sometimes hinders great ideas 
could be eliminated, we could make tremendous strides towards progress.
    Finally, in closing Mr. Chairman, I would respectfully request that 
you remember every time new ``marching orders'' are passed down from 
our leaders, there are some teachers in science education who enact 
those orders, even if they are in the second or third years of previous 
marching orders. Not unlike the brave men and women of our country who 
have sworn to protect our flag and our way of life, there are those, I 
believe, who have been ``called'' to deliver science instruction to the 
students of our country. They attempt to complete this task regardless 
of all the variables that could affect their ability to complete that 
task. While we all would agree, and most work constantly to do just 
that, we do need for those sending down our new ``marching orders'' to 
know that we need to have the broad support of parents, businesses, the 
many communities, and yes, our government, if we are to continue to be 
the world's envy of technology and its future development.

                     Biography for Randy O. McClure

Teacher and Science Department Chair at Campbell High School

18-year teacher

1995-1996--Teacher of the Year at Campbell High School

1995-1996--Coach of the Year--Basketball, Marietta Daily Journal

1990--Martin Luther King, Jr. Humanitarian Award recipient

1995-1996-1997--Who's Who Among American High School Teachers

1996 Olympic Torch Bearer

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Gingrey. Thank you, Mr. McClure.
    [Applause.]
    Mr. Gingrey. We will now hear from Mr. Martez Hill.

     STATEMENT OF J. MARTEZ HILL, POLICY DIRECTOR, GEORGIA 
                    DEPARTMENT OF EDUCATION

    Mr. Hill. Mr. Chairman, on behalf of the State 
Superintendent of Schools, Kathy Cox, first I want to thank you 
for the opportunity to testify to the Committee on Science 
today. I also want to thank you and the other members of the 
Committee for your continued support for science and math 
education through the National Science Foundation. My name is 
Martez Hill. Currently, I serve as the Policy Director for the 
Georgia Department of Education.
    Earlier this month, Superintendent Cox joined President 
Bush and Secretary Paige in Knoxville, Tennessee to commemorate 
the second anniversary of the No Child Left Behind Act of 2001, 
also known as NCLB. Superintendent Cox was the sole chief state 
school officer invited to take part in the landmark event. 
Superintendent Cox truly believes in the underlying principles 
of the NCLB legislation and the goal of ensuring all students 
are performing at grade level in reading and math by 2013 and 
2014.
    Even prior to the enactment of No Child Left Behind, 
Georgia was a leader in building a foundation of accountability 
to improve student achievement. Georgia law required criterion 
referenced assessments for math, science, reading/language arts 
and social studies embraced [in grades] three through eight and 
district report cards, disaggregation of student data by 
subgroup, consequences and rewards and incentives to raise 
teacher quality through programs like National Board 
Certification.
    Georgia has diligently moved to raise student achievement 
levels across the curriculum for several years. In part, the 
state was spurred by results from assessments from the 2000 
National Assessment of Educational Progress which showed that 
our students were not learning to their full potential in both 
science and mathematics. Georgia's economy is inextricably 
linked to the education of its citizenry and the quality of its 
schools, so the continued growth of Georgia's high tech job 
market and its overall economy is linked to the state's efforts 
to lead the Nation in improving student achievement.
    With that in mind, let me briefly highlight three state pre 
K through 16 initiatives involving partnerships between the 
Georgia Department of Education, the Board of Regents and local 
school systems which are designed to increase math and science 
achievement. I also want to talk about a research study 
designed to measure No Child Left Behind's impact on math and 
science achievement. These partnerships and research study 
align with Superintendent Cox's efforts to strengthen Georgia's 
performance standards that will drive both instruction and 
assessment for Georgia's teachers and students.
    As we work to lead the Nation in improving student 
achievement, the Georgia Performance Standards will be the 
foundation upon which we build. Our teachers have long needed a 
published and usable document that establishes high standards, 
maintains clear expectations and provides specific guidelines 
for facilitating student learning at a deeper level than 
possible under the old Quality Core Curriculum. We have drawn 
on national and international best practices to produce a 
curriculum that will enable our schools and students to achieve 
at levels that will place Georgia not just at the top of the 
southeast, but at the top of the Nation and the world. The 
number of math and science contents standards has been trimmed 
down to give students the opportunity to achieve mathematical 
and scientific literacy through deeper study. With fewer 
topics, teachers will be able to go deeper into appropriate 
material and increase the overall rigor and expectation of each 
grade level and course. In the past, there has been too much 
material for students to have the opportunity to master key 
concepts.
    The Georgia Performance Standards, as well as explanatory 
videos and presentations describing the major changes in each 
content area are available at the Georgia Department of 
Education's website at www.doe.k12.ga.us. I will say that 
again, www.doe.k12.ga.us. We have asked the public to provide 
feedback on the curriculum. We will use the comments as we make 
final revisions to the curriculum document which will be 
presented to the State Board of Education for approval in May 
and implemented this fall.
    In Georgia the mathematics and science partnership 
activities support partnerships between high-need K-12 schools 
and departments of engineering, mathematics and science in 
institutions of higher education and other stakeholders. MSP 
activities--mathematics and science partnership activities--are 
aligned with the State's performance standards for science and 
math and are classroom focused in order to produce a measurable 
improvement in student academic achievement in mathematics and 
science. One of the most important indicators of student 
achievement, of course, is teacher quality. To lead the Nation 
again in improving student achievement, each classroom must 
have an effective teacher. Toward this end, Georgia's math and 
science partnership activities are focused on recruiting, 
training and retaining the best and brightest math and science 
teachers at the middle school level.
    In September 2003, the Georgia Partnership for Reform in 
Science and Math, also known as PRISM, was awarded a $34.6 
million grant from the National Science Foundation. PRISM's 
overarching goal is to raise academic achievement and close the 
performance gaps among Georgia's students in science and math. 
PRISM will directly impact 170,000 students and more than 
10,000 teachers in Georgia. In addition, the project will 
involve over 550 college and university faculty from the 
University System of Georgia institutions. Similar to the Math 
and Science Partnership program, PRISM supports professional 
learning activities for pre K through 12 and higher education 
faculty and provides a mechanism for P-16 collaboration in the 
revision of Georgia's performance standards in math and 
science.
    Georgia has agreed to participate in a four-year study 
beginning in this current school year, 2003/2004, by RAND, a 
not-for-profit public policy research organization. The RAND 
study focuses on the impact of accountability on mathematics 
and science instruction and student achievement in elementary 
and middle schools. This research project is funded by the 
National Science Foundation and will include interviews, 
surveys and case studies from 25 local school systems across 
the State. At the end of each year, RAND will provide a 
summative report of its findings to the State and participating 
local school systems and a final report at the end of the 
project. Georgia is one of only three states included in this 
national research project. We believe the results will be 
important to educators in Georgia.
    No Child Left Behind, as you all know, requires a minimum 
95 percent participation rate on state assessments for all 
subgroups enrolled in a school and school system in order for 
the school and the system to meet adequate yearly progress. 
Many of Georgia's high schools failed to make AYP, adequate 
yearly progress, in 2003 because of poor student attendance 
during the administration of the state assessments. The Georgia 
Department of Education has created a student attendance task 
force comprised of representatives from local school systems, 
schools, state and juvenile court systems, local law 
enforcement, family and children agencies and other community 
stakeholders to develop state and local programs and processes 
to prevent and stop truancy and student absenteeism.
    The convergence of the rewriting of the State's curriculum, 
the Math and Science Partnership, the PRISM grant, the RAND 
study of Georgia's implementation of No Child Left Behind and 
the work of the student attendance task force will create 
substantive improvement in Georgia's math and science 
education.
    Again, thank you for the opportunity to testify today. I 
will be more than happy to answer questions.
    [Applause.]
    [The prepared statement of Mr. Hill follows:]

                  Prepared Statement of J. Martez Hill

    Mr. Chairman, on behalf of State Superintendent of Schools Kathy 
Cox, first I want to thank you for the opportunity to testify to the 
Committee on Science today. I also want to thank you and the other 
Members of the Committee for your continued support for science and 
math education funding through the National Science Foundation. My name 
is Martez Hill. Currently, I serve as the Policy Director for the 
Georgia Department of Education.
    Earlier this month, Superintendent Cox joined President Bush and 
Secretary Paige in Knoxville, Tennessee to commemorate the second 
anniversary of the No Child Left Behind Act of 2001 (NCLB). 
Superintendent Cox was the sole chief state school officer invited to 
take part in the landmark event. Superintendent Cox truly believes in 
the underlying principles of the legislation and the goal of ensuring 
all students are performing at grade level in reading and math by 2013-
2014.
    Even prior to the enactment of NCLB, Georgia was a leader in 
building a foundation of accountability to improve student achievement. 
Georgia law required criterion reference assessments for math, science, 
reading/language arts, and social studies in grades 3-8, State and 
district report cards, the disaggregation of student data by subgroup, 
consequences and rewards, and incentives to raise teacher quality 
through programs like National Board Certification.
    Georgia has diligently moved to raise student achievement levels 
across the curriculum for several years. In part, the State was spurred 
by results from assessments like the 2000 National Assessment of 
Educational Progress (NAEP) which showed that our students were not 
learning to their full potential in both science and mathematics. 
Georgia's economy is inextricably linked to the education of its 
citizenry and the quality of its schools, so the continued growth of 
Georgia's high tech job market and its overall economy is linked to the 
State's efforts to lead the Nation in improving student achievement.

Georgia's P-16 Initiatives

    With that in mind, let me briefly highlight three state P-16 
initiatives involving partnerships between the Georgia Department of 
Education, the Board of Regents, and local school systems designed to 
increase math and science achievement and a research study designed to 
measure NCLB's impact on math and science achievement. These 
partnerships and research study align with and support Superintendent 
Cox's efforts to strengthen Georgia Performance Standards that will 
drive both instruction and assessment for Georgia's teachers and 
students.

World Class Performance Standards
    As we work to lead the Nation in improving student achievement, the 
Georgia Performance Standards will be the foundation upon which we 
build. Our teachers have long needed a published and usable document 
that establishes high standards, maintains clear expectations, and 
provides specific guidelines for facilitating student learning at a 
deeper level than possible under the old Quality Core Curriculum. We 
have drawn on national and international best practices to produce a 
curriculum that will enable our schools and students to achieve at 
levels that will place Georgia not just at the top of the southeast, 
but at the top of the Nation and the world.
    The number of math and science content standards have been trimmed 
down to give students the opportunity to achieve mathematical and 
scientific literacy through deeper study. With fewer topics, teachers 
will be able to go deeper in appropriate material and increase the 
overall rigor and expectation of each grade level and course. In the 
past, there has been too much material for students to have the 
opportunity to master key concepts.
    The Georgia Performance Standards, as well as explanatory videos 
and streaming webcast presentations describing the major changes in 
each content area, are available at the Georgia Department of 
Education's website www.doe.k12.ga.us. We have asked the public to 
provide feedback on the curriculum. We will use the comments as we make 
final revisions to the document, which will be presented to the State 
Board of Education for approval in May and implemented this fall.
Mathematics and Science Partnership Program
    In Georgia, the Mathematics and Science Partnership Program (MSP) 
activities support partnerships between high-need K-12 schools and 
departments of engineering, mathematics, and science in institutions of 
higher education and other stakeholders. MSP activities are aligned 
with the State's performance standards for science and math and are 
classroom focused, in order to produce a measurable improvement in 
student academic achievement in mathematics and science. One of the 
most important indicators of student achievement is teacher quality. To 
lead the Nation in improving student achievement, each classroom must 
have an effective teacher. Towards this end, Georgia's MSP activities 
focus on recruiting, training, and retaining the best and brightest 
math and science teachers at the middle school level.

Partnership for Reform in Science and Mathematics
    In September of 2003, the Georgia Partnership for Reform in Science 
and Mathematics (PRISM) was awarded a $34.6 million grant from the 
National Science Foundation (NSF). PRISM's overarching goal is to raise 
achievement levels and close the performance gaps among Georgia's 
students in science and mathematics. PRISM will directly impact 170,000 
students and more than 10,000 teachers in Georgia. In addition, the 
project will involve over 550 college and university faculty from the 
partner University System of Georgia institutions. Similar to the Math 
and Science Partnership program, PRISM supports professional learning 
activities for P-12 and higher education faculty and provides a 
mechanism for P-16 collaboration in the revision of Georgia's 
Performance Standards in math and science.

RAND Study of Standards-Based Accountability
    Georgia has agreed to participate in a four-year study beginning in 
school year 2003-2004 by RAND, a not-for-profit public policy research 
organization. The RAND study focuses on the impact of accountability on 
mathematics and science instruction and student achievement in 
elementary and middle schools. This research project is funded by the 
National Science Foundation and will include interviews, surveys, and 
case studies from 25 local school systems across the State. At the end 
of each year, RAND will provide a summative report of its findings to 
the State and the participating local school systems, and a final 
report at the end of the project. Georgia is one of only three states 
included in this national research project, and we believe the results 
will be important to educators in Georgia.

Reducing Dropouts
    NCLB requires a minimum 95 percent participation rate on State 
assessments for all subgroups enrolled in a school and school system in 
order for the school and system to met Adequate Yearly Progress (AYP). 
Many of Georgia's high schools failed to make AYP in 2003 because of 
poor student attendance during the administration of the State 
assessments. The Georgia Department of Education has created a Student 
Attendance Task Force comprised of representatives from local school 
systems, schools, the State juvenile court system, local law 
enforcement, family and children agencies, and other community 
stakeholders to develop State and local programs and processes to stop 
and prevent truancy and student absenteeism.
    The convergence of the rewriting of the State's curriculum, the 
Math and Science Partnership, the PRISM grant, RAND's study of 
Georgia's implementation of NCLB, and the work of the Student 
Attendance task force will create substantive improvement in Georgia's 
math and science education.
    Again, thank you for the opportunity to testify today. I would be 
pleased to answer any questions you may have.

                      Biography for J. Martez Hill

    J. Martez Hill is a native Georgian and graduated from Emory 
University in 1993 with a Bachelor of Arts in Political Science. He 
graduated from Duke University in 1996 with a Master of Public Policy. 
From 1997 to 2003, he worked as an analyst in the Georgia Governor's 
Office of Planning and Budget. In January 2003, Georgia State 
Superintendent of Schools Kathy Cox hired Mr. Hill as the Policy 
Director for the Georgia Department of Education.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Gingrey. Thank you, Mr. Hill.
    Next we will hear from Dr. Ohme.

  STATEMENT OF DR. PAUL OHME, DIRECTOR, CENTER FOR EDUCATION 
   INTEGRATING SCIENCE, MATHEMATICS AND COMPUTING (CEISMC), 
                GEORGIA INSTITUTE OF TECHNOLOGY

    Dr. Ohme. Honorable Representatives Gingrey and Davis and 
members of the staff and other citizens present, thank you for 
the opportunity to appear before you to address how elementary, 
secondary and post secondary mathematics and science education 
is critical to innovative scientific research and to our high 
tech economy.
    It is my premise that the single most important step that 
the Federal Government should take to improve K-12 mathematics 
and science is to create and support an unequivocal expectation 
that all children can and will learn mathematics and science at 
a high level. By high level, I mean that the academic program 
of study that every high school graduate completes should be 
one of opening doors to all possibilities.
    How can this high level of access to mathematics and 
science be achieved for every student? By providing a highly 
qualified teacher in every classroom and not just paper 
credentials, a content rich, conceptually based curriculum and 
learning resources.
    In order to have highly qualified teachers, content rich, 
conceptually sound curriculum and learning resources consistent 
with the nature of the disciplines, it is essential that 
practicing mathematicians, scientists and engineers are 
involved in the process.
    As to the question of how we can grow, educate, attract and 
retain the best and brightest scientists and engineering 
students, in order to have students achieve at proficient and 
advanced levels, they must be engaged in learning at proficient 
and advanced levels. Today we may be harvesting what we are 
planting. The following needs to be relentlessly supported:

        1) One, returning teaching to its place as a respected 
        profession. Research reports of the Education Trust and 
        others show that the single most important factor in 
        student achievement in mathematics and science is the 
        concept depth of the teacher. Each individual teacher 
        should be supported in developing a database of 
        professional growth experiences to complement and 
        advance his or her talents. As research is foundational 
        to science and mathematics, teachers should be afforded 
        the opportunity to participate in scientific and 
        mathematical research that they can then translate into 
        new learning experiences for their students.

        2) Providing sufficiency of time for the generation of 
        evidence of what works or does not, in what context, 
        for whom and why it works. Involving scientists, 
        mathematicians and engineers in the K-12 continuum is a 
        relatively recent scenario. Therefore, we need the 
        Federal Government to financially support the pilot 
        endeavors at a sufficient level and for a sufficient 
        amount of time.

        3) Targeting and sustaining federal dollars. It is 
        critical that federal dollars, whether transmitted 
        through the National Science Foundation or the U.S. 
        Department of Education, are targeted to the school 
        districts involved rather than tangential. Tangential 
        efforts have been shown to have limited, short-lived 
        impact. Only school districts that have committed to 
        transforming mathematics and science education and who 
        have defined strategic efforts to engage university 
        mathematicians, scientists and engineers should be 
        provided the resources to accelerate the implementation 
        of the already defined plan.

    Relative to how K-12 higher-education partnerships can 
reduce the need for remediation, promote interest in math and 
science education and reduce the number of dropouts, especially 
for under-represented populations, we may need a paradigm shift 
with the following two items:

        1) Assessment, accountability and motivation. We must 
        be concerned with assessing the results we want, rather 
        than those that are most easily measured but provide 
        little meaning. Assessing the memorization of facts in 
        science and basic computation in mathematics are not 
        sufficient in preparing the scientific, mathematical or 
        teaching workforce of the future. As the content of 
        mathematics and science is enormous and ever expanding, 
        we can no longer look to mere measurements of factoids, 
        rather we must assess the conceptual understandings 
        which are the underpinnings of science and mathematics.

        2) Acceleration versus remediation. Rather than 
        focusing on remediation, Georgia Tech has chosen to 
        focus on acceleration. It is trite to say, but success 
        breeds success. By engaging students in successful, yet 
        challenging scientific experiences, learners come to 
        recognize their innate potential.

    Ultimately it is vital that all students be supported in 
access to, preparation for and participation in courses that 
will allow them to make individual decisions as to their post 
secondary options. Whether these decisions are made while in 
high school or a decade later, students should not be limited 
in their options for work, military, technical college or 
university pursuits by the judgment of others as to what course 
work they are capable of or may need.
    The Nation and Georgia have experienced an increasing 
reliance on the scientific and technical skills of those beyond 
these shores. We must rededicate ourselves to the support of 
the human capital resident in our youth, the leaders of 
tomorrow and the economic engine of our future.
    Thank you.
    [Applause.]
    [The prepared statement of Dr. Ohme follows:]

                    Prepared Statement of Paul Ohme

    Honorable Representative Gingrey, Members of the Science Committee 
of the U.S. House of Representatives and other citizens present, thank 
you for the opportunity to appear before you to address how elementary, 
secondary, and post-secondary mathematics and science education is 
critical to innovative scientific research and to our high tech 
economy.
    There are four major points that I would like to make and expand 
upon in my remarks:
    First, the single, most important step that the Federal Government 
should take to improve K-12 mathematics and science education is

        <bullet> To create and support an unequivocal expectation that 
        all children CAN and WILL learn mathematics and science at a 
        high level.

    Second,

        <bullet> The single most important factor related to student 
        achievement is a highly qualified, engaging, motivated teacher 
        that is committed to the success of every student regardless of 
        their background.

    Third,

        <bullet> Institutions of higher education, particularly 
        mathematicians, scientists, and engineers are a key component 
        in developing a seamless horizontal and vertical system of 
        science, technology, engineering, and mathematics (STEM) 
        education leading to a competent technological workforce.

    Fourth, and this may be the most harsh to consider

        <bullet> In order to have students achieve at proficient and 
        advanced levels, they must be engaged in learning at proficient 
        and advanced levels. Perhaps it should be considered that the 
        reason, that more than one-third of the students tested on the 
        National Assessment of Educational Progress (NAEP) perform at 
        the below basic level, is because they are being taught at the 
        below basic level. Perhaps the diminution of achievement 
        overtime seen on the TIMSS assessment by students in the United 
        States is because the teaching and curriculum are redundant 
        rather than taking all students continuously to the next level. 
        We may be harvesting exactly what we have planted.

    Allow me to expand on these points. The mathematics, science and 
technological skills of the resident workforce present a quality of 
life issue for all communities. The ability to attract and sustain 
consequential employment opportunities is increasingly reliant on the 
conceptual understandings, reasoning adeptness, and technical skills 
found within science, mathematics and technology. In order for 
communities to thrive, it is imperative that students in these 
communities are supported in acquiring the depth of content knowledge 
and skills of mathematics, science, and technology sufficient for them 
to make personal choices and decisions that impact their communities. 
This quality of life embraces workforce competency, economic 
development, informed and engaged citizenry, and stewardship and 
delight in everyday phenomena encountered in the natural world.
    Therefore, it is my premise that the single, most important step 
that the Federal Government should take to improve K-12 mathematics and 
science education is

        <bullet> To create and support an unequivocal expectation that 
        all children CAN and WILL learn mathematics and science at a 
        high level.

    By a ``high level,'' I mean that the academic program of study that 
every high school graduate completes should be one of opening doors to 
all possibilities, rather than limiting the aspirations of any student 
based on the perceptions of others.
    How can this high level of access to mathematics and science be 
achieved for every student? By providing:

        <bullet> A highly qualified teacher in every classroom. That 
        means a teacher with deep content knowledge, the ability to 
        develop disciplinary understanding within each student, the 
        confidence to assist every student in developing the skills and 
        enthusiasm as a life-long learner, and the commitment that 
        every child is capable and will learn meaningful mathematics 
        and science.

        <bullet> A content rich, conceptually based curriculum that 
        supports every learner in developing disciplinary conceptual 
        understanding that they can apply to familiar and unfamiliar, 
        yet to be encountered, situations. This means that the 
        curriculum is experientially based and allows students to apply 
        their learning, the true evidence that learning has occurred. 
        Therefore, the curriculum allows students to make connections 
        to real world applications, including career knowledge in the 
        context of the learning experience.

        <bullet> Learning resources necessary for exploring the 
        disciplines of mathematics and science consistent with the 
        nature of these disciplines. This includes access to 
        technologies, laboratory equipment, chemicals, and apparatus 
        sufficient to explore natural phenomena as well as experiment 
        to determine the impact and consequences of changing variables 
        in various situations. Students should be developing skills in 
        developing empirical evidence, analyzing and synthesizing data, 
        and evaluating the efficacy of the information they are 
        examining to make informed decisions. These are skills that 
        have life-long implications for success in all fields and for 
        participating as informed citizens in this democracy and the 
        global world.

Engagement of Mathematicians, Scientists, and Engineers

    In order to have highly-qualified teachers, content-rich-
conceptually-sound curriculum, and learning resources consistent with 
the nature of the disciplines, it is essential that practicing 
mathematicians, scientists, and engineers are involved in the process. 
These disciplinary professionals must be engaged in identifying and 
nurturing the future K-12 teachers of mathematics and science who will 
be the first teachers of the future scientists and mathematicians. 
These disciplinary professionals can contribute to ensure accuracy of 
scientific and mathematical content in the curriculum as well as 
fidelity to the nature of these disciplines, including scientific, 
analytical, thinking. It is critical that we come to consider the 
mathematics, science, engineering ``pipeline'' as including the 
classroom teachers themselves, as well as the mathematicians and 
scientists who teach them, as well as every student who is a potential 
scientist, mathematician, or engineer.
    More than a mathematics and science pipeline, it is critical that 
we recognize mathematics and science education as part of a system, a 
cycle that must include attracting outstanding individuals to become 
teachers of mathematics and science, so that they can support, 
motivate, and advance the learning of the K-12 students they encounter, 
the future scientists and mathematicians. This means that current 
scientists and mathematicians must identify and support potential 
teachers of mathematics and science, just as they nurture the future 
scientists, mathematicians, and engineers. In other words, while we are 
working to attract the ``best and the brightest'' to become full 
participants in the technological workforce of the future, we must work 
as diligently to attract the ``best and the brightest'' to be teachers 
of mathematics and science. These teachers, disciplinary faculty, and 
K-12 learners are all part of the equation that has the potential to 
lead to workforce competency critical to innovative scientific research 
and to our high tech economy.
    As to the question of how we can ``grow, educate, attract and 
retain the best and brightest scientists and engineering students?'' 
(Based on the involvement you have had with math and science education 
programs at the U.S. Department of Education and the National Science 
Foundation as well as those in the state of Georgia, what are the most 
important and effective components of these programs?)
    I reiterate

        <bullet> In order to have students achieve at proficient and 
        advanced levels, they must be engaged in learning at proficient 
        and advanced levels.

    What are some of the factors that will contribute to every student 
learning at proficient and advanced levels? Beyond providing a highly 
qualified teacher, content-rich-conceptually-based curriculum, 
scientific learning resources, and substantively involving 
mathematicians, scientists, and engineers, the following need to be 
relentlessly supported:

        <bullet> Returning teaching to its place as a respected 
        profession to be considered by the best and the brightest as a 
        noble and rewarding career choice.

        <bullet> Providing sufficiency of time for the generation of 
        evidence of what works (or doesn't), in what context, for whom, 
        and why it works.

        <bullet> Targeting and sustaining federal dollars.

The Professionalization of Teaching

    Research reports of the Education Trust and others shows that the 
single most important factor in student achievement in mathematics and 
science is the concept depth of the teacher. Classroom teachers of 
science and mathematics must have facility with not only the study of 
science and mathematics but also the practices of science and 
mathematics. Professional growth experiences for teachers cannot be 
limited to random workshops and disconnected courses. Rather, teachers 
should be supported in an extensive professional growth continuum 
beyond initial certification. Each individual teacher should be 
supported in developing a database of professional growth experiences 
to complement and advance their talents. As research is foundational to 
science and mathematics, teachers should be afforded the opportunity to 
participate in scientific and mathematical research that they can then 
translate into new learning experiences for their students. It must be 
recognized that it is no more appropriate for every teacher to have the 
same set of learning experiences, than it is to presume that every high 
school student needs the same set of learning experiences. However, 
there should be agreement on the expectation of outcomes, knowledge, 
and skill to be demonstrated by every teacher, just as there should be 
a common set of high expectations of demonstrated learning and 
application for each child.
    The challenge of enticing some of the best and brightest into the 
field of mathematics and science teaching cannot be overlooked as part 
of solution to problem of advancing the workforce competency related to 
innovative scientific research and to our high tech economy. The 
disparity in the salary that an engineer with a Bachelor's degree can 
command versus a teacher with a Bachelor's degree has contributed to 
making teaching a less attractive career. The problem of inviting 
outstanding individuals into the teaching of mathematics and science is 
compounded by the permeation of the societal challenges of poverty and 
violence into the school house. Therefore, we must be steadfast in 
establishing mechanisms to reaffirm teaching as a noble profession and 
in supporting teachers in their professional growth, with appropriate 
classroom resources and technologies, which promote them in taking 
their students to the highest level.

Sufficiency of Time and Evidence

    Involving scientists, mathematicians, and engineers in the K-12 
continuum is a relatively recent scenario. Therefore, we need the 
Federal Government to financially support the pilot endeavors at a 
sufficient level and for a sufficient amount of time to generate 
evidence of what works, where, and under what circumstances. Sustained 
federal funding is necessary in order to gain evidence on best 
practices when linking active mathematicians, scientists, and engineers 
to the education of K-12 mathematics and science teachers and their 
students. The recent support of the Federal Government for the National 
Science Foundation's (NSF) Math and Science Partnership is an exemplar 
of engaging practitioners, of education and mathematics, science and 
engineering, to address the acceleration and advancement of mathematics 
and science education for all.
    Hallmarks of the NSF Math and Science Partnership are partnership, 
evidence and shared accountability resulting in institutional change 
among all core partners. This is unique among federal support and 
essential to success. It includes the substantive partnership of 
university/college mathematicians, scientists, and engineers with K-12 
school districts, focused on generating evidence of effective practices 
in advancing the demonstrable achievement of all students in 
mathematics and science. Attached below is a copyrighted article taken 
from the Proceedings of the 2004 American Society for Engineering 
Education Annual Conference & Exposition describing some of Georgia 
Tech's experiences with university/K-12 partnerships.
    The Comprehensive MSP, the Targeted MSP, and the Research, 
Evaluation, and Technical Assistance MSP awards have been supported for 
less than three years. The new MSP Teacher Institutes for the 21st 
Century are less than four months old. These programs are exceptional 
in that they are defining successful partnerships as being responsive 
to the distinctive characteristics of the local community, calling for 
joint planning among university and K-12 partners, clearly defining the 
role of each partner, benchmarking to demonstrate progress, creating 
mechanisms for self-correction, and requiring shared responsibility, 
benefit, and accountability.
    It is essential that congress support the continuation of these 
efforts, in diverse communities, with different partners, and with 
varied foci in order to generate a sufficient evidential research base 
that can inform full implementation in school districts across the 
United States. As this evidence is generated in these experimentally 
NSF supported higher education and K-12 partnerships, the information 
can be used to invigorate broader implementation in school districts 
across the United States.

Targeting and Sustaining Federal Dollars

    It is critical that federal dollars, whether transmitted through 
the National Science Foundation or the U.S. Department of Education are 
targeted to the school districts involved, rather than tangential. 
Tangential efforts have been shown to have limited-short-lived impact. 
Targeted federal dollars should be consistent with the local master 
plan for advancing mathematics and science achievement. Only school 
districts that have committed to transforming mathematics and science 
education and who have defined strategic efforts to engage university 
mathematicians, scientists, and engineers should be provided the 
resources to accelerate the implementation of the already defined plan.
    Overtime, students and teachers in classrooms change. Therefore, 
true educational transformation cannot occur classroom by classroom. 
Whole mathematics and science system reform, which is seamless 
vertically and horizontally, must be implemented. Only school reform in 
which the university/college community are simultaneously changing to 
support sustained change over time, including the recruitment, 
training, and retention of outstanding individuals as teachers of 
mathematics and science, as well as the scientists, mathematicians, and 
engineers of tomorrow, will result in the quantum leap that is required 
to advance the technological economy of the U.S. in the 21st century. 
Only through the sustaining of targeted federal dollars over a period 
of five to ten years will we be able to garner the evidence to 
demonstrate the efficacy of such accountable-action-oriented 
partnerships.
Universal Implementation
    The U.S. Department of Education is poised to play a pivotal role 
in supporting school districts in partnership with higher education in 
translating the lessons learned, the evidential-base garnered through 
MSP research efforts of NSF, into common practice in all classrooms 
across the country. While the flow of dollars for support of the U.S. 
Department of Education Math and Science Partnership are just starting 
to be distributed, it is important that local partnership, involvement 
of mathematicians and scientists, and accountability be maintained as 
individual States make decisions as to which best practices they will 
promote.
    Related to how K-12-higher education partnerships can reduce the 
need for remediation, promote interest in mathematics and science 
education, and reduce the number of dropouts, especially for under-
represented populations, we may need a paradigm shift within the 
following:

        <bullet> Assessment, Accountability, and Motivation

        <bullet> Acceleration versus Remediation

Assessment, Accountability, and Motivation

    As we are concerned with elementary, secondary and post-secondary 
math and science education in its criticality to innovative scientific 
research and to our high tech economy, we must be concerned with 
assessing the results we want, rather than those that are most easily 
measured, but provide little meaning. Assessing the memorization of 
facts in science and basic computation in mathematics are not 
sufficient to preparing the scientific, mathematical or teaching 
workforce of the future. The mathematics and science content knowledge 
of today is much vaster than when we were in school and continues to 
escalate at an incredible rate. If you look at just a few of the top 
ten list of scientific discovers in 2002, as reported by Science 
Magazine, you will discover heretofore unheard of roles for various 
RNAs, including micro-RNA-s, elementary-particle physics involving 
solar neutrinos (a mystery for the past thirty years), and progress in 
the field of genome studies that will make it possible to defeat 
malaria and hunger. Nanotechnology, chaos theory, and fractals were 
unknown just a few decades ago. As the content of mathematics and 
science is enormous and ever expanding, we can no longer look to mere 
measures of factoids. Rather we must assess the conceptual 
understandings, which are the underpinnings of science and mathematics. 
We must assess the critical ways of thinking, analyzing, synthesizing, 
evaluating and generating new knowledge that are the signature of the 
scientific and mathematical disciplines. We must find ways of assessing 
the applications of these concepts in new situations. Only by 
developing assessments that allow teachers and professors to determine 
what students appear to understand, as well as to diagnose 
misconceptions so that they can be addressed, will we successfully 
develop the next generation of scientific leaders, teachers, and 
citizens.
    The Federal Government must support the development of appropriate 
measures for assessing the advancement of achieve in mathematics and 
science. In holding partnerships, schools, communities and universities 
accountable for improving scientific and mathematical learning, 
attention must be paid to motivational processes rather than solely 
punitive disincentives.

Acceleration versus Remediation

    Rather than focusing on remediation, Georgia Tech has chosen to 
focus on acceleration. That is to say, that the pre-college and college 
support programs are designed to immerse all involved, whether pre-
college students, their teachers, or undergraduate and graduate 
students in the exciting content that is science, mathematics and 
engineering. By engaging learners at every level in meaningful content 
and continuously successful experiences in learning, we are 
increasingly attracting more and more people to the opportunities 
resident in careers in scientific academia, industry, and teaching. It 
is trite to say, but success breeds success. By engaging students in 
successful, yet challenging, scientific experiences, learners come to 
recognize their innate potential.

CEISMC Endeavors

    Most engineering-scientific Research-1 institutions, particularly 
those without a College of Education, focus on generation of new 
knowledge and the training of the next generation of scientists, 
mathematicians, and engineers. However, since the early 1990's, the 
Georgia Institute of Technology (Georgia Tech) has supported CEISMC 
(the Center for Education Integrating Science, Mathematics, and 
Computing) in improving the beginning of the intellectual pipeline, the 
K-12 students, in mathematics and science. Through CEISMC, Georgia 
Tech, links together the intellectual and research expertise of 
scientists, mathematicians, and engineers, their graduate students, and 
undergraduates with the K-12 teaching practitioners and their students. 
Through CEISMC's Teaching and Learning Camps, teachers' scientific and 
mathematical content and pedagogical skills are advanced with applied 
curriculum developed in concert with researchers. Middle grades 
students participate in these summer camps thus extending their 
curriculum beyond their regular school classroom and inspiring them to 
return to school with renewed enthusiasm for their ability to learn 
science and mathematics.

Professional Development
    Another professional development opportunity sponsored by CEISMC is 
the Georgia Industrial Fellowships for Teachers (GIFT) program. This is 
a partnership with the scientific, mathematical, and technological 
corporate sector, university researchers, and schools, which places 
veteran teachers in scientific and corporate research experiences for 
six to eight weeks each summer. Since GIFT's inception more than 750 
placements have been made, with an average of 75 placements each year. 
These teachers are supported by mentors to translate their research 
experiences into classroom learning activities for their students once 
they return to their classrooms. In both settings, teachers take 
ownership of their professional growth and positively comment on how 
they have been re-energized in their teaching of mathematics and 
science and feel renewed as a professional.

Linking Practitioners and Learners
    Georgia Tech's Student and Teacher Enhancement Partnership (STEP), 
an NSF sponsored GK-12 program partners Georgia Tech graduate and 
undergraduate students with teams of teachers at six majority-minority 
metro-Atlanta high schools per year with three primary goals: To use 
the unique talents and energy of the Georgia Tech students to help 
address the pressing needs at the schools; to promote long-term, 
mutually beneficial, and multi-faceted partnerships at these school; 
and to provide the Georgia Tech students with a teaching internship 
experience that would benefit their professional growth and subsequent 
career, whether in academia, industry, or education. In its third year, 
fifty-six graduate applicants applied for thirteen slots, with 54 
percent filled by African American students.
    Evaluation of this program shows that all participants, teachers, 
their students, graduate students and undergraduates (paired with 
graduate students) have benefited from this program. Among the outcomes 
for graduate students are academic content mastery, academic 
efficiency, professional skills, presentations and publications, 
interest in teaching and advanced pedagogical skill. Schools benefit 
from student instruction in cutting-edge science and mathematics, 
instructional materials development, student mentoring, access to 
educational technologies, support for student research, professional 
development for teachers, and connections to the Georgia Tech campus. 
Providing access and linkages to undergraduates, graduates, and faculty 
researchers gives students, many of whom will be first generation 
college students an understanding of the power and possibility, which 
exists within them if they apply themselves. These students can 
visualize themselves in these successful experiences for the first 
time, because they are given access and support.
    In addition, this work is generating a new body of knowledge 
related to Partnerships which bridge the cultures of K-12 and 
universities in which scientists, mathematicians, and engineers are 
substantively engaged. Three stages of partnership encompassing six 
factors of embeddedness, strategic needs, formation, operation, process 
outcomes, and performance outcomes are described. (See Partnering 
Across Cultures: Bridging the Divide between Universities and Minority 
High Schools, M. Usselman, D. Llewellyn, D O'Neil, and G. Kingsley).

            Pre-college Mentoring
    But success can only occur when each student is fully supported 
with outstanding teachers, a meaningful conceptually based curriculum, 
and scientific learning materials, as well as a community of 
individuals letting each student know they can be successful. The 
latter can be accomplished through a number of mentoring approaches. 
CEISMC partners with corporate mentors, such as BELLSOUTH employees, in 
working with teachers and middle grades students early enough in their 
education to support them in embracing success in science and 
mathematics. CEISMC's Mentoring Program (CMP) links undergraduates as 
mentors with middle and high school students.

            Pre-College Advanced Curriculum
    While providing mentoring experiences for students engaged in 
Advanced Placement Calculus and Computer Sciences, CEISMC is also 
partnering with three metro-Atlanta school districts in the expansion 
of their advanced learning programs. While each of the CEISMC 
collaborative efforts has linked university disciplinary faculty and 
loaned CEISMC specialists to the school districts to develop programs 
to increase participation and success, particularly among minority 
students, to honors and advanced coursework, each of these endeavors is 
unique to the school districts (Cobb, DeKalb, and Atlanta Public 
Schools), and therefore reinforces a core premise of all CEISMC's work, 
that is it must be responsive to the needs of the school districts. A 
cookie-cutter approach does not work, in mentoring, professional 
development, or in curricular programs.

            Pre-College Technology
    In keeping with the notion of acceleration rather than remediation, 
CEISMC is developing websites that focus on engaging students and their 
families in the power, fascination, and career opportunities resident 
in science, mathematics, and engineering. CEISMC also develops websites 
for collaboration among teachers, mentors, participants, and faculty in 
order to increase the opportunity for continued interaction and ``just-
in-time-learning.'' The latter refers to when a learner is working 
along and encounters something that is particularly challenging, they 
can share that challenge and work collaboratively to surmount and own 
the necessary understanding.

            Continuous Support--Once at Georgia Tech
    While the primary focus of CEISMC-Georgia Tech's efforts are at the 
pre-college level, while impacting the collegiate level, Georgia Tech 
has a number of successful programs which have proven to support 
accomplishment, particularly among minority students. OMED (Office of 
Minority Education) serves Georgia Tech under-represented students--
African American, Hispanic, and Native American--through a strategy of 
academic success and persistence through ``prevention.'' OMED's 
research has found a strong correlation between the minority students 
first term GPA and their graduation rate five years later. 
Consequently, Georgia Tech's goal is to work toward a minority 
graduation rate of 85 percent with a cumulative GPA of 3.0 as the 
standard for academic performance. OMED fosters this through its 
``academic pre-season'' embodied in programmatic pieces for entering 
students. Georgia Tech supports students in academic transition 
programs that provide continuous analysis and assessment with real-time 
feedback as students are supported in their academic immersion 
experiences. OMED's activities have shown an increased closing of the 
gap among Black students retention benchmarked against the total 
Georgia Tech population, and shows that Hispanics are retained at a 
higher rate than either Blacks or the Georgia Tech population. More 
detailed information relating to OMED is attached.

            FOCUS
    Georgia Tech is also focused on the success of under-represented 
populations at the graduate level. FOCUS is a graduate student 
recruitment program rooted in marketing: marketing Tech, marketing 
Atlanta, and marketing graduate school. The experience opens these 
students, many of whom are first-generation college graduates, of the 
potential research and educational opportunities waiting for them. Many 
under-represented college graduates are focused first on entering the 
world of employment, without having the opportunity to consider the 
benefits of graduate study. FOCUS is a collaboration of Georgia Tech 
and the King Center. It invites minority graduates to a four day 
experience in Atlanta. It not only exposes students to the faculty and 
facilities of this Research-1 Institute, but also to the history of the 
city as the seat of the civil rights movement. It is no small wonder 
that FOCUS is timed to coincide with the city's celebration honoring 
Martin Luther King, Jr.
    These efforts are demonstrating success. Tech currently holds the 
distinction of being first in the number of Master's degrees and 
doctoral degrees conferred upon African-Americans. It is notable that 
one-third of the graduate-level students enrolled at Georgia Tech 
participate in FOCUS.

Summation

    Ultimately, it is vital that all students be supported in access 
to, preparation for, and participation in courses that will allow them 
to make individual decisions as to their post-secondary pursuits. 
Whether those decisions are made while in high school, or a decade 
later, students should not be limited in their options for work, 
military, technical college, or university pursuits by the judgment of 
others as to what course work they are capable of, or may need. The 
single most important factor related to student achievement is a highly 
qualified, engaging, motivated teacher that is committed to the success 
of every student regardless of their background. But additional 
supports, through meaningful curriculum, learning resources, mentoring, 
and bridging/transitioning support programs have demonstrable impacts 
on student success. This is true for students under-represented in the 
fields of mathematics, science and engineering as well as those well 
represented. Finally, the nature of partnership among universities and 
K-12 schools is critical and must embrace mutual respect, shared 
benefits, and responsiveness to the needs of all involved.
    The Nation and Georgia have experienced an increasing reliance on 
the scientific and technical skills of those beyond these shores. We 
must rededicate ourselves to the support of the human capital resident 
in our youth, the leaders of tomorrow, the economic engine of our 
future.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Attachment

 Partnering Across Cultures: Bridging the Divide between Universities 
                       and Minority High Schools

                            marion usselman,
 center for education integrating science, mathematics, and computing 
                                (ceismc)

                            donna llewellyn,
       center for the enhancement of teaching and learning (cetl)

                              dara o'neil,
                        school of public policy

                          and gordon kingsley,
                        school of public policy

                    georgia institute of technology

Abstract

    The historical mission of most engineering-dominated Research-1 
universities is to create new knowledge and to train students in 
technological fields. In the absence of a College of Education, and 
given an institutional culture prioritizing scholarly research, 
institutions such as Georgia Tech often do not have a long history of 
systemic faculty involvement in the K-12 educational community. However 
the current national focus, initiated by public funding agencies such 
as the National Science Foundation, encourages academic scientists and 
engineers to shoulder some of the responsibilities for the quality of 
science, technology, engineering and mathematics (STEM) education at 
the K-12 level, and to do this by developing university-K-12 
``partnerships.'' Unfortunately, given the vast cultural differences 
that exist between universities and K-12 schools, these partnerships 
too often flounder, never managing to bridge the divide to the point of 
mutual trust, mutual respect, and mutual benefit.
    We are currently in the third year of an NSF-funded GK-12 project, 
the Student and Teacher Enhancement Partnership (STEP)\1\, and are 
preparing to embark on a five-year extension. A major part of this 
project has been the building, nurturing, and grooming of partnerships 
between Georgia Tech and local minority high schools. As part of this 
project we have developed a model of partnerships that is grounded in 
the public policy literature and that describes the evolution of the 
partnerships created between Georgia Tech and four minority-dominated 
high schools as part of STEP. In this paper we will describe the 
theoretical framework of the partnership model, outline ways to assess 
partnership outcomes, and apply this model to the STEP program case 
study.
---------------------------------------------------------------------------
    \1\ NSF Award Number 0086420.
---------------------------------------------------------------------------

Theoretical Framework of a Partnership Model

    As part of a separate NSF-sponsored research project, we are 
examining how partnerships influence STEM educational outcomes in NSF's 
Systemic Initiatives Program and Math and Science Partnerships 
Program.\2\ We do so by exploring how the emergence, operation, and in 
some cases, dissolution of partnerships influence the process by which 
STEM educational outcomes are pursued and achieved. For the purposes of 
this research, we define partnerships as voluntary arrangements between 
organizations, anchored by agreements, to promote the exchange, 
sharing, or co-development of products or programs designed to 
stimulate STEM education.\3\ Partnerships are a particular form of 
inter-organizational collaboration. However, they are distinctive in 
that participants are not merely bound by mutual interests. They have 
also developed agreed goals and responsibilities for achieving these 
goals.\4\ Such agreements are usually articulated in formal contracts, 
memoranda of understanding, or statements of work. However, we do not 
exclude the informal ``hand-shake'' variety of agreement in our 
definition. We also note that the term organization is applied loosely 
to include the organized interests of parents and other interest 
groups.
---------------------------------------------------------------------------
    \2\ NSF Award Number 0231904. We are in our second year of this 
three-year project. For more details on this research, ``Alternative 
Approaches to Evaluating STEM Education Partnerships: A Review of 
Evaluation Methods and Application of an Inter-organizational Model,'' 
please visit the project website at http://www.prism.gatech.edu/gk18/
STEM
    \3\ This definition draws from Gulati and Gargiulo's (1999) 
definition of alliances among firms. Their work provides a general 
summary of how alliances emerge and develop products, technologies and 
services.
    \4\ Boyers, E.L. (1981). ``School/college partnerships that work,'' 
Current Issues in Higher Education, Vol. 1, p. 4-10.
---------------------------------------------------------------------------
    In the multidisciplinary field of public policy research, 
partnerships have been studied from multiple perspectives including 
organizational theory and inter-organizational relations. Inter-
organizational studies are the umbrella from which studies of 
organizational networks, partnerships and alliances have emerged.\5\ In 
other policy contexts inter-organizational conceptual foundations have 
been used to study the relationships among firms, not-for-profits, 
public agencies, and in public-private partnerships. Researchers from 
myriad disciplines have contributed to the conceptual foundations of 
inter-organizational studies including scholars from business, 
sociology, economics, public administration, and anthropology. These 
studies have been pursued using a wide-variety of research methods 
including cluster analysis, graph and network analysis, qualitative 
case studies and social mapping techniques, and various statistical 
regression techniques. Consequently, inter-organizational concepts 
cover a wide range of partnering behavior and provide an analytic 
language that is sufficiently developed and useful to span the 
multidisciplinary world of STEM education.
---------------------------------------------------------------------------
    \5\ Galaskiewicz, J. (1985). ``Inter-organizational relations,'' 
American Review of Sociology, Vol. 11, pp. 281-304.
---------------------------------------------------------------------------
    While many STEM education programs may seek to link partnership 
efforts to positive outcome variables such as increased student 
achievement, researchers and evaluators from several fields have noted 
that studies of interoganizational relations (such as partnerships) 
rarely address outcomes.\6\ <SUP>,</SUP> \7\ <SUP>,</SUP> \8\ It is far 
more common for partnership studies to try and explain the reasons for 
the formation and structure of relationship rather than subsequent 
actions and value-added to the individual partners.\9\ Alternatively, 
studies will posit that partnership is a positive factor and then 
provide evidence to support the premise.
---------------------------------------------------------------------------
    \6\ Gulati, R. and M. Gargiulo (1999). ``Where do inter-
organizational networks come from?,'' American Journal of Sociology, 
Vol. 104, no. 5, p. 1439-1493.
    \7\ Kingsley, G. and J. Melkers (2000). The Art of Partnering 
across Sectors: The Importance of Set Formation to Network Impacts in 
State R&D Projects. In L. O'Toole, Hal Rainey, and Jeffrey Brudney 
(Eds.), Advancing Public Management: New Developments in Theory, 
Methods, and Practice. Washington, DC: Georgetown University Press.
    \8\Provan, K.G. and H.B. Milward (2001). ``Do networks really work? 
A framework for evaluating public-sector organizational networks,'' 
Public Administration Review, Vol. 61, no. 4, pp. 414-423.
    \9\ Oliver, C. (1990). ``Determinants of inter-organizational 
relationships: Integration and future directions,'' Academy of 
Management Review, Vol. 15, pp. 241-265.
---------------------------------------------------------------------------
    Another issue is that partnerships are often treated as rational, 
strategic acts which organizations form to control or influence their 
working environment. From this perspective organizations enter into the 
partnership as a means of gaining information, control over their 
strategic environment, or to secure vital resource flows.\10\ However, 
this is an under-socialized, overly rational point of view that does 
not account for existing relationships in which an organization is 
embedded.\11\ Partnerships also emerge because organizations have a 
long-standing working relationship and one is persuaded by another to 
participate. Organizational institutionalists argue that rationales for 
participation in a partnership may be strategic, but they may also be 
coercive, mimetic, or persuasive as well.
---------------------------------------------------------------------------
    \10\ Burt, R.S. (1992). Structural Holes: The Social Structure of 
Competition, Cambridge, MA: Harvard University Press.
    \11\ Gulati, R. (1998). ``Alliances and networks,'' Strategic 
Management Journal, Vol. 19, pp. 293-317.
---------------------------------------------------------------------------
    There is also a difficulty in inter-organizational studies in 
articulating when a failure has occurred. Studies have found a high 
incidence of failure amongst partnerships and joint ventures.\12\ 
However, there has been a good deal of uncertainty regarding when a 
partnership has failed. For example, studies have concluded that 
failure is represented by the end of the partnership. If the individual 
parties to the partnership have achieved their goals and agreed to 
dissolution then it does not seem appropriate to label such an 
experience a failure. Even if only a few of the participants to a 
partnership benefit while others do not, then the result can be 
ambiguous. In the case of STEM educational outcomes the ultimate 
determination of success for many political and educational leaders is 
improvement in the performance of students in their abilities and on 
test scores. Even partnerships that have dissolved may have served 
their purpose in creating a climate to engender and sustain these 
improvements.
---------------------------------------------------------------------------
    \12\Kanter, R.M. (1989). When Giants Learn to Dance, New York: 
Touchstone, Simon, and Schuster.
---------------------------------------------------------------------------
    A final issue in evaluating partnerships is the transportability of 
successful partnerships from one setting to another. A form of 
partnership that is found to be effective in a rural setting may not 
apply well in an urban area. Affluence, community culture, or ethnic 
diversity may act as additional contingencies affecting the link 
between partnership and educational outcomes. Essex (2001) offers seven 
characteristics of effective partnerships between a K-12 school and a 
university but cautions against of one-size-fits-all application.\13\ 
Sirotnik and Goodlad (1988) also warn against becoming too focused on a 
single model of effective collaboration.\14\
---------------------------------------------------------------------------
    \13\ Essex, N.L. (2001). ``Effective school-college partnerships: A 
key to educational renewal and instructional improvement,'' Education, 
Vol. 121, no. 4, p. 732-737.
    \14\ Sirotnik, K. and J. Goodlad (1988). School University 
Partnerships in Action, New York: Teachers College Press.
---------------------------------------------------------------------------
    To develop a useful tool for evaluating STEM partnerships, models 
must be robust enough to address these challenges. This means that the 
model should attempt to establish clear relationships between the 
partnership and the desired outcomes. There must also be a clear focal 
relationship (e.g., a particular dyadic partnership, or a network of 
organizations, or an individual organization). Success and failure need 
to be judged in terms of the overall objectives of partnership rather 
than measuring failure through the participation of individual members. 
And studies must build towards robustness by being comparative not only 
between highly embedded and non-embedded organizations, but also among 
partnerships in different types of communities (e.g., advantaged vs. 
disadvantaged; homogenous vs. heterogeneous; large vs. small school 
system; or rural vs. urban geographic location).
Partnership Conceptual Model
    Through this research, we are developing a conceptual model for 
linking partnerships and outcomes. Six concepts are drawn from 
organizational and inter-organizational relations studies into a 
conceptual model that links the pre-conditions for partnership, with 
partnering activities, and finally partnership outcomes.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Stage One

    This model captures the pre-existing conditions in terms of 
strategic needs and the embeddedness in relations among organizations 
prior to the partnership.

        <bullet> Embeddedness describes the number and types of 
        relationships that organizations have with one another prior to 
        the development of a partnership.

        <bullet> Strategic needs describes the types of resource and 
        legitimacy needs confronting individual organizations prior to 
        a partnership and whether there is a congruence or 
        complimentarity in these needs.

    The concepts of embeddedness and strategic needs are not mutually 
exclusive and are likely to work in concert. In Table 1, we offer a two 
by two matrix describing some of the possible combinations. Each 
partnership or set of partnerships within a STEM project can be 
classified according to this chart.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Embeddedness may occur in either a positive or negative form. Two 
organizations may know each other well, have lots of experience working 
together, yet really dislike and distrust the other. Thus, each 
partnership will have to be classified as high (negative) or high 
(positive) in terms of embeddedness. In Table 1, low levels of 
embeddedness may signify that the two organizations have little history 
of working together. Similarly, all organizations have strategic needs. 
The issue in this model is whether those needs are 1) strategically 
related to the objectives of the partnership, and 2) congruent or 
complementary.
    Just because partnerships fall outside of quadrant IV does not 
predict that they will be a failure in terms of process and performance 
outcomes. But it does indicate that the nature of partnership needs to 
be adapted to reflect these conditions. For example, partnerships in 
quadrant II exhibit high levels of congruence among partners in their 
ability to satisfy strategic needs through the project. But these 
organizations are low on embedding meaning that they do not have a 
history of working together. We would anticipate that the partnership 
process variables of stage two will exhibit higher transaction costs 
and formalization of agreements if this partnership is to be 
successful. Similarly, partnerships in quadrant III have high levels of 
embeddedness but low congruence of strategic interests. In order to 
achieve successful outcomes the partnership must devise ways of 
building on the pre-existing trust among organizations with incentives 
that motivate the partners to fulfill their duties to the partnership. 
Finally in quadrant I partners do not have embedded relationships nor 
is there much in the way of congruent interests. Such partnerships are 
likely to be marriages of convenience bound by the desire to secure 
grant monies or other resources.

Stage Two

    The third and fourth concepts describe the types of partnering 
activities that develop. These concepts are designed to describe the 
process of partnering and include the following:

        <bullet> Partnership formation describes the types of 
        agreements regarding the goals, resource allocations, and 
        responsibilities of each party to the partnership. This concept 
        captures the collective intent of the partnership and includes 
        the following ideas:

                 Partnership Goal--Partnerships take aim by setting 
                objectives that engage the full complexity of the 
                problem or may focus on a narrower slice of the issue. 
                The wider the focus the more likely the partnership is 
                to require the intervention, reinforcement, and support 
                of resources outside the school system. For example, it 
                is not uncommon in math-science education (or in other 
                subjects as well) for students to have a view of their 
                life and development that does not include the 
                application of these basic educational tools. 
                Challenging this perception requires not only the 
                personal interventions of the schools but also may 
                require challenging a community culture that lacks of 
                vision of the possibilities associated with these 
                tools. Effectively addressing a student's need for 
                math-science education may require enlisting role 
                models and resources beyond those the school can 
                provide.

                 Partnership Agreement--Refers to the number and 
                types of formal agreements that are entered into among 
                the partners as a means of achieving process and 
                performance outcomes. In general, researchers have 
                found that embedded relationships require less 
                formalization over time.\15\ Thus, we might predict 
                that partnerships with positive patterns of 
                embeddedness would require fewer agreements in order to 
                reach positive outcomes. Attempts to formalize such 
                arrangements may actually work to hinder such good 
                results.
---------------------------------------------------------------------------
    \15\ Galaskiewicz, J. (1985). ``Inter-organizational relations,'' 
American Review of Sociology, Vol. 11, pp. 281-304.

                 Partnership Focus--Organizations are not monoliths. 
                Instead they are comprised of groups of professions, 
                coalitions, and operating divisions. Partnerships vary 
                in terms of the types of different groups that have 
                some form of interaction with one another. For example, 
                organizations may be highly embedded but not in the 
                relationships that are critical for the objectives of 
                the project. For example, school system administrators 
                may have excellent working relationships with 
                universities. But their teachers may have no experience 
                in interacting with university representatives. This 
                means that for the purposes of improving teacher 
                performance the high levels of pre-existing embedding 
                may not produce the normal types of benefits associated 
                with these relationships. One way of capturing this is 
                to identify the number and types of different groups 
---------------------------------------------------------------------------
                engaged in each partnership.

                 Partnership Complexity--Refers to the number of 
                different organizations and activities within the 
                partnership. Complexity has been posited to have four 
                dimensions: vertical, horizontal, sectoral and spatial. 
                Vertical refers to whether the partnership is organized 
                into a hierarchy with clear lead organizations and 
                clear followers. Horizontal complexity refers to the 
                number of peer organizations operating at the same 
                level and on similar tasks. Sector-based complexity 
                refers to the number of organizations drawn from the 
                public, private, and not-for-profit sectors 
                participating in the partnership. Spatial complexity is 
                the number of different geographic locations involved 
                in the partnership. Highly complex partnerships are 
                more difficult to operate and keep focused on 
                partnership objectives, but there are also more 
                opportunities for spillover benefits due to additional 
                extra-partnership collaboration.

        <bullet> Partnership operations describe the actual behaviors 
        in which the partners engaged as they pursue the goals and 
        duties of the partnership. This concept includes the following:

                 Partnership Interdependence--Refers to the extent 
                that partners depend upon each other for resources or 
                materials to accomplish the partnership objectives. 
                Three types of interdependence have been identified: 
                pooled, sequential and reciprocal. Pooled refers to 
                relationships that are not highly interdependent where 
                each partner works fairly independently. Sequential 
                refers to relationships where the work of one partner 
                feeds into the work of another partner and this second 
                partner is not able to proceed until the work of the 
                first partner is accomplished. Under reciprocal 
                interdependence each partner must share work back and 
                forth until it is completed. Reciprocal relationships 
                are the most interdependent form of partnership.

                 Transaction Costs--These are the costs that 
                organizations absorb in the implementation of a task. 
                In partnerships transaction costs are almost always 
                high because the participating organizations have to 
                adapt to each other's method of doing business. 
                Transaction costs can be higher if individuals from 
                different professions are interacting (usually 
                requiring that each learn a bit of each other's 
                language) or if different sectors are involved (as 
                individuals from the private and public sectors adapt 
                to the particular rules that govern their home 
                organizations).

                 Partnership Communication--This refers to the 
                frequency with which partners interact and the 
                direction of these interactions. One of the more common 
                complaints in university-school partnerships is that 
                the communication flows are largely one-way with 
                universities providing information and resources to 
                schools. These patterns may be highly embedded and even 
                be high in congruent interests if they contribute to 
                the professional development of school systems and/or 
                teachers. However, when confronted with a challenge as 
                difficult as reforming STEM education outcomes, greater 
                dialogue may be required in order to achieve positive 
                outcomes.

Stage Three

    The final two concepts describe the types of outcomes that develop 
from the partnership. These concepts are designed to capture the 
results of the partnership.

        <bullet> Process outcomes describe the qualitative and 
        quantitative assessments that measure whether the partnership 
        actually achieved the goals and duties of operation. For 
        example, under process outcomes we may observe whether partners 
        were able to implement a common curriculum across schools, 
        marshal resources among partners, bring together the support 
        and talents of universities, parents, businesses and not-for-
        profits, or achieve congruence among policies.

        <bullet> Performance outcomes assess such improvements as in 
        the working environments of teachers, enhancements in their 
        ability to engage in STEM education, and assessments of the 
        performance of students on STEM topics.

    Stage One and Two variables in the partnership model describe how 
pre-existing conditions and strategies of partnering need to be matched 
in order to produce positive outcomes. This is particularly true with 
process outcomes. Under Stage Two partnership variables we observe the 
types of interactions, agreements, resources, foci, transaction costs, 
etc. that are associated with a project. Stage Three outcome variables 
capture the degree to which these efforts are translated into 
conditions for successful STEM partnerships.

The Student and Teacher Enhancement Partnership (STEP) Program--Case 
                    Study

    The Student and Teacher Enhancement Partnership (STEP) program, 
funded for three years by the National Science Foundation as part of 
the GK-12 program, with a continuation for another five years (as STEP 
Up!\16\ ), partners Georgia Tech graduate and undergraduate students 
with teams of teachers at six metro-Atlanta high schools per year. The 
discussion that follows applies the conceptual model of partnerships to 
the STEP program, analyzing the program based on the theoretical 
concepts described. A total of ten high schools, widely distributed 
geographically throughout the Atlanta metropolitan area and in terms of 
socio-economic status, have participated in the STEP program over the 
past two and one-half years. We will limit the current discussion to 
the partnership with four primarily African American schools in Fulton 
and DeKalb Counties.
---------------------------------------------------------------------------
    \16\ NSF Award Number 0338261.
---------------------------------------------------------------------------
    In this report we examine the body of data collected during the 
STEP evaluations and organize this information using our partnership 
model. In doing so, we attempt to observe both the variance in 
partnering-related activities and the evolution of the partnership over 
time.

Partnership Assessment Strategy for STEP

    The findings for this study are drawn from the on-going evaluation 
of the STEP program. Because the STEP program is in the early stages of 
development the assessment strategy is currently formative in nature, 
emphasizing qualitative data collection methods and descriptive 
analysis of the partnerships. The key evaluation issue is whether the 
STEP program enhances math and science partnerships (in this case 
between Georgia Tech, the school districts and the high schools) by 
introducing Fellows as a resource for teachers. Thus, in addition to 
the variables described above, several key relationships served as the 
focus for the larger evaluation:

        1) Evidence of enhanced math and science partnerships between 
        Georgia Tech, the school districts, and the high schools.

        2) Evidence of effective working relationships between high 
        school teachers and the STEP Fellows.

        3) Evidence of benefits to teachers, Fellows, and high school 
        students from participating in the STEP program.

        4) Identification of factors that facilitate or hinder the 
        achievement of the impacts identified in previous three points.

    The principle evaluation method employed during the first few years 
is to develop case studies of each of the high schools participating in 
the STEP program. The narrative in each case describes the 
implementation of STEP from the perspective of each of the partners. In 
addition to the case studies, the data is examined according to the 
roles that individuals play within STEP. Thus, aggregate narratives are 
developed for Fellows, Teachers, Coordinators, and Advisers. A variety 
of data sources are used in this study including:

        <bullet> Semi-structured interviews with Fellows, teachers, 
        advisers, coordinators, and STEP administrators.

        <bullet> Surveys of Fellows following the summer training 
        programs for STEP.

        <bullet> Document reviews of the action plans for each high 
        school.

        <bullet> Document reviews of lesson plans and assessment tools 
        developed by the STEP Fellows.

        <bullet> In-class observations of the STEP Fellows.

        <bullet> Review of journals maintained by the STEP Fellows of 
        their experiences within the high schools.

    Input from high school students was also compiled through 
presentations and information from the STEP Fellows, such as videotapes 
and student evaluations conducted by individual teachers or STEP 
Fellows.

Stage One: Embeddedness

    The STEP program has provided a way to partner Georgia Tech with 
four primarily African American high schools in which it historically 
has had few ties. It is worth mentioning that many of the local African 
American-majority schools view the local majority-white universities 
with a large amount of distrust, a point of view rooted in segregation 
and in the fact that minority schools in the southern United States 
have traditionally been forced to operate with far fewer resources than 
their white counterparts. In addition, universities often initiate 
``reforms'' in local schools that are short-lived, leading to a healthy 
skepticism by veteran teachers about the university's long-term 
commitment. University academic faculty often approach projects 
presuming that they know better than the school personnel how to solve 
the problems of K-12 education, causing teachers to be suspicious that 
university involvement will just create additional work for them. The 
distrust is also fueled by the legacy of segregated southern 
universities (including Georgia Tech), by the current debate about 
affirmative action and the fairness of standardized exams such as the 
SAT, and by the lack of cross-cultural dialog between African American 
and Caucasian students who have never sat next to, nor competed 
academically with, students from the other race. So in many ways, the 
pre-existing relationships between the individual majority-black 
schools and the majority white universities are fraught with historical 
baggage, are examples of communities with vastly differing cultures and 
expectations, and therefore exhibit very low levels of embeddedness. 
However the central administration of these large, urban, school 
systems are often experienced at partnering with local universities, 
which provides an effective initial point of entry.

Stage One: Strategic Needs

For the High Schools
    The four schools participating in this partnership all post low 
standardized test scores, and on most measures of academic achievement 
(including the percent of students requiring academic remediation in 
college) they perform well below their majority-white suburban peer 
schools. The demographics and 2001-2002 academic performances of the 
partner schools are listed in the table below.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The need for increased academic achievement is therefore easily 
demonstrable. However precisely which strategic needs are addressed by 
the STEP partnership? They are the needs endemic in low performing 
schools where the teachers are under great stress to improve academic 
performance at the same time as they are coping with student 
disengagement, transient student populations, and lack of parent 
involvement or support. In other words, they are:

        <bullet> The need for extra adults to assist with developing 
        and implementing laboratory exercises.

        <bullet> The need for assistance with locating and 
        coordinating educational excursions, and for planning after 
        school clubs and organizations.

        <bullet> The need for assistance in taking advantage of 
        educational and funding opportunities.

        <bullet> The need for role models and mentors for students.

        <bullet> The need for expert content resource people to aid 
        both teachers and students.

        <bullet> The need for support for the use of educational 
        technology.

    On the other side, what are the strategic needs of Georgia Tech 
that are satisfied by STEP, and are these needs congruent and/or 
complementary to the needs of the schools system? Georgia Tech's needs 
are:

        <bullet> The need for opportunities for graduate students to 
        gain leadership, communication, and teaching skills.

        <bullet> The need for graduate students and faculty members to 
        have approved avenues for engaging with and giving back to the 
        community. This is particularly true for our African American 
        graduate students.

        <bullet> The need for faculty to engage in educational 
        outreach and workforce development activities to help them 
        attract external research grants.

    The needs of the two partners are therefore largely congruent since 
the university partners satisfy their needs through interacting with 
the school system partners.

Stage Two: Partnership Formation

Partnership Goals

        <bullet> To use the unique talents and energy of the Georgia 
        Tech students to help address the pressing needs at the 
        schools;

        <bullet> To promote long-term, mutually beneficial, and multi-
        faceted partnerships at these schools; and

        <bullet> To provide the Georgia Tech students with a teaching 
        internship experience that will benefit their professional 
        growth and subsequent career, whether in academia, industry, or 
        education.

Partnership Agreements
    The Science Coordinator or Deputy Superintendent for Curriculum 
from each participating school system selected schools to participate 
in the STEP Program. The schools selected were ones that had 
demonstrated need, but that also had well-functioning leadership and 
the capacity to partner. Because of the disproportionately high 
participation rate by Georgia Tech African American graduate students 
and the high level of need in the predominantly black Atlanta-area 
schools, we decided after Year 2 to concentrate most of our efforts on 
the issues of the primarily black schools.

Partnership Focus
    Two Graduate Fellows and a teacher coordinator form the initial 
central core of the STEP team at each school. As the partnership 
progresses at a school and the capacity of the school to effectively 
expand the partnership increases, undergraduate students are added to 
the mix, or new ventures, such as a pilot using a social science 
graduate student, are added. This increased school capacity usually 
takes the form of an increase in the number of teachers who claim 
ownership of the school-Georgia Tech partnership and who understand the 
value of, and the optimal ways of interacting with, the graduate 
Fellows. In each school the partnership has evolved differently. The 
STEP staff provides guidance and consultation, but the central 
philosophy of STEP is that the nature of the partnership is defined by 
the people directly involved. The STEP co-PIs choose the graduate 
Fellows, give them training, and put them into the field to work in 
ways that best fit their talents and inclinations and that most 
effectively address school needs.

Partnership Complexity
    Vertical Complexity--Georgia Tech is the lead STEP organization, 
maintaining partnerships with multiple high schools. However 
substantial effort has been invested in moving the relationship away 
from a leader and follower status, and encouraging the high schools and 
teachers to take the lead on initiating projects. However the central 
STEP administration effectively holds the project together.
    Horizontal Complexity--STEP involves multiple high schools, and 
multiple Georgia Tech academic units, centers, and laboratories. In 
this regard, the project is highly complex, and relies on creating 
multiple horizontal connections between independent entities. However 
since only one university is involved, this decreases the problems of 
multiple collaborations between peer institutions.
    Sectoral Complexity--STEP is primarily a partnership between the 
university and the schools. However long-term sustainability probably 
requires that additional partners be added from the private sector. 
STEP has initiated a campaign to attract private sponsors, which will 
undoubtedly add to the complexity of the general partnership.
    Geographic Complexity--STEP operates only in metro-Atlanta, within 
commuting distance for the graduate Fellows. This simplifies many 
aspects of the partnership.

Stage Two: Partnership Operation

Partnership Interdependence
    The STEP PI and co-PI do not dictate what the team is to do, but 
instead serve to ``run interference'' and ensure that the program runs 
smoothly, that the activities are consistent with the goals of the 
program, and that all of the team members are communicating 
effectively. The partnerships with each school are reciprocal, 
requiring that each side initiate actions, and follow through with 
support for the other side.

Transaction Costs
    The most substantial cost of STEP is in the graduate Fellow 
stipends, tuition, and other associated cost-of-education expenses. 
Money is also invested in the form of staff salaries. Therefore in this 
partnership, components with ``high transaction costs'' are usually 
defined as those that take lots of time and energy from the STEP staff 
and from the graduate Fellows.
    At the school level, each STEP team is led by a Teacher Coordinator 
who is paid a $2,500 stipend. That teacher is responsible for 
recruiting colleagues into the program, and for overseeing the 
placement and activities of the STEP Fellows. Each Teacher Coordinator 
is provided with $2,000 for materials and supplies, and $1,000 to 
support teacher professional development activities. Additional 
teachers who become involved with the program are provided with 
financial compensation, up to a total of $2,000 per school. In 
addition, each STEP Fellow is provided with money for supplies--$500 
per graduate student, and $250 per undergraduate student.

Partnership Communication
    Many of the most serious problems that have arisen during STEP can 
be traced to a breakdown in communication that leads to different 
expectations between participants, such as between a Fellow and a 
teacher. We have learned that prompt and regular communication, regular 
monitoring of graduate Fellow activities, and a willingness to quickly 
change course when people are dissatisfied serves to minimize the 
problems that stem from poor communication. One problem of partnering 
with minority schools is that the school personnel often are not 
comfortable using e-mail, which is the primary mode of communication at 
the university. This state appears to be changing, however, making the 
communication routes much easier.

Stage Three: Process Outcomes

    As indicated in the Partnership Assessment Strategy section above, 
STEP outcomes at this stage are primarily: 1) evidence of enhanced 
partnerships, 2) evidence of effective working relationships, and 3) 
evidence of benefits to teachers, Fellows, and high school students. 
These outcomes are described under Performance Outcomes. Process 
Outcomes include the actual operation of the partnership, and the 
infrastructure developed to support the program. These are detailed 
below.

STEP Summer Training Course
    Before they are placed in the classroom, STEP Fellows receive ten 
weeks of training during the summer at the start of their fellowship 
period. The goals of this training are three-fold: to start the work of 
building partnership teams and planning for the academic year; to give 
the Fellows a ``toolbox'' of knowledge and resources to use once they 
arrived at the high schools; and to provide ample opportunity to 
explore relevant topics in education and to practice using the tools 
that they are learning. The expectation is that at the end of the ten 
weeks the Fellows will be ready to be fully participating members of 
the teams at the schools, ready to act as content expert resources and 
to engage with the teachers as partners in the educational mission of 
the high school classroom.

School-Based Partnering Activities
    The action plan, developed by each school team, details the types 
of activities that best fit the needs of the school and the talents and 
professional and personal desires of the Fellows. Examples of the 
activities include:

        <bullet> Student Instruction--Fellows can assist partner 
        teachers with instruction in the classroom in the form of 
        hands-on laboratory experiments, group research projects, 
        active group discussions of science topics, and/or short 
        lectures on content.

        <bullet> Instructional Materials Development--Fellows can 
        develop instructional materials, or adapt existing materials to 
        reflect more inquiry learning. The learning objectives covered 
        depend completely upon the needs of the specific classroom.

        <bullet> Student Enrichment and Mentoring--Fellows are often 
        involved in direct tutoring and mentoring of students, and in 
        coordinating activities such as high school chapters of the 
        National Society of Black Engineers (NSBE Jr.) and Science 
        Olympiad.

        <bullet> Educational Technologies--Fellows can provide 
        teachers and students with assistance in implementing 
        educational technologies in classroom projects and curricula, 
        including initiating web-based classroom resource and 
        discussion pages.

        <bullet> Student Research and Science Fair Projects--Fellows 
        provide invaluable assistance to students in conceptualizing a 
        viable science experiment, providing feedback on the 
        appropriate uses of the scientific method, assisting with 
        locating appropriate research equipment and supplies, reviewing 
        experimental progress and data, and advising on presentation of 
        results.

        <bullet> Teacher Professional Development--Fellows have 
        designed and implemented staff development activities for 
        teachers, often focusing on the use of educational technology.

        <bullet> Georgia Tech Connections--Fellows are very effective 
        at increasing the linkages between Georgia Tech and the partner 
        schools. Graduate students are plugged into the events in their 
        departments and in the broader university community, and are 
        constantly reviewing these connections with an eye towards 
        applicability to the high school community.

Graduate Fellow Participation
    Recruitment: Despite initial skepticism by Georgia Tech faculty and 
administrators, the STEP program has become increasingly and highly 
popular among graduate students, particularly among the African 
American graduate students (see chart below). We attribute this to the 
strong involvement by black graduate students in community involvement 
and civic leadership activities, and to a powerful ``word of mouth'' 
promotion of the program within the minority community at the 
institute. The table below shows the ethnic and gender breakdown of the 
applicants and participants in the program for the first three years. 
Note the progressive increase in application number. (B=black, W=white, 
O=other, M=male, F=female.)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Between years one and three, the number of academic units 
represented by those applicants grew from five departments in two 
colleges to eleven departments in four colleges.

Stage Three: Performance Outcomes

    STEP is, in essence, a grand experiment in partnership building. 
Can a highly technical, majority white, university, over an eight-year 
period, build meaningful partnerships with low-income and predominantly 
minority schools that will outlast the individual people and the 
external support, and that will yield quantifiable benefits to both 
sides?

Indications of Partnership Building
    Sustainable partnerships must be built upon the efforts, concerns, 
and agendas of many people if they are to survive the departure of the 
original players. Bearing this in mind, our philosophy has been to 
encourage all STEP participants to expand the partnership network 
whenever possible, and to include academic departments, individual 
laboratories, campus offices, student organizations, business and 
industry partners, and professional societies on the university end, 
and as many teachers, school clubs, administrators, and students as 
possible on the K-12 end. Thus far, the most noteworthy aspects of this 
partnership infrastructure include:

        <bullet> Involvement by Large Numbers of Academic Units at 
        Georgia Tech, including:

                 9 academic units in the College of Engineering

                 4 academic units in the College of Sciences

                 The College of Computing

                 2 academic units in the Ivan Allen College (for 
                Liberal Arts and Social Science).

        <bullet> Active Participation by Minority Organizations. 
        Georgia Tech graduates more black engineers than any other 
        institution in the country, and the Georgia Tech Black Graduate 
        Student Association, and the National Society of Black 
        Engineers (NSBE) have been two of our strongest partners. The 
        black graduate students have also involved the FOCUS program 
        (which encourages minority participation in graduate school), 
        the FACES program (Facilitating Academic Careers in Engineering 
        and Science), EMERGE (Empowering Minority Engineers to Reach 
        for Graduate Education), as well as 100 Black Men of Atlanta.

        <bullet> Involvement by NSF-funded Engineering and Science 
        Research Centers.

        <bullet> Direct School-University Lab Partnerships to foster 
        research opportunities for teachers and high school students.

        <bullet> Involvement by Georgia Tech Offices and 
        Organizations, notably the Office of Undergraduate Admissions, 
        the Women's Resource Center, and the Division of Professional 
        Practice.

        <bullet> Involvement by Increasing Numbers of Teachers at 
        Partner Schools.

        <bullet> Involvement by High School Students in Georgia Tech-
        Sponsored Enrichment Activities.

Graduate Student Outcomes
    All Fellows, at the end of their tenure, answer the journal 
question ``What did you gain from being a STEP Fellow?'' In answer, the 
graduate students wrote:

        ``An extreme sense of satisfaction at the contribution I made 
        to my students' lives--no matter how small it was. It was also 
        the first experience I've had that has made me seriously 
        consider teaching as a career. I've even recommended it to 
        several people.'' Black female, 4th year chemistry Ph.D. 
        student

        ``The biggest thing that I gained was confidence. I have no 
        problem standing in front of a class and lecturing.'' White 
        female, 2nd year mechanical engineering Master's student

        ``The STEP program has changed my career objectives. I now 
        want to, ultimately, use my Ph.D. to develop educational 
        programs for high schools. I want to create partnerships 
        between industry and high schools. Don't ask me how just yet; 
        my thoughts are still evolving.'' Black male, 5th year physics 
        Ph.D. student.

        ``I gained teaching and leadership experience. This experience 
        has shown me how much I really enjoy teaching despite the 
        shyness in my personality. The joy of seeing a student learn 
        supersedes my insecurities. The burden I feel when I look at 
        the problems that face our communities, compels me to share 
        what I have learned from school, so that other can break cycles 
        and achieve the best in life.'' Black male, 5th year Ph.D. 
        electrical engineering student

    Teachers also provided unsolicited comments about the partnership:

        ``I need to tell you how much [the Fellow's] presence has 
        meant to me. This has been my first year back in teaching after 
        23 years in industry and I had little idea of the level of the 
        problems I would encounter. [The Fellow] has served as a 
        confidant, a sounding board, another set of eyes, and a friend 
        during this year. Further he has added a creative element by 
        way of his ideas and suggestions. His contribution has been 
        significant, not only to the program here but also to my 
        sanity. I have had a sense of isolation because of the limited 
        adult interaction available here and even though [the Fellow's] 
        days here were limited, they were a breath of adult 
        communication. His insight and willingness to delve into what 
        we were seeing was useful. We have evolved many understandings 
        of the problems here. . .and after the summer break I will be 
        refreshed to start again.'' Written by a participating physics 
        teacher

        ``Hi. Last day of school here. Paperwork completed, reflecting 
        for a moment. Wanted to commend to you on [the two Fellows'] 
        work. They made this old teacher a believer. [One Fellow] 
        brought a steadiness and steadfastness with her. Dedicated to 
        labs, and slugging it out. [The other Fellow] brought fire and 
        brimstone. He gave us 100-plus summer enrichment programs of 
        which our kids are attending. . ., brought us to Calvin 
        Mackie's talk, Lego Mindstorm, aided in interviewing Governor's 
        Honors nominee, and big-brothered one of our students helping 
        him gain admittance to NC A&T. I would term this year a 
        success. See you soon!'' Written by a participating chemistry 
        teacher

    Evaluation of the STEP program's effect on graduate students, using 
the assessment methodology described earlier, has revealed positive 
outcomes in:

        <bullet> Academic Content Mastery: Graduate students teaching 
        high school students must convey knowledge so that it is 
        comprehensible to students who come from varying achievement 
        levels and backgrounds. This requires that knowledge be 
        thoroughly understood, condensed and distilled to improve its 
        efficacy, a skill that has incomparable value for graduate 
        students.

        <bullet> Teaching Interests: Hands-on teaching experiences 
        provide graduate Fellows with early opportunities to elucidate 
        their interests in teaching as a profession--whether at a high 
        school or college level. These teaching experiences require 
        novel approaches to conveying knowledge to students, thereby 
        encouraging creativity in a Fellow's own research objectives.

        <bullet> Academic Efficiency: A graduate student's skill at 
        time management strengthens through time spent with students--
        both inside and outside of the classroom. Most graduate Fellows 
        willingly spend more time contributing to the program than is 
        required. To accommodate this, graduate students conduct their 
        research and schoolwork in a more efficient manner.

        <bullet> Professional Skills: Working in a high school 
        classroom helps Fellows improve their leadership, 
        communication, and pedagogical skills and better-define their 
        future professional and academic goals and objectives. It also 
        provides them with models of rewarding community service that 
        are applicable to their future career, whether in education or 
        industry.

        <bullet> Presentation and Publications: During the first two 
        years of the project STEP Fellows have participated in seven 
        professional presentations, co-authored three conference 
        papers, and attended three NSF workshops and seven professional 
        meetings in their role as STEP Fellows.

Teacher and School Outcomes
    The teachers and school administrators have all been highly 
enthusiastic about their participation with the STEP program. Many have 
stated that STEP is unlike any other school enhancement program they 
have ever seen, and that among all of their school ``partners,'' 
Georgia Tech is their best one and is the only one that actually 
provides meaningful classroom help. The benefits to the school, 
teacher, and students most often mentioned to the evaluation team have 
been:

        <bullet> The injection of fresh energy into the classroom by 
        the Fellows.

        <bullet> The value to teachers of understanding the cutting-
        edge research that takes place at the university, and the value 
        to high school students of being exposed to what the science 
        and mathematics are used for at a higher level.

        <bullet> The ability of the Fellows to provide novel and 
        different ways of thinking about, and presenting, science and 
        mathematics content, and to introduce the students to 
        educational enrichment opportunities outside of their school.

        <bullet> The access that the teachers and students gain to 
        science materials, supplies, and equipment.

        <bullet> The effectiveness with which the Fellows are able to 
        transform the high school students' thinking about science from 
        a view that science is a bunch of facts, to an understanding 
        that science is a process, and a way of thinking.

        <bullet> The additional time the Fellows provide for teachers 
        to do other necessary school-related duties. Fellows also help 
        teachers keep their ``sanity'' under difficult conditions, 
        hopefully increasing the likelihood that the good teachers will 
        stay at these challenging schools.

        <bullet> The Fellows, particularly the African American 
        Fellows, serve as invaluable mentors for the predominantly 
        minority high school students. They are role models, tutors and 
        cheerleaders, and always fight against the tendency of schools 
        to lower the bar for minority students.

        <bullet> Teachers gain access to summer research experiences 
        at Georgia Tech, through the Georgia Industrial Fellowships for 
        Teachers (GIFT) program, and can build personal connections 
        with faculty and lab personnel. After Year 1, one STEP teacher 
        participated in GIFT. During the summer after Year 2, 13 
        teachers from STEP schools participated in research internships 
        at Georgia Tech as part of the Georgia Tech (GIFT) program, 
        supported primarily by Research Experiences for Teachers NSF 
        grant supplements.

    Though many of these benefits are difficult to quantify, they are 
very tangible to the individual teachers. For the four overwhelmingly 
African American schools in the program, STEP is the reform initiative 
within the science department. It provides the teachers with a sense of 
being special, and a hope that together the school and Georgia Tech can 
improve the situation they face and help them direct their students 
towards productive and gainful careers. In essence, the partnership 
provides the teachers and schools with an invaluable door to Georgia 
Tech, through which pass lab and classroom resources, science and 
engineering faculty speakers, high school students on laboratory tours, 
admissions officers bearing crucial advice, and undergraduate student 
volunteers. These are all types of resources that are traditionally 
unknown and unavailable at the African American schools but are 
commonplace at majority-Caucasian affluent schools (that each send 
dozens of students per year to Georgia Tech, and where many of the 
parents are connected to the university, either as an alumnus, a 
faculty member, or a member of the corporate elite). These ``ripples'' 
of resources extending from the partnership core are vital to the 
growth and vitality of the partnership; Fulton County's Tri-Cities High 
School STEP program, described below, gives a good example of this 
ripple effect in action. Tri-Cities and Georgia Tech had no existing 
relationship before STEP began in 2001.
    Tri-Cities has now hosted seven graduate students and two 
undergraduates over a three-year period. The partnership ripples 
include: 1) High School students initiating a junior chapter of the 
National Society of Black Engineers (NSBE) (linked to the Georgia Tech 
NSBE chapter) which hosts academic activities and competitions, 2) Four 
science teachers participating in summer research internships in 
Georgia Tech Biology and Electrical Engineering laboratories, 3) Two 
teams of high school students conducting research projects at Georgia 
Tech, supported by the Siemens Foundation, 4) A College of Computing 
professor and Ph.D. graduate student piloting a new computer-based art 
program at the school, 5) A science teacher and faculty member from 
Aerospace Engineering collaborating on a grant to create a high school 
research-based Astronomy class, 6) Students from Tri-Cities American 
History classes exchanging visits with Georgia Tech students enrolled 
in a Social Policy course, 7) Tri-Cities students participating in 
internet conversations with students at Georgia Tech, and students in 
Russia and Sweden, 8) The minority recruitment team from Georgia 
visiting the school multiple times, 9) Teams of high school students 
participating in a Lego Mindstorm competition sponsored by Mechanical 
Engineering, 10) High school students visiting Georgia Tech to hear 
motivational speakers, 11) Students and teachers attending 
Biotechnology demonstrations, and 12) A relationship of trust and 
respect developing between people at Tri-Cities and Georgia Tech.

The Evolution of the STEP Partnerships

    As we are in the third year of STEP in several of our partner 
schools, we are now in a position to evaluate the initial success of 
our partnership building, and to look towards sustainability. The 
following evolutionary model of the development of a university-high 
school partnership based on graduate Fellows is now becoming apparent. 
It is also apparent that these stages cannot be rushed since the trust 
necessary for building true partnerships takes time to develop, and is 
based on actions over time, not on abstract plans.

Year 1--Initial Steps

Goal--To develop an understanding by both university and school 
partners of the program's potential at that school.

        <bullet> Graduate Fellows are introduced, and form personal 
        bonds with school staff.

        <bullet> School personnel develop an understanding of program 
        possibilities, trust about university motives, and confidence 
        of sustained university interest.

        <bullet> The university partners analyze school's use of 
        Fellows and the partnering capability of the school staff.

        <bullet> The university partners assess whether the ``need'' 
        is there-Does the partnership have the potential to have a 
        major effect, or is it merely icing for a school which 
        functions fairly well already?

Year 2--Maturation and Expansion of the partnership.

Goal--To establish the university as a ``real'' partner--i.e., one 
that can be trusted to continue for the long haul.

        <bullet> The school transitions to a second graduate Fellow 
        team. Teachers and school personnel learn that the partnership 
        is not dependent on specific graduate students.

        <bullet> The team of teachers and graduate students develop a 
        broader concept about what the school's needs are, and how the 
        university might interface with them.

        <bullet> The network of teachers with ``ownership'' of the 
        partnership expands.

        <bullet> Multiple connections are developed between the high 
        school and academic units and organizations at the university, 
        including linking schools to particular research labs.

        <bullet> Teachers are encouraged to come to the university as 
        summer research interns.

        <bullet> The team begins developing high school research teams 
        to come to university labs.

        <bullet> Undergraduate students or additional graduate 
        students join the school teams where the partnership capacity 
        allows it.

Year 3--Beginning Institutionalization.

Goal--To increase the number of ``owners'' of the partnership.

        <bullet> Schools transition to a third graduate Fellow team 
        and university-school connections expand.

        <bullet> School system personnel become involved in the 
        graduate Fellow summer training program.

        <bullet> The partnership gains increased visibility and 
        ownership among high-level administrators from both school 
        system and university.

        <bullet> Schools are encouraged to actively instigate 
        additional school-university connections, thereby empowering 
        teachers to ask for what they need.

        <bullet> Staff seeks out and promotes partnerships and 
        sponsors from the private sector.

    All of the STEP partnerships are actively evolving and expanding. 
The goal of the next five years of STEP is to solidify the 
partnerships, creating enough linkages that the connections become 
sustainable without the infusion of NSF funds.

Conclusion

    Though there is a current national emphasis on developing 
partnerships between universities and K-12 schools, there has been 
little discussion on exactly what is meant by a ``university-school'' 
partnership, and very few theoretical frameworks exist for describing 
the best way of achieving sustainable and effective partnerships in 
education. The Partnership Conceptual Model described in this paper and 
drawn from the partnership literature from the field of Public Policy 
emphasizes the importance of pre-existing conditions (in terms of 
embeddedness and strategic needs) and the structure of the partnership 
(in terms of formation and operations) when predicting the success of 
the project outcomes. STEP is a partnership that began with congruent 
strategic needs and a high degree of embeddedness with the school 
system administration, but a low degree of embeddedness where it really 
counts, namely at the individual school level. Therefore high initial 
transaction costs, in the form of large amounts of time and effort, 
were required to develop the connections with the schools, and the 
necessary personal trust, that ultimately have led to a deeply embedded 
partnership and a higher chance for long-term successful outcomes.
    With STEP the emphasis has been placed on the development of a 
healthy partnership and the final outcomes are allowed to evolve from 
the partnership. In our experience, this is not the most common 
orientation of educational partnerships; many are driven by particular 
prescribed activities, or based on curricular units developed by higher 
education. As illustration, one of the NSF reviewers for the STEP Up! 
GK-12 continuation grant stated:

        L``The process of creating the partnerships and working with 
        the teachers is not new, original nor particularly creative. 
        What is novel is the creating of the partnerships first and 
        then letting what happens happen. This takes courage and faith 
        in the participants. It also takes very secure college level 
        faculty who are willing to treat their high school teachers as 
        peers. This is obviously happening here with very imaginative 
        results.''

    Our experience suggests that the partnership itself is particularly 
important when trying to connect and effect change in entities with 
very different cultures, such as majority-white universities and 
majority-black schools. Only when the partnership is strong, and the 
different partners have trust in one another, can change take place. 
And only when there are clear mutual benefits and trust can a 
partnership outlast the external funding stream and sustain over time.

Biographic Information

MARION C. USSELMAN

    Dr. Marion C. Usselman is a Research Scientist at the Center for 
Education Integrating Science, Mathematics and Computing (CEISMC) at 
Georgia Tech. Marion received her Ph.D. in biophysics from Johns 
Hopkins University and focuses on equity issues in education and K-12 
educational reform. Marion is a co-PI of the STEP NSF grant, and a co-
PI on the Alternative Approaches to Evaluating STEM Education 
Partnerships NSF grant.

DONNA C. LLEWELLYN

    Dr. Donna C. Llewellyn is the Director of the Center for the 
Enhancement of Teaching and Learning (CETL) and an Adjunct Associate 
Professor in Industrial and Systems Engineering at Georgia Institute of 
Technology. Her current areas of research are in equity of engineering 
education, and assessment of instruction. Donna is the PI of the STEP 
NSF grant.

DARA V. O'NEIL

    Ms. Dara V. O'Neil is a Research Associate at the Georgia Tech 
Research Institute, and a doctoral candidate in Information and 
Telecommunications Policy in the Georgia Tech School of Public Policy. 
She is a co-PI on the Alternative Approaches to Evaluating STEM 
Education Partnerships NSF grant.

GORDON KINGSLEY

    Dr. Gordon Kingsley is an Associate Professor in the School of 
Public Policy at Georgia Institute of Technology. Gordon is the project 
evaluator for the STEP NSF grant, and PI on the Alternative Approaches 
to Evaluating STEM Education Partnerships NSF grant. His area of 
research interests are the interactions of public-private partnerships 
to harness developments in science and technology, and the nature and 
assessment of educational partnerships.

                        Biography for Paul Ohme

Primary Program Responsibilities

CEISMC Director

Educational Background

Ph.D. Mathematics (Differential Equations). Florida State University.

MA Mathematics. University of Alabama.

BA Mathematics/Minor: Physics. Huntington College.

Administrative Experience:

Georgia Institute of Technology--Director, CEISMC--1996-Present

Northeast Louisiana University

        Associate Vice President for Academic Affairs--1993-1996

        Member, President's Cabinet--1993-1996

        Member, NLU Strategic Planning Committee--1994-1996

        Head, Department of Computer Science--1984-1993

        Coordinator of Computer Science--1980-1984

Mississippi College--Coordinator of Academic Computing--1973-1979

Teaching Experience:

Northeast Louisiana University

        Professor of Computer Science--1987-1993

        Associate Professor of Computer Science--1980-1987

Clemson University

        Visiting Associate Professor of Mathematics (NSF Grant)--1979-
        1980

Mississippi College--Associate professor of Mathematics--1973-1979

Franklin & Marshall College

        Assistant Professor of Mathematics (Consultant for integrating 
        computers into the mathematics curriculum)--1971-1973

Florida State University--Graduate Assistant--1966-1971

Mississippi College--Instructor--1964-1966

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Gingrey. Thank you, Dr. Ohme.
    We will now hear from Mr. Michael Cassidy.

 STATEMENT OF C. MICHAEL CASSIDY, PRESIDENT, GEORGIA RESEARCH 
                            ALLIANCE

    Mr. Cassidy. Mr. Chairman, Congressman Davis, good morning. 
It is a distinct pleasure and honor for me to join this 
discussion today and to provide testimony to this committee on 
a subject that is of great importance to me professionally and 
personally, as I am sure it is to each of you.
    As noted in my biography, I am the President of Georgia 
Research Alliance. We are a private, non-profit organization 
with an economic development mission. We were formed in 1990 
from the vision of the business leadership of this state.
    They saw the need to bring together business, Georgia's 
leading research universities and state government in a 
partnership to ensure that the innovation capacity of our 
university research enterprise was directed toward bringing 
economic prosperity and a superior quality of life to Georgia, 
the region and perhaps the Nation.
    The stated goal was, and is, for Georgia to be recognized 
in the top tier of states with an innovation-driven economy. 
Why is it important for Georgia to be thought of as a high-tech 
state? It is well known, certainly by this committee, that 
high-tech jobs--especially the jobs in fields such as computers 
and communications or the biosciences, attract our most highly 
educated workers who in turn earn the highest salaries. This 
high-tech workforce is the key to building very successful, 
growth-oriented companies that lead to sustainable economic 
growth.
    High-tech industries are in fact characterized as the ones 
that are driven by entrepreneurial energy and imaginative 
thinking. These are the industries that develop the 
sophisticated tools which impact businesses of every size and 
translate discoveries made in our research laboratories into 
the technological advances that are so important to our quality 
of life.
    We see a situation today where the development and use of 
technology is strongly influencing the distribution of economic 
growth in the United States. Clearly this distribution of 
economic growth is not occurring uniformly in all states and 
regions. Economists of course have a name for this, they call 
it geographic clustering. What it means very simply is that 
there are going to be the proverbial haves and have-nots. There 
will be winners and losers. Our challenge, the challenge from 
our board of trustees, the expectation of our Governor is 
ensuring that Georgia does emerge as one of the winners. But an 
even greater challenge, and certainly one that this committee 
is concerned with, is to make certain that America sustains its 
reputation as an innovator and continues on a path to 
prosperity.
    Over the past 13 years, Georgia has been quite successful 
in moving toward this goal. We have brought a cadre of some of 
the world's brightest and best researchers to our universities. 
We have provided them and their colleagues with the specialized 
laboratories and equipment they need to lead research and 
development programs with significant economic development 
potential. And we have created programs to move innovation from 
the laboratory to the economy.
    In fact, we can track some 120 new high-tech startup 
companies that are related to our investments in recruiting top 
scientists and developing a world-class university research 
infrastructure. This is the good news that I have just shared 
with our Governor as our legislative session gets underway in 
Georgia.
    But all of this success will fall apart unless we are able 
to meet the challenge that this committee is addressing. We 
must be able to provide a workforce with the math and science 
skills that are so vital to helping these companies grow, and 
our more established ones thrive.
    We also need to continue to build a university research 
workforce that generates the innovative technologies that lead 
to more growth of the high-tech industries in our state.
    The statistics in Georgia are disquieting, particularly to 
an organization such as ours that is expected to improve the 
economic landscape of our state. As I understand our situation, 
in the year 2000 our 4th graders ranked 43rd nationally in 
science and our 8th graders ranked 42nd. Our percentage of 
college students seeking degrees in science and engineering 
continues to fall. Women and minorities are still under-
represented in the sciences and engineering. And all of this 
while the retirement of the baby boomers is expected to leave a 
two million job gap in professional, technical labor markets.
    Recently Georgia came in second in its efforts to recruit a 
major vaccine manufacturing facility to the state. Mr. 
Chairman, second really doesn't count in this business. The 
facility went to North Carolina. One of the key reasons cited 
was the perception that Georgia could not provide the high-tech 
workforce that such a facility requires.
    So we know that we have a challenge. But I am pleased to 
share with you a few things that are happening in Georgia that 
can help us to move forward.
    Last June a group of Atlanta entrepreneurs and educators 
from several universities and secondary schools began meeting 
informally to discuss what could be done to improve science 
education for K through eight students in Georgia. They have 
since formed the Georgia Alliance for Science Education to 
develop a blueprint and action plan that will ensure that all 
Georgia students become scientifically literate citizens of the 
21st century. They have also joined with the National Science 
Resources Center, the National Academies and the Smithsonian 
Institution to sponsor a Call to Greater Collaborative Action, 
a conference on improving science education programs for 
Georgia's K through eight students. This is particularly 
noteworthy as it is a grassroots effort intended to deal with a 
giant problem. And as I will recommend to you, this initiative 
will be driven by a public/private collaborative.
    Finally, let me speak on a personal note. I have two young 
sons. The older one wants to be a fireman when he grows up. 
This has been his ambition since before he could talk. I 
believe he has stayed committed to this goal, in part, because 
he has role models that he can see and understand and talk to 
and brag about to his friends. And believe me, every day my 
wife and I try to impress on him that he needs to understand 
his math studies because today firefighters are expected to be 
part engineer. So we have some leverage. But in the high-tech 
world, in the world of science, engineering and math, we have 
not presented role models for our kids. We have not 
demonstrated how the research scientist or the entrepreneur or 
even the electrical engineer can be a hero, improve our lives 
and maybe even save lives.
    I will close with two suggestions. One from a professional 
perspective and one from a personal perspective. The challenge 
ahead will require the close collaboration of business, the 
educational system and our political leadership to truly meet 
the challenges that you are addressing and to find the answers 
that you seek. But let me be clear. By collaboration, I mean 
the active participation of all parties, not merely one sector 
turning to another asking for more money. An active 
collaboration is what has made the Georgia Research Alliance 
successful, and I believe that such a model will be the right 
basis for what you are about.
    And from a personal perspective, let's show our kids some 
heroes from the world of math and science. Let's brag about 
what they have accomplished and what it means to our nation and 
to the world.
    Again, thank you for the opportunity to speak with you 
today.
    [Applause.]
    [The prepared statement of Mr. Cassidy follows:]

                Prepared Statement of C. Michael Cassidy

    Mr. Chairman, esteemed Members of this committee--good morning. My 
name is Michael Cassidy and it is a distinct pleasure and honor for me 
to join in this discussion today and to provide testimony to this 
committee on a subject that is of great importance to me professionally 
and personally, as I am sure it is to each of you.
    As my biography notes, I am President of the Georgia Research 
Alliance. We are a private, non-profit organization with an economic 
development mission. We were formed in 1990 from the vision of the 
business leadership of the state.
    They saw the need to bring together business, Georgia's leading 
research universities and State government in a partnership to ensure 
that the innovation capacity of our university research enterprise was 
directed toward bringing economic prosperity and a superior quality of 
life to Georgia, the region and perhaps the Nation.
    The stated goal was, and is, for Georgia to be recognized in the 
top-tier of states with an innovation-driven economy. Why is it 
important for Georgia to be thought as a high tech state?
    It is well known, certainly by this committee, that high tech 
jobs--especially the jobs in fields such as computers and 
communications or the biosciences--attract our most highly educated 
workers, who, in turn, earn the highest salaries. This high tech 
workforce is the key to building very successful, growth-oriented 
companies that lead to sustainable economic growth.
    High tech industries are, in fact, characterized as the ones that 
are driven by entrepreneurial energy and imaginative thinking. These 
are the industries that develop the sophisticated tools which impact 
businesses of every size and that translate discoveries made in our 
research laboratories into the technological advances that are so 
important to our quality of life.
    We see a situation today where the development and use of 
technology is strongly influencing the distribution of economic growth 
in the United States.
    Clearly, this distribution of economic growth is not occurring 
uniformly in all states and regions. Economists of course have a name 
for this--they call it geographic clustering. What it means, very 
simply, is that there are going to be the proverbial haves and have-
nots. There will be winners and losers.
    Our challenge, the challenge from our board and the expectation of 
our governor is ensuring that Georgia does emerge as one of the 
winners. But an even greater challenge, and certainly one that this 
committee is concerned with, is to make certain that America sustains 
its reputation as an innovator and continues on a path to prosperity.
    Over the past 13 years, Georgia has been quite successful in moving 
toward this goal. We have brought a cadre of some of the world's 
brightest and best researchers to our universities. We have provided 
them and their colleagues with the specialized laboratories and 
equipment that they need to lead research and development programs with 
significant economic development potential. And we have created 
programs to move innovation from the laboratory to the economy.
    In fact, we can track some 120 new high tech startup companies that 
are related to our investments in recruiting top scientists and 
developing a world-class university research infrastructure.
    This is the good news that I have just shared with our Governor as 
our legislative session gets underway in Georgia.
    But all of this success will fall apart unless we are able to meet 
the challenge that this committee is addressing. We must be able to 
provide a workforce with the math and science skills that are so vital 
to helping these new companies--and our more established ones--thrive 
and grow.
    We also need to continue to build a university research workforce 
that generates the innovative technologies that lead to more growth of 
the high tech industries in our State.
    The statistics in Georgia are disquieting, particularly to an 
organization such as ours that is expected to improve the economic 
landscape of our State. As I understand our situation, in the year 
2000, our fourth graders ranked 43rd nationally in science and our 8th 
graders ranked 42nd. Our percentage of college students seeking degrees 
in science and engineering continues to fall. Women and minorities are 
still under-represented in the sciences and engineering.
    And all this while the retirement of the baby boomers is expected 
to leave a two million job gap in professional technical labor markets.
    Recently, Georgia came in second in its efforts to recruit a major 
vaccine manufacturing facility to the state. Second really doesn't 
count in this business. The facility went to North Carolina. One of the 
key reasons cited was the perception that Georgia could not provide the 
high tech workforce that such a facility requires.
    We know that we have a challenge. But I am pleased to share with 
you a few things that are happening in Georgia that can help us to move 
forward.
    Last June a group of Atlanta entrepreneurs and educators from 
several universities and secondary schools began meeting informally to 
discuss what could be done to improve science education for K-8 
students in Georgia.
    They have since formed the Georgia Alliance for Science Education 
to develop a blueprint and action plan that will ensure that all 
Georgia students become scientifically literate citizens of the 21st 
century.
    They have also joined with the National Science Resources Center, 
the National Academies, and the Smithsonian Institution to sponsor ``A 
Call to Greater Collaborative Action,'' a conference on improving 
science education programs for Georgia's K-8 students.
    This is particularly noteworthy because this is a grass roots 
effort intended to deal with a giant problem. And as I will recommend 
to you, this initiative will be driven by a public/private 
collaborative.
    Finally, let me speak on a personal note. I have two young sons. 
The older one wants to be a fireman when he grows up. This has been his 
ambition since before he could talk. I believe he has stayed committed 
to this goal, in part, because he has role models he can see and 
understand and talk to and brag about to his friends.
    And believe me, every day we try to impress on him that he needs to 
understand his math studies because today, firefighters are expected to 
be part engineer. So we have some leverage.
    But in the high tech world, in the world of science, engineering 
and math, we have not presented role models for our kids. We have not 
demonstrated how the research scientist or the entrepreneur or even the 
electrical engineer can be a hero, improve our lives, and maybe even 
save lives.
    I will close with two suggestions--one from a professional 
perspective and one from a personal perspective.
    The challenge ahead will require the close collaboration of 
business, the educational system and our political leadership to truly 
meet the challenges that you are addressing and to find the answers 
that you seek. But let me be clear. By collaboration I mean the active 
participation of all parties, not merely one sector turning to another 
asking for more money.
    An active collaboration is what has made the Georgia Research 
Alliance successful, and I believe that such a model will be the right 
basis for what you are about.
    And from a personal perspective, let's show our kids some heroes 
from the world of math and science. Let's brag about what they have 
accomplished and what it means to our nation and to the world.
    Again, thank you for this opportunity to speak with you today.

                    Biography for C. Michael Cassidy

    Mr. Cassidy is President of the Georgia Research Alliance, a 
strategic partnership of Georgia's research universities, joined by the 
business community and State government, whose purpose is to leverage 
the State's research capabilities into economic development results. 
Before joining the Alliance in 1993, Mr. Cassidy managed the Advanced 
Technology Development Center (ATDC), Georgia's technology incubator. 
Prior to that he worked for the IBM Corporation were he held various 
staff and management assignments. Mr. Cassidy holds a Master's degree 
in Technology and Science Policy from the Georgia Institute of 
Technology and a BBA degree in Marketing from Georgia State University.
    Mr. Cassidy represents the State of Georgia on the Southern 
Technology Council and the Southern Governors' Association Advisory 
Committee on Research, Development and Technology. He consults with 
several states on issues of science and technology policy and economic 
development. Mr. Cassidy is on the Board of Directors of the 
Southeastern Life Sciences Association, Georgia Advanced Technology 
Ventures, the SciTrek Museum, and the Georgia Chamber of Commerce. He 
is on the Board of Visitors of the Grady Health System and a member of 
the Commerce Club of Atlanta. Mr. Cassidy enjoys sailing, swimming and 
walking.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               Discussion

    Mr. Gingrey. Thank you, Mr. Cassidy.
    That completes the formal testimony of our witnesses. I 
know the students who are in attendance here this morning at 
this Full Committee hearing of the House Science Committee have 
been rotating in and out, of course, depending on class 
schedules, and you may not have heard the full testimony of 
each and every witness. They are submitting--have submitted a 
written report and, of course, that will be eventually 
available in the Congressional Record. But if any of you want 
one or all of these written testimonies, I can assure you that 
we will get them to you.
    We will now get into the next phase of the hearing, the Q&A 
phase. I think Congressman Davis would agree with me that we 
all, Members of Congress, have a lot of town hall meetings, we 
call them in our districts. This is a very important part of 
what we do in regard to constituent services. But I have--and I 
am sure he would agree--I learn more during that phase where we 
let folks ask questions of us. It stimulates a two-way 
dialogue. A lot of times we might not know the answer to a 
question, but then we get an opportunity to go back and find 
out exactly what we need to know. So this really--if you miss 
some of the actual testimony of the participants, the best part 
is what we are getting into right now. I understand we do have 
some time where we will be taking questions from the audience 
for any of the participants.
    I am going to start the questioning and after a short 
period of time, then I will turn that over to Congressman Davis 
and then we will follow with questions from you.
    Let me start actually with Mr. Cassidy. Mr. Cassidy, not 
long ago there was a Business Week cover that asked the 
question: ``Is Your Job Next?'' Clearly the issue of offshore 
out-sourcing and American competitiveness is of great concern 
to Georgia and to the Nation as a whole. We all read every day 
about loss of more manufacturing jobs. Just recently in this 
11th Congressional District, of which we are a part right here 
in South Cobb, down in Troup County, in LaGrange, we lost 
another 550 jobs when West Point Stephens, a textile 
manufacturing plant announced impending layoffs.
    I believe the key to American competitiveness is competing 
on our own terms, not trying to see who can pay their workers 
the least. How do you think we can remain competitive, and what 
role does education and training play in creating our 
comparative advantage against these other countries that are 
taking some of our jobs?
    Mr. Cassidy. I think the key, Mr. Chairman, is continued 
focus on innovation. You are familiar with the work of the 
Council on Competitiveness and the issues that they are looking 
at of how to continue to fuel innovation in our country. It was 
not that long ago that industry aligned and began to look at 
the issues of moving jobs offshore, but specifically in the 
manufacturing area. While this was of great concern to a number 
of us in the country, it really did not capture our attention 
because we were sure that our future would be based on the 
expansion of a high-technology economy of research and 
development, but today, we see these same jobs going offshore. 
So we are just going to have to continue to pour our efforts 
into innovating, to leading to discoveries that have really led 
our country to the heights that it is at today. All of this 
will require strength in mathematics, in the sciences, in the 
engineering and it has to start, as we have heard from our 
other panelists this morning, at the very early stages where we 
can capture the enthusiasm of our children so that they will 
want to pursue these degrees going forward. We have to sustain 
that workforce. Other countries are way far out ahead of us 
today.
    Mr. Gingrey. And I asked that--thank you, Mr. Cassidy. I 
asked that question because while there is no question that we 
have lost a lot of manufacturing jobs, not just in Tennessee 
and Georgia, but across the Nation, manufacturing jobs are 
actually being lost worldwide. While we may have taken a little 
bit more of a hit than China and some of these other countries, 
we are still losing manufacturing jobs. The point is, it is 
because of increased productivity. It is not just that we are 
losing jobs necessarily to these other counties. There is some 
of that of course. But the fact remains that technology, high-
tech--and as you pointed out, an increased emphasis on math and 
science and engineering are going to hopefully create more and 
better jobs for the future.
    This is a question really for all of the witnesses. 
According to a survey by the United States Department of 
Education fewer than half of high school seniors surveyed 
indicated that they liked mathematics, a proportion similar to 
the proportion who felt that they were good at it. What effect 
does this math anxiety have on student achievement and what can 
we do to overcome it? I think I will ask our student 
valedictorian, Ms. Purcell, to take that one first.
    Ms. Purcell. I find I enjoy math most obviously when I 
understand it. There are some things where you need the concept 
gone over many, many times. I personally struggled more with 
very abstract things. I guess there is not as much motivation 
to try to understand it if you do not feel you will need it. I 
think some of my peers, not so much in the IB program, but 
others taking calculus, if they do not understand, they kind of 
feel like, well I will not need it, so I do not have to worry 
about struggling to understand it. I think that is probably the 
biggest problem with students saying that they do not 
understand their math. Especially my peers in their senior year 
are taking a class, but they do not feel they will need it in 
their career, they are not going to want to spend a lot of time 
studying their senior year and worrying a lot about not 
understanding their math subjects. So I think that if some of 
them maybe had had an opportunity to take it earlier when they 
were a little more focused on high school success, and not 
looking so much toward next year in college, that they may have 
put more effort into it or gone in to get after-school help and 
such.
    Mr. Gingrey. I thank you, Ms. Purcell. You know, again, the 
reason I asked that question--and I want the other witnesses to 
respond as well briefly. But I am sure there is a certain 
amount of grade point average fear in signing up for the tough 
math and science courses. What do the other witnesses feel 
about that? Let us just go right down the line briefly.
    Mr. McClure. Mr. Chairman, science and math obviously are 
very closely interrelated. I think one of the biggest things is 
presentation. That is where we have to constantly work and go 
back and hone our skills as teachers. Students have to come 
with a certain amount of skills and it begins day one. If we do 
not attack them when they come with a mind willing to learn and 
take advantage of that, it is pretty hard to go back and 
recapture that a little bit later on. If somebody gets weak in 
math skills we have to now develop a program that allows them 
to catch up to where they should be when they start out. That 
sometimes is a problem because if they do not have success in 
that program you created to catch them up, then they get 
frustrated. I think the biggest sell is to say first of all you 
can do math. We have to stop telling people about how hard it 
is and show them ways to do it. When I first started out in 
science, I hated science, but I got a teacher who showed me 
some ways that I could work in science. Since I was a high-
school athlete, he said if you practice this stuff this way--
and I use that in my class. It is probably 90 percent 
presentation, what we really need to focus on in order to 
create--because we have to create an atmosphere of excitement. 
Nobody wants to do anything that is boring. Math is certainly 
not boring, it is a key that we have to have. So I think 
presentation is a big role.
    Mr. Hill. I will--I will second those comments. I think the 
role that the state--the Department of Education and the state 
can play is ensuring that teachers have all the necessary 
tools, such that they can make those exciting presentations. We 
need to stress content knowledge in science and math and 
revising the quality core curriculum or these performance 
standards and providing examples of what it means to have a 
quality presentation in a certain subject area so that Mr. 
McClure can compare his presentation and his students' work to 
high quality work in California, high quality work in New York. 
I think a lot of times teachers unfortunately do not have 
access to resources that are present across this country and 
the role that we can play to provide access to those resources 
to ensure that there is content knowledge and ensure that there 
is ongoing training or staff development.
    I am sure you can remember when you were in the state 
legislature, it seemed as if there was always a notion to cut 
staff development, to cut professional development. If someone 
had already gone to school, why do you need to continue to 
provide training? There are always new things coming on in 
science and new ways to teach math. So we just have to make 
sure the resources are there so that the teachers and the 
students can do a good job in those subject areas.
    Dr. Ohme. I think Ms. Purcell hit the nail on the head when 
she said that she enjoys it when she understands it. I think 
that is true of all of us. If we do not understand something, 
we tend to shy away from it. I think that beginning early on 
with our young people, we must ensure that they get a 
conceptual understanding of the topic. Certainly there are 
certain basic skills that have to be mastered to understand 
what skills go with the concept. That is driven sometimes by 
assessment. So I think when our assessment is based off of 
simply facts of basic computation and not looking at conceptual 
understanding early on, we as leaders are guiding people away 
from the concepts. When it's based off memorization, there is a 
limit as to how much we can memorize. Some students by sixth 
grade, their memorization fails them, some by ninth grade. I 
have seen students memorize all the way through freshman year 
in college and then hit a course of differential equations and 
that is where their memory work--memorizations would not work 
anymore. So if you want a student to understand, they have to 
understand the concept. The reference is also made that one way 
to bring understanding and relevance to students is making sure 
it is done in an allocation setting. So you do not do the 
mathematics for mathematic's sake purely, but you do the 
mathematics as well as its applications and bring out the 
applications.
    This comes back to the in-depth knowledge of the subject 
matter. A teacher who only surfacely knows the material is not 
going to be able to stress concept or application. This is 
where we can use our university people, research and 
mathematicians, scientists and engineers to partner with the 
teachers to help bring the concepts, bring the applications, 
bring current the applications. Then we make sure that a child 
does not go from grade to grade without mastering concept.
    Mr. Gingrey. Mr. Cassidy.
    Mr. Cassidy. I think there are two things that I would 
mention. From my own experience, math was not a strong point. 
It was a long time ago when I was in high school, but our 
football coach was my math teacher. I hope things have changed, 
but I fear that today we still have far too many teachers in 
math--especially in the sciences--teaching out of field. I know 
a good deal of that is related to budget constraints and this 
is not a good time to be talking about that, but I think 
something does have to be done to address the issue of teaching 
within field and then really following on what each of the 
others have said having those teachers be able to connect with 
their students.
    Now one other item is the use of technology in the schools 
today. While I am a very, very strong proponent of technology-
enhanced learning, all the new devices and web-based and 
computer-based tools and techniques to help teach kids science. 
Ms. Purcell talked about the excitement of cutting open the 
calf's heart. Well, we got to do those things in school when I 
was a kid and that made science exciting. I do not know if it 
is as exciting looking at it on a computer screen today. I am 
not sure that that captures the enthusiasm. You certainly do 
not have the smell of formaldehyde all over you.
    So while we need to continue to look at all of the 
wonderful things with technology-enhanced learning, I think 
there are appropriate applications and there are other times 
when kids just have to be able to experience things the way 
that we did when we learned science.
    Mr. Gingrey. I want to thank all of you for those answers. 
I had a follow-up question but I am going to hold that because 
I have gone way beyond my time. I think at this point I will 
turn it over to Congressman Davis for some of his questions.
    Mr. Davis. Again, thank you for the testimony you have 
given and for the response to the questions that you have given 
us as well.
    In your comments, Mr. Cassidy, one of the things that you 
alluded to is that we probably need more role models, more than 
just sports figures, more than movie stars or musicians or 
those who make huge sums of money. We need someone whose life 
has been successful. We have some of those, folks like Bill 
Gates. As we review the last 100 years of aerospace, Orville 
and Wilbur Wright, which certainly was a part of my upbringing 
to study about that and look at how we have evolved--not 
evolved, but how we have through research and development, 
education and knowledge, that we have gone from that small 
lightweight plane that flew for a few hundred feet to what we 
are doing today in aviation. So we do have those, whether it is 
Eli Whitney; George Washington Carver, one of the minorities, 
was an investor and inventor in agriculture in our country. So 
we still have those role models. I think sometime we do not do 
enough at the high school level, K through 12 or K through 8 to 
remind our children, our students, that these are folks that 
you can pattern your life after.
    And in making that comment, Dr. Ohme, you basically said 
that we have to prepare teachers better. We need to bring not 
just better educated teachers but teachers who can relate to 
the student in the classroom to where that child will learn 
from that teacher. When I grew up in the small community I grew 
up in, my grandparents lived close by. They were role models 
for me. Not as much of a role model as my parents, my mother 
and my father. But probably perhaps outside of my family, the 
biggest role model that I had growing up was the teachers. I 
can tell you their names, how they felt toward me, and how I 
felt toward them. I do not know whether we have lost that or 
not. I certainly hope that we have not. I do not think my 
daughters when they went to grade school and high school as 
they related their stories--they still have those feelings that 
that teacher is a role model to them. But I think that we are 
seeing changes made in how we look at education.
    The question I guess that I would ask each of you, Mr. 
McClure, Mr. Hill, Dr. Ohme, maybe Ms. Purcell, even you 
because you are a student: what approaches are possible for 
attracting more qualified individuals including mid-career and 
retired scientists, mathematicians and engineers to careers as 
science and math teachers and particularly to attracting 
minority candidates, perhaps? Either of you or all of you. And 
what are we doing today?
    Mr. Hill. One program that the State of Georgia has 
implemented is Georgia TAP, basically which is an alternative 
certification program. It allows those folks who were in 
careers other than education to maybe make a mid-career 
adjustment, make a mid-career change. Those folks do not have 
to go through a college of education but they have to show and 
demonstrate that they have content knowledge by passing the so-
called PRAXIS Test. All of the testimony that I have heard with 
regard to the PRAXIS Test in math, if one achieves a passing 
score on that test, they clearly understand the content 
knowledge of math. But I think we cannot ignore the teaching 
side of it because I am sure we all had professors in college 
and graduate school who were brilliant but could not convey the 
knowledge that was inside their heads.
    So the alternative education program that Georgia has 
enacted requires not only content knowledge but some type of 
mentorship and training to expose these different individuals 
to what it means to teach. It is very important in elementary 
and in K-8 I think to ensure that you can connect with these 
young kids, maybe less important in high school, but it is 
still very important.
    Ms. Purcell. In the IB Program--I am sorry. In my 
experience my teachers are a wonderful group of diverse and 
accomplished individuals. Many of them were professionals 
before they became teachers. I think that they choose to teach 
and they love to teach because they get to teach a group of 
students that really want to learn. My peers and I are very 
much interested in learning and in succeeding. I think that 
drives them to continue. It is not so much of a chore, it is a 
more positive experience. I guess then you are back to the same 
question, how do you make the students want to learn? I think 
those two things go hand in hand.
    Mr. Davis. I sense that you have a special school here. You 
are obviously--it is special when you talk about being 99.5 
percent in the top category. That is extremely special, if you 
are from any part of this nation, to be in that category.
    Are the students here from the surrounding communities or 
do they live in this neighborhood? I mean how has this--from 
your perspective, how has this high school become so 
successful?
    Ms. Purcell. Personally I--the IB Program pulls from all 
Cobb County, so they do not live close by. But I was districted 
to come to this high school anyway. So I have maintained ties I 
guess with the regular student body who do live in this area. I 
think that obviously the IB Program has helped make it more 
successful just because interaction with different kinds of 
people who have grown up in different areas. The success comes 
from both sides of the, I guess, Campbell student body.
    Mr. Hill. I think there are several points I want to 
mention. One, I think the profession does not have the honor 
and recognition that it probably did in earlier decades. I 
think we must analyze ways that we can bring prestige to the 
profession. If you look at the starting salary for a teacher 
versus an engineer, it is not necessarily encouraging.
    The second thing I want to look at is the retention rate of 
teachers in their first three to four years of teaching. We 
find that there is a tremendous loss of teachers in that period 
of time. I think we have to look at that seriously. I think the 
working conditions of the teachers is not conducive to 
encouraging teachers to stay. If you're an engineer and you 
need a couple of hundred dollars worth of supplies, most likely 
your firm would provide them to you, yet we find teachers 
buying supplies out of their own money. It is not so much the 
$200, that is a give or take kind of thing. But it is the image 
and the perception and the concept.
    We also find that there is a correlation not so much 
between the poverty and the background of the student and 
success as we do with the quality of the teacher and the 
success of the students. And so we need to look at programs 
that bring our best teachers to the more difficult teaching 
situations. There are rural situations, urban situations where 
the teaching is more challenging. We need to find a way to 
motivate and move our best teachers.
    Mr. Davis. I have three teachers in my family, a son-in-
law, a daughter and my wife. She teaches second grade. There 
are numerous occasions when I am traveling in the northern part 
of the district I represent that someone will tell me, your 
wife taught me in second grade, and I love it. My little six-
year old granddaughter, Ashton, asked her mom the other day, 
she said, mom, or mother, why do all the little kids hug you? 
She was afraid her mother was going to start loving the little 
kids more than she did her.
    [Laughter.]
    Mr. Davis. So I think we still have today that feeling, at 
least in the rural areas, that the teacher is kind of something 
special. I hope that we can keep that going.
    Dr. Ohme, I am running out of time. In your testimony you 
characterized the NSF Math and Science Partnership Program as 
exemplary for engaging K through 12 educational practitioners 
in math and science and university faculty in advancing science 
and math education in the schools. There is a persistent rumor, 
maybe not true, that the upcoming budget proposal for fiscal 
2005 will move the NSF program to the Department of Education. 
What is your view on the overall impact of such a proposal and 
does it make sense to maintain separate coordinated partnership 
programs at NSF and the Department of Education?
    Dr. Ohme. That is an excellent question, sir. The role of 
the National Science Foundation and the role of the Department 
of Education are two distinct roles. The role of the National 
Science Foundation, as I understand it, is a research, very 
narrow type role. The use of scientists, mathematicians and 
engineers into a K-12 setting is something unique, something we 
have not done more than a year or two. And the money that 
Congress allocates for math/science partnerships is for the 
express purpose of bringing that group of people into the 
schools. For us to spend millions of dollars on a program 
without having tested it, experienced it, done some research on 
it and identify some best practices I do not think is sound 
judgment. So I think to continue an allocation to the National 
Science Foundation to prototype programs, to go out to 
different distinct situations, test out some strategies, find 
out what works and what does not work and then communicate this 
body of best practices to the Department of Education that is 
typically given a large amount of money typically allocated in 
a block grant or by formula or something based on population 
and need, and be able to carry them and say here are some 
things that we know work in these situations, here are some 
things that we have found do not work in these situations, put 
this in your repertoire of spending money.
    So I think that at least at this point in time, where we 
have a scenario that's new, we need to be able to gather more 
data. I think all of us can identify some college faculty 
members who if thrown into a K-12 situation are not going to be 
effective. But yet we have some situations at Tech where it is 
extremely effective and we outlined some of those programs in 
our testimony. So I think it can happen, but we need to 
document what those profiles are before we put massive amounts 
of money out.
    Mr. Davis. Thank you very much. I yield back to Congressman 
Gingrey.
    Mr. Gingrey. Congressman Davis, thank you.
    Mr. Arnson, I think at this point we will get into 
questions from the audience. I want to remind members of the 
audience who are participating in the hearing that your 
questions can be to any one of our witnesses or to the entire 
panel. So at this point we look forward to hearing your 
questions.
    Yes, sir. Let me--just a minute. I guess in the interest of 
making sure that everybody can hear your question, we are going 
to ask you to come down and come to the main microphone here.
    Mr. Butler. [Inaudible.]
    Mr. Gingrey. Members of the panel, could you hear the 
question?
    Ms. Purcell. No.
    Mr. Gingrey. Okay. That is not your fault. The sound system 
may not be as good as it needs to be. Can you actually, you 
know, act like you are on one of these TV shows, what do you 
call it, the one where----
    Mr. Davis. Reality.
    Mr. Gingrey. Reality, there you go. And just put that thing 
right in your mouth.
    Mr. Butler. I have a question for this panel. Most of you 
all referred to math and science organizations for the future. 
I just want to know what type of math organization--math and 
science organization were you all planning for today, the 
present.
    Mr. Davis. I think what his question is, is that we are 
talking about the future of math and science. His concern and 
interest would be what are we doing today in math and science. 
Is that correct?
    Mr. Butler. Yes, sir.
    Mr. McClure. I will address that for you, Mr. Butler, since 
you are in my class during this period.
    [Laughter.]
    Mr. McClure. One of the things we are going to do is try 
and give you a good base in science so that you will be well 
qualified when you leave Campbell High School to go out and 
participate in science on any level that somebody leaving high 
school could be best prepared for. There are lots of things 
that are available to you. There are all kinds of science 
organizations, you know, here at the school. We have a 
chemistry club, we have lots of things that you can avail 
yourself of. Probably the most important thing for you to be 
aware of right now though is Chapter 2 and the chemistry that 
we are studying.
    [Laughter.]
    Mr. Butler. Can I ask another question?
    Mr. Gingrey. Yes, sir, sure.
    Mr. Butler. He spoke on--Mr. Cassidy, he spoke on coaches 
teaching in the math and science classrooms. I would like to 
know how you feel about that because Mr. McClure is a coach and 
is in the science classroom.
    [Laughter.]
    Mr. Cassidy. Well, now there is a difference. There are 
those that are trained in math and happen to coach in their 
spare time and there are those that are trained as coaches and 
because of constraints have to come into the classroom and take 
any number of different subjects. I think it is great when it 
works. My point is, I think in fields like mathematics and 
especially in the sciences the needs are so unique, the subject 
matter is so unique that as each of the panelists have noted, 
teachers must be properly trained both to handle the subject 
matter and also hopefully to get you very enthusiastic about 
that. Now your football coach maybe can get you very 
enthusiastic about math. He can perhaps make it very, very 
applied. There is a lot of math in football and in basketball. 
I had an econ professor who was a big enthusiast of basketball. 
He could take a very complex economics problem and explain it 
in terminology that basketball players--and that is great. But 
math and science require very, very specialized skills. I think 
we just need to be making certain that our teachers do have 
those skills, and if they also want to participate in coaching 
and sports, I think that is outstanding--or any other extra 
curricular activity that they want to pursue with the students.
    Mr. Gingrey. Mr. Cassidy's answer, while somewhat accurate, 
I have to remind him that this is a no-spin zone in regard to 
some of the math and science that is applicable to sports. But 
certainly he and I realize that there has been a paradigm shift 
since the time that we both went to high school. I think your 
question is a great question, because it is true that years ago 
principals--Mr. Arnson would hire a football coach or a 
basketball coach primarily because they wanted a good coach. 
Then after they decided to hire that individual, they would say 
oh, by the way, the class that you are going to teach is 
calculus, because they had to teach as well as coach because 
primarily they are teachers. I think that the paradigm has 
shifted.
    I am so glad you asked the question, because I think today 
what you are seeing is principals like Mr. Arnson and others 
who are serving us so well; when they hire coaches, it is a 
secondary goal. Primarily they need to be good teachers. 
Coaches that you now see teaching in our school system are well 
prepared and have great mastery of their subject matter and 
they just happen also to be good athletic coaches.
    All right, we are going to limit you to two. Thank you.
    Who is next?
    [Student raises hand.]
    Mr. Gingrey. Yes, sir, come on down.
    [Applause.]
    Mr. Davis. While we have the young gentleman coming, what I 
am impressed with is that these young folks are listening 
obviously because they caught the comment that was made. And 
truly the football coach is part of math. Georgia Tech and 
Cumberland University have I think the highest football score 
in the history of this country. You have to be able to have 
some mathematical skills to add that score up. It was a 
horrible score. Cumberland University is in the central part of 
Tennessee. But one of the analytical parts of football is when 
it is fourth down and 25, the analytical math part of it is you 
punt.
    [Laughter.]
    Voice. I have a similar question. My name is Matthew and I 
teach chemistry here. You talked earlier about training and 
retaining and attracting the best teachers to not only Georgia 
but to any school in the country and I was interested in what 
Coach McClure had to say about that. Not just because he is my 
boss, but because he is one of the science teachers and someone 
who has first-hand experience, I would just like to let the 
audience and the panel have a chance to hear what he would have 
to say since he was not able to speak on that earlier.
    Mr. McClure. I appreciate that, Matt. You know that is 
something--and I listen respectfully to a lot of comments. A 
lot of times we do get a lot of input about teaching. I guess 
as--you know, we still consider teaching a royal profession. 
Maybe everybody does not consider it that, but I know teachers 
do and I certainly do. I have a lot of comrades who do a great 
job. It is somewhat dismaying sometimes though--we have all had 
brilliant professors that are masters of a subject matter, but 
have an inability to communicate. To me that is equally as 
important or maybe more important, being able to deliver. It is 
salesmanship. If you cannot sell it--that is why students 
sometimes do not like certain subjects. You cannot just beat up 
on math and science because I think it would be true across the 
board. It is salesmanship. You know, you can maybe know less--
and that does not mean that you are not qualified.
    I am glad that he asked the question. I am a biology major 
with a chemistry minor. That was what I started out to do, and 
they asked me if I wanted a job, could I coach. So I did go the 
opposite way with that. But you have to be able to sell it. If 
I go to your class and you write with one hand on one board and 
erase with the other hand on the other board, that is all you 
do for me and say have a nice day, I am not going to be 
interested in whatever you are trying to tell me about. I think 
that is the key to it. It is a little difficult to accept 
genuinely the idea of someone taking a three-week course and 
being considered a teacher. You could not do that if you wanted 
to be a lawyer or if you wanted to be a physician. Yet somehow 
we have reached the point where we think that teaching could be 
done that way. Perhaps those who make decisions along that line 
need to spend a little time with us so they could really 
realize what really goes on, because I think the retention rate 
of those people who make those changes sometimes is not very 
high. I think what they realize when they come into the 
classroom is that there are a lot of variables that teachers 
have to deal with in addition to knowing the subject matter and 
being able to present it.
    There is a story told--I will make it brief--about a 
business leader who was getting on the teachers and trying to 
encourage them to do the very best they could. This person was 
a blueberry salesman, and the person said that, you know, what 
we do is we make the best blueberry pie in the world. We get 
the blueberries, we make the pie and we send it out. There was 
an old teacher in the back of the room who pointed out the 
fact, yeah, you can do that, you can make the best blueberry 
pies, but you can choose your blueberries. Unfortunately in 
education we do not get to choose that. We take what comes and 
you have to use a skill. It is a calling to be able to teach. 
It is a blessing to be able to teach, but not everybody who is 
gifted in the subject area can have the ability to deliver.
    [Applause.]
    Mr. Davis. You have proven that cloning is a great idea. I 
wonder if we could clone you and make all the teachers in 
America like you?
    Mr. Gingrey. We have plenty of time students. So we will be 
glad--oh, good, we will take our next question.
    Voice. Good morning.
    Mr. Gingrey. Good morning.
    Voice. I have heard some of the panelists talk about 
teachers needing technological improvement in tools to enhance 
the learning environment to inspire students. My question is 
directed toward the Congressmen. What kind of funding would the 
Federal Government provide to make these technological 
improvements happen?
    Mr. Gingrey. That is a very good question. One thing that I 
have learned in the Congress, and I certainly learned that 
prior in the Georgia General Assembly, is that everything is 
based on priorities. You have a certain amount of revenue to 
spend. Now states have to balance their budgets. I wish that 
the Federal Government had the same constraints. But even if we 
had a balanced budget amendment, Constitutional amendment, in 
Congress, the exceptions would be in times of national 
emergency or times of war, and we find ourselves today in both 
situations. So you are seeing some deficit spending that none 
of us like.
    Our budget this past fiscal year, 2004, was $2.3 trillion. 
Now think about that, $2.3 trillion. That is a lot of zeros. 
Two-thirds of that money is for what we call nondiscretionary 
mandatory spendings, Social Security, Medicare, things that 
we--no matter what, money that has to be spent. It is very 
difficult to cut that part of the budget because promises made 
are promises that have to be kept. People are living longer, 
there are more recipients of those entitlement--sometimes 
called entitlement expenditures. So only about 1/3 of the 
budget is what we call discretionary spending and, of course, 
education, K-12, higher ed, Head Start. You know, from three-
year-olds all the way up to college and beyond is a part of the 
discretionary spending. Oh, guess what, so is the Department of 
Defense and the need to have a strong military, and the 
Department of Homeland Security and the need to protect each 
and every citizen so that when these youngsters like yourselves 
and your little brothers and sisters go to school every day, 
you do not have to have that great fear that something like 9/
11 is going to happen to them or yourselves, and your parents 
and grandparents of course have that same great fear.
    So those are the constraints that we find ourselves in. And 
even with that, this administration has increased fairly 
significantly the amount of spending on education. But certain 
line items may not be to everybody's satisfaction in regard to 
things like special education and as you point out technology 
and the need for additional spending. I wish we could do 
everything that we need to do, but unfortunately there are some 
constraints there. But I truly believe that in this state and 
hopefully in the state of Tennessee and throughout this nation 
that we--maybe we are spending enough money, but possibly we 
are not spending it as wisely as we could or should. You know, 
you have always heard the admonition to work hard, work hard, 
but you need to work smart, too. Sometimes people work very 
hard but not very smart, and the same thing regarding spending. 
It is not just a matter of throwing additional dollars at it, 
it is looking for the programs that work and the programs that 
do not work and accountability. In fact, that is what No Child 
Left Behind is all about. So it is a great question and I 
appreciate it. I would be interested in how Congressman Davis 
feels about that, and maybe any of the witnesses might want to 
comment.
    Mr. Davis. I will make a brief comment. Recently flying 
back to Washington I picked up a local telephone cooperative 
magazine called the Tennessee Magazine. The front page said, 
``A Better Educated America,'' and I was excited about reading 
that story. It was about half a page. It related to the 1940 
census compared to the 2000 census, and I wanted to compare the 
district I represent to the national average. In 1940 less than 
one out of four people who were over the age of 25 had a high 
school education or better. This was 1940. It is eight out of 
ten today. It is 80 percent today. That is not good enough, but 
it is much better than it was 60 years prior to. One in 40 
people had a BS degree in America. Now one in four has a BS 
degree or better over the age of 25, and 80 percent had a high 
school education or better. So I checked the congressional 
district I represent. 400 some odd thousand people lived in 
that district in 1940. A little over 11,000 had a high school 
education or better. 2.7 percent of the population had a high 
school education or better. Two of those people who did not 
have a high school education, like many others I know, were my 
parents. Why did they not have a high school education? One-
teacher school buildings was the norm for those poor 
communities. And York High School in Jamestown was built by 
Alvin C. York, Sergeant York, in the late 1920's and was too 
great a distance for my parents to travel to, that only high 
school in that area. No transportation. We were not funding 
public education adequately. Basically we were leaving it up to 
small communities to do their own thing or in many cases faith-
based organizations in the area that I am from, the Cumberland 
Plateau. And there are many foundations today, the Methodists, 
the Baptists, the Presbyterians. Foundations are all that is 
left. The buildings are no longer there. We made a strong 
commitment in the 1930's and 1940's to public education. As a 
result, we have seen dramatic improvements.
    Are we committed to funding public education today as we 
were in the past? The Tennessee State Constitution says every 
child, regardless of where they live, every child will be 
afforded the same opportunity for an education as any other 
child in the state. We do not have that on the national level. 
We spend a little over $50 billion out of $2.3 trillion on 
education, and a large part of that goes to research 
universities, to institutions of higher learning beyond the K 
through 12 level. We do have many regulations and requirements 
as a result of federal funding, which in many cases brings an 
unfair, unfunded mandate to the local school districts.
    So how do we change that? I think first of all, 
Representative Gingrey has been very accurate in saying there 
are a limited amount of dollars that are available. I believe 
if you look in the 1940's and 2000, the most important factor 
in a country's continuance as a democracy is to be sure that 
every child gets a great education. Bill Gates, in a recent 
trip that my wife and I took to that area along with several 
other individuals, many who serve in Congress, made the comment 
that was striking to me. He said we hire a large percentage of 
the 28,000 people who work here at this complex in Seattle, 
Washington, and what they build at Bill Gates' Microsoft you 
can carry in your hand. It is technology. It is a program. He 
said most of the folks we hire anymore, the largest percentage, 
are not American citizens, maybe educated in America's 
universities but from some other country. He said here is why. 
In most countries--in many countries there is a merit-based 
educational system, K through 12. We do not have it in America. 
His opinion was that we should not have. That we offer an 
opportunity for every child regardless of academic ability, 
social and economic values. In essence America made the 
commitment to every child K through 12. We do have merit-based 
in higher education. If you do not make the grade you are gone. 
You have got one quarter, one semester and if you are not at a 
certain academic level, you leave. So we have a merit-based 
system in higher education. We chose not to do that on the 
lower level. That requires a much larger commitment of funding 
to be sure that every child is educated to the level that they 
are able to reach. Should we change? I am like Bill Gates, I do 
not think we should. I think our system has been extremely 
successful. It has elevated us, in my opinion, to the most 
prominent country in the civilization of mankind. Do we need to 
fund more for education? You betcha. Will we be able to? 
Perhaps not. The thought in Washington is that most decisions 
being made is that, quite frankly, the funding for education 
should come from local and state agencies, and unless that 
changes, that will still be the driving force for funding for 
education in America.
    Mr. Gingrey. Thank you, Congressman Davis.
    Next question.
    Voice. I am a junior here at Campbell High School and I 
work in the Math Department and I often hear teachers talking 
about the curriculum. I often sit in the classrooms and see 
teachers having to speed through the text and not getting to 
actually students but fill them with information so they can 
pass the test. I am just wondering if there is any room in the 
future of math or science to get away from speeding through a 
subject because maybe a good student does not understand 
because they do not learn that fast, and giving them room to 
actually learn what they need to know so they can be successful 
later in life.
    Mr. Gingrey. That is a great question. I think we will ask 
our witnesses to respond to that.
    Mr. Davis. While someone is getting ready, I might add, 
this school itself is addressing part of the issues he is 
talking about, because you are bringing what we call in 
Tennessee a magnet school. You are bringing those who need to 
be challenged intellectually into a setting such as this here 
at Campbell.
    Dr. Ohme. A characteristic of the American education 
curriculum in contrast to many others in the world is that we 
have a lot of redundancy and the same topics are taught over 
and over again. If you look at the 6th grade and 7th grade math 
you will see it very much. There is a movement in Georgia, and 
this school has taken a lead here in looking at the curriculum 
and reducing the number of concepts that a student is expected 
to master in one year and having teachers focus on that, but 
then not going back and repeating. In other words, if you 
master it and you call upon it and you use it, the teacher does 
not have to go back. So if you start from the first grade and 
define a smaller number of topics per grade and concentrate on 
mastery, then you will build over a decade or so a system that 
I think would address the question that the young man asked.
    Mr. Hill. And to follow up on that comment, Georgia's 
curriculum was audited by Phi Delta Kappa several years ago and 
basically the report says our curriculum was a mile wide and an 
inch deep and it did not provide focus at each of the different 
grade levels and the rewrite of the Quality Core Curriculum now 
called performance standards will provide specific content 
standards and expectations for each of the different grades for 
K-12--K-8, and for grades 9 to 12 specific content standards 
and expectations for each of the different courses. So I think 
we are definitely moving toward having clearer expectations and 
goals. With regard to assessments, there is an ongoing debate 
that I think will forever ask how much testing is too much 
testing and the other side of that, one might suggest that in 
order to ensure that students know the subject matter, you have 
to assess them as frequently as you need to so that you can 
then provide intervention or remediation or allow for 
acceleration for those students who have already mastered the 
content.
    The steps that we have to take at the state is ensuring 
that the curriculum and the assessment and the instruction are 
all aligned so there is no redundancy.
    Mr. Gingrey. Again, just as a little closing comment on the 
question. Obviously the concern over--particularly in regard to 
math and science--teaching to the test and because of that not 
having the opportunity to really pursue the subject matter in 
depth and have that good full understanding. I think as the 
witnesses have said, accountability also is very important. 
There is going to be kind of a transition phase, I think where 
we are going to have to realize that there will be some 
teaching to the test because schools are not going to want to 
be labeled as not making adequate yearly progress, but I think 
as this hearing indicated and the testimony from the witnesses, 
this improvement in math and science is going to need to start 
at the primary--indeed, even the primary school level, and 
there needs to be, in my opinion, coordination between your 
primary/elementary school teachers, your middle school teachers 
and your high school teachers. And a math department does not 
need to be three different math departments in a particular 
school system. I would hope that week that they spend before 
school starts, that teachers that teach math, whether in 
elementary, middle or high school level will come together and 
there can be an understanding of a longitudinal need that 
everybody is on the same page. But for the time being, there is 
going to be a little heartburn in regard to accountability.
    We have time probably for one and possibly two more 
questions.
    Voice. I am a junior here at Campbell High School and I am 
in the IB program. First of all, I would like to say what an 
honor and a privilege it is to be here today and speak with you 
ladies and gentlemen about issues about school.
    My question involves a comment, I am not sure who made it, 
Mr. Gingrey or Mr. Davis, but that American schools are not 
really that competitive on a global level as schools in other 
countries may be. My question is, is there anything being done 
about that? Are there any plans to make our schools more 
competitive so we can more effectively compete on a global 
scale?
    Mr. Gingrey. I appreciate that question. I think I was the 
one that made that comment and Congressman Davis may want to 
comment on this question as well.
    I think it was the Governor of Michigan several years ago 
that led a group on a trip to Japan and some of the western 
European countries and came back and a report was given, an 
accurate report, that I think 15 industrialized countries were 
compared on math and science and the United States was pretty 
close to the bottom on both of these.
    Congressman Davis in his comments just a minute ago alluded 
to maybe one of the reasons for that is this merit-based 
education that we see, I guess maybe in Japan and some of the 
western European countries--Germany--where if you are found to 
be maybe lacking when you get to the eighth grade, then you are 
channeled in one direction and the brighter students are 
channeled in another. And, you know, if we adopted that model, 
and to take it over to a sports analogy in regard to Michael 
Jordan, where would he be today if he had not been allowed to 
struggle through his freshman year when he did not make the 
basketball team. Sometimes people are late bloomers and that is 
certainly true academically as well. So it is a great question 
and it is something that we do need to address. I will turn the 
mic over to Congressman Davis.
    Mr. Davis. In the comment from Mr. Gates--do not want to 
really refer back to him as being the authority, but in the 
comments, he said a lot of our employees now are coming from 
Singapore, India and China because of the merit-based 
educational system. Those who have been tried and tested move 
into certain categories. Therefore they may even be educated 
here in America because our universities perhaps are better. I 
am not sure, but he said many of those are educated here, even 
though K-12 they went through a merit-based educational system.
    I think when you compare our K-12--I am not making excuses 
because we need to improve, but when you compare our K-12 to 
other countries that have a merit-based system, when you are 
talking about the high school graduate, you are comparing maybe 
not apples to oranges, but at least you are not making the same 
comparison of the academic achievements of every child going 
through high school and only a few reaching the 12th grade 
level maybe in some of the other countries.
    I do not know that that is the answer as to where we are 
at, but I understand that when the Nobel laureates are given 
out, that generally over half of those in science are from 
American citizens and over half of the patents applied for in 
the world today are from an American citizen or an American 
company. That does not allude to the fact that we have a 
failing education system. It may be failing for some, but it is 
certainly not failing for all.
    Mr. Gingrey. It is such a good question, I think we will 
let this be the last question and I will ask our expert 
witnesses who have testified here today to go ahead and try to 
address that. And again, the question--I will have you repeat 
it for them.
    Voice. My question was are there any plans, any ways that 
we could increase our competitiveness on a global scale with 
schools in other countries like Japan and India.
    Mr. Hill. I would like to point to two initiatives at the 
Department of Education as undertaken over the last several 
years. One in particular this year, the State will pay for AP 
exams. AP exams, of course, are tied to not only national 
standards but to international standards. And another 
initiative that I want to highlight is the rewrite of the math 
performance standards. We actually looked at different national 
benchmarks and international benchmarks and settled on adopting 
the Japanese model for math. So what you are going to see 
within several years is that beginning in 7th grade through 
12th, teachers of different math courses are going to include a 
standard algebra, geometry and data analysis or statistics and 
it is possible that within the next several years that the term 
algebra or geometry or statistics, those terms may not be the 
name of the different math courses where we are talking about 
maybe math 1, math 2, math 3, math 4, but that does not have a 
nice ring to it, we are going to have to come up with a better 
name, but we are definitely looking at Japan and adopting their 
model for K-12 math concepts and math standards.
    Ms. Purcell. I want to say that at Campbell High School, 
the IB curriculum, our scores on our tests are well above the 
world average. I do not know if it is really a teacher or, you 
know, Americans are stupider or dumber, but----
    [Laughter.]
    Ms. Purcell. --we do receive a more elevated level of 
instruction and are taking the same tests as students in other 
countries, at least at this school and in the United States in 
general, we perform better.
    Voice. I am not necessarily speaking about the IB program 
here, but we do receive an advanced level of education, I was 
really speaking of students who are not on IB, who are 
receiving basic classes.
    Mr. McClure. I think that is a good question because I 
think Campbell being recognized in the top four percent is not 
just our IB program, it includes some other parts of our 
school, our AP scores I think were included in that, which are 
not necessarily our IB students.
    But I think you cannot under-estimate the point that the 
Congressman made about students in Japan. In Japan, as I 
understand it, all of the students are Japanese.
    [Laughter.]
    Mr. McClure. In America, it is a little bit different. We 
do not have one type of blueberry, and neither do we say to any 
of those blueberries that even though you messed up in the 3rd 
grade, you cannot go to the 4th grade ever. You may have to 
work at it a little bit, but you go. We do not say that because 
you messed up in the 3rd grade, you are going to be a farm 
hand, like I was raised on a farm, you do not get relegated to 
that.
    So that has a big role in our educational system. I agree 
it is not just apples to oranges. We do a great job of 
educating what we have. We can do better, no doubt about that, 
but if you really had some other country to compare us to, I 
think when you take the best and the brightest that we have to 
offer, you see what it is that we are really doing. It would 
just take somebody from Japan coming to teach a class in 
America to really understand and appreciate what a great 
situation they have. It would be probably similar to teaching 
private schools here, where you can decide on who you want to 
have and who you do not want. Where in public schools, we do 
not want or get that luxury.
    Mr. Gingrey. Thank you very much, and at this point, we are 
going to go ahead and wrap up. I want to first of all give 
Congressman Lincoln Davis from Tennessee an opportunity to wrap 
up and then I will have a few closing comments and then we will 
adjourn. Congressman Davis.
    Mr. Davis. Well, it has been certainly a pleasure to be 
here today and listen to many of the students who have asked 
the questions that you have asked and for the testimony. Ms. 
Purcell, a student here, as well as the testimony of one of the 
teachers, Mr. McClure, and others, Department of Education as 
well as the universities here in Georgia.
    I am excited about what I am hearing, especially from the 
students. It is exciting what I am hearing about the coach who 
also was a science and math instructor. I think America's 
future is bright because of individuals like you, those of you 
in this room.
    Thank you for listening to those of us who serve in 
Congress and the panel that has been here today.
    I can assure you, Mr. Gingrey, that there are two staff 
members--Joye and John over there--who may want to take this 
peach away from me, but they are not getting it.
    [Laughter.]
    Mr. Davis. It is good to be here. Thank you very much.
    Mr. Gingrey. Congressman Davis, thank you.
    [Applause.]
    Mr. Gingrey. Let me just summarize for a minute. First of 
all, to thank our witnesses--Ms. Purcell, one of your own; Mr. 
McClure, indeed one of your own outstanding faculty members; 
and Mr. Hill, Dr. Ohme and Mr. Cassidy--how much we appreciate 
them taking the time out of their very, very busy schedules and 
how the important work that they do to be here and spend half a 
day with us this morning, how much we appreciate each and every 
witness who has testified.
    As I listened to both the witnesses and Congressman Davis 
and the questions from the audience, it made me realize once 
again how important it is to have a Full Committee hearing of 
the United States Congress Science Committee here in my 
District in Cobb County, Georgia at Campbell High School--
Newsweek, top four percent of the best schools in America. What 
a great venue to discuss this issue, this so important issue 
regarding fueling our high tech workforce with math and science 
education.
    Congressman Davis pointed out something to me that is 
easily overlooked, that we compare the United States of America 
with these other industrialized countries, that we are not 
really comparing apples and apples, and he described the merit-
based education that some of these other countries have. And it 
is so important to remember, I think, in closing here today 
that math and science and technology--at one point in our 
history maybe when some of us with a little bit of gray around 
the temple went to high school and college, everybody did not 
need to have a good understanding of math and science. But in 
today's 21st century where yes, we are losing a lot of these 
old cut and sew manufacturing type jobs that did not take great 
skills or much education. Everybody--everybody--today needs to 
have a good understanding of math and science. As I go around 
my District and there are a lot of manufacturing companies--
Lincoln, I was just yesterday at a Honda plant in Haralson 
County, I was just at a clothing manufacturing plant in Carroll 
County, and the equipment that they use is so highly advanced, 
computer-based, and sometimes robotics. So math and science is 
important for each and every student. And that is why we are 
here today--to try to instill a lot of enthusiasm. As has 
already been pointed out by Congressman Davis, if we had more 
teachers like Mr. McClure, then I think every student could be 
a valedictorian like Ms. Purcell.
    I thank all of you for coming. It has been a great hearing. 
And at this point, I declare this hearing over. Thank you very 
much.
    [Whereupon, at 11:25 a.m., the Committee was adjourned.]

</pre></body></html>
